<html>
<title> - ENSURING FULL IMPLEMENTATION OF THE 9/11 COMMISSION'S RECOMMENDATIONS</title>
<body><pre>[Senate Hearing 110-865]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 110-865
 
                  ENSURING FULL IMPLEMENTATION OF THE
                   9/11 COMMISSION'S RECOMMENDATIONS

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                            JANUARY 9, 2007

                               __________

        Available via http://www.access.gpo.gov/congress/senate

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs


                  U.S. GOVERNMENT PRINTING OFFICE
33-871                    WASHINGTON : 2009
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

               JOSEPH I. LIEBERMAN, Connecticut, Chairman
CARL LEVIN, Michigan                 SUSAN M. COLLINS, Maine
DANIEL K. AKAKA, Hawaii              TED STEVENS, Alaska
THOMAS R. CARPER, Delaware           GEORGE V. VOINOVICH, Ohio
MARK L. PRYOR, Arkansas              NORM COLEMAN, Minnesota
MARY L. LANDRIEU, Louisiana          TOM COBURN, Oklahoma
BARACK OBAMA, Illinois               PETE V. DOMENICI, New Mexico
CLAIRE McCASKILL, Missouri           JOHN WARNER, Virginia
JON TESTER, Montana                  JOHN E. SUNUNU, New Hampshire

                  Michael L. Alexander, Staff Director
                     Kevin J. Landy, Chief Counsel
                    Beth M. Grossman, Senior Counsel
     Brandon L. Milhorn, Minority Staff Director and Chief Counsel
   Robert L. Strayer, Minority Director for Homeland Security Affairs
               Kate C. Alford, Minority Associate Counsel
                  Trina Driessnack Tyrer, Chief Clerk


                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Lieberman............................................     1
    Senator Collins..............................................     4
    Senator McCaskill............................................    23
    Senator Levin................................................    25
    Senator Voinovich............................................    28
    Senator Tester...............................................    31
    Senator Sununu...............................................    34
    Senator Obama................................................    37
    Senator Coleman..............................................    41
    Senator Akaka................................................    44
    Senator Warner...............................................    48
    Senator Carper...............................................    50
    Senator Landrieu.............................................    53

                               WITNESSES
                        Tuesday, January 9, 2007

Hon. Michael R. Bloomberg, Mayor, City of New York...............     9
Hon. Lee H. Hamilton, former Vice Chair, National Commission on 
  Terrorist Attacks Upon the United States.......................    13
Hon. Slade Gorton, former Commissioner, National Commission on 
  Terrorist Attacks Upon the United States.......................    14
Hon. Timothy J. Roemer, former Commissioner, National Commission 
  on Terrorist Attacks Upon the United States....................    16
Chief Joseph C. Carter, President, International Association of 
  Chiefs of Police...............................................    57
James M. Thomas, Commissioner, Connecticut Department of 
  Emergency Management and Homeland Security.....................    60
Mary A. Fetchet, Founding Director, Voices of September 11th, and 
  Mother of Bradley James Fetchet................................    68
Carol Ashley, Family Advisory Board Member, Voices of September 
  11th, and Mother of Janice Ashley..............................    73
Carie Lemack, Co-Founder and President, Families of September 
  11th, and Daughter of Judy Larocque............................    76

                     Alphabetical List of Witnesses

Ashley, Carol:
    Testimony....................................................    73
    Prepared statement...........................................   132
Bloomberg, Hon. Michael R.:
    Testimony....................................................     9
    Prepared statement...........................................    83
Carter, Chief Joseph C.:
    Testimony....................................................    57
    Prepared statement...........................................   100
Fetchet, Mary A.:
    Testimony....................................................    68
    Prepared statement...........................................   113
Gorton, Hon. Slade:
    Testimony....................................................    14
    Joint prepared statement with Mr. Hamilton and Mr. Roemer....    92
Hamilton, Hon. Lee H.:
    Testimony....................................................    13
    Joint prepared statement with Mr. Gorton and Mr. Roemer......    92
Lemack, Carie:
    Testimony....................................................    76
    Prepared statement...........................................   163
Roemer, Hon. Timothy J.:
    Testimony....................................................    16
    Joint prepared statement with Mr. Gorton and Mr. Hamilton....    92
Thomas, James M.:
    Testimony....................................................    60
    Prepared statement...........................................   109

                               APPENEDIX

Post-hearing Questions for the Record submitted to Mr. Roemer 
  from:
    Senator Akaka................................................   173
    Senator Voinovich............................................   174
Post-hearing Questions for the Record submitted to Mr. Gorton 
  from:
    Senator Akaka................................................   177
    Senator Landrieu.............................................   179
    Senator Voinovich............................................   180
Post-hearing Questions for the Record submitted to Mr. Thomas 
  from:
    Senator Collins..............................................   184
    Senator Voinovich............................................   185
Post-hearing Questions for the Record submitted to Mr. Bloomberg 
  from:
    Senator Akaka................................................   187
    Senator Collins..............................................   189
    Senator Voinovich............................................   192
Post-hearing Questions for the Record submitted to Mr. Carter 
  from:
    Senator Collins..............................................   195
    Senator Voinovich............................................   196
Post-hearing Questions for the Record submitted to Mr. Hamilton 
  from:
    Senator Akaka................................................   198
    Senator Collins..............................................   200
    Senator Voinovich............................................   201
Missouri State Auditor documents submitted by Senator McCaskill..   205
Letter to Hon. Tom Kean, Chair, and Hon. Lee Hamilton, Vice 
  Chair, Board of Directors, 9/11 Public Discourse Project, dated 
  January 3, 2005, submitted by Senator Voinovich................   254
First Response Coalition, prepared statement.....................   255
Janet Napolitano, Governor of Arizona, prepared statement........   259
James M. Shannon, President and CEO, National Fire Protection 
  Association, prepared statement................................   267
William G. Raisch, Director, and Matt Statler, Associate 
  Director, International Center for Enterprise Preparedness 
  (InterCEP), New York University, and Rich Cooper, Principal, 
  Olive, Edwards and Cooper, prepared statement..................   268


 ENSURING FULL IMPLEMENTATION OF THE 9/11 COMMISSION'S RECOMMENDATIONS

                              ----------                              


                        TUESDAY, JANUARY 9, 2007

                                       U.S. Senate,
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:32 a.m., in 
room 342, Dirksen Senate Office Building, Hon. Joseph I. 
Lieberman, Chairman of the Committee, presiding.
    Present: Senators Lieberman, Levin, Akaka, Carper, 
Landrieu, Obama, McCaskill, Tester, Collins, Stevens, 
Voinovich, Coleman, Warner, and Sununu.

            OPENING STATEMENT OF CHAIRMAN LIEBERMAN

    Chairman Lieberman. That felt good. [Laughter.]
    Good morning and welcome to the first hearing of the 
Homeland Security and Governmental Affairs Committee in this 
110th Congress.
    Like all beginnings, this one is full of opportunities--in 
the case of our Committee, the opportunity to work together to 
protect the homeland security of the American people and to 
improve the functions of our government. Those are the two 
unique and significant responsibilities that this Committee is 
given by the rules of the U.S. Senate. Together, we can and 
will carry them out productively in this session.
    I particularly want to welcome the new Members of this 
Committee, some of whom are here, particularly the new Members 
who are also new Senators who are right here on time. Please 
don't learn the bad habits of Senators. I welcome Senator 
Claire McCaskill and Senator Jon Tester to this Committee. 
Joining the Committee are Senator Mary Landrieu and Senator 
Barack Obama, who we welcome. We welcome back to the Committee 
Senator John Sununu, who has wisely rejoined us after a 
temporary absence. I look forward to working with all the 
Members of the Committee in this session of Congress.
    I am proud to again assume the Chairmanship of this 
Committee that traces its history back to 1921, when it was 
first established as the Committee on Expenditures in Executive 
Departments. In the years since then, this Committee has had 
many honorable and effective Chairmen, including, I am proud to 
say, my own personal mentor, Senator Abraham Ribicoff of 
Connecticut. But I believe that history will find that the 
Committee had no more productive period than the years in which 
Senator Susan Collins served as Chairman of this Committee.
    From the time Senator Collins took the gavel in January 
2003, the first woman to ever Chair this Committee, we have not 
only conducted many important oversight investigations, but we 
have fashioned and seen through the Senate and the full 
Congress a series of very important historic pieces of 
legislation, including our far-reaching investigation of 
government failings in response to Hurricane Katrina and then 
the enactment of significant reforms to rectify those failings. 
We passed major port security legislation protecting our ports 
from attack, making it harder for terrorists to smuggle weapons 
of mass destruction in cargo containers. We enacted a landmark 
postal reform bill, the first major modernization of the Postal 
Service in more than three decades. Senator Gorton, with the 
experience of a Senator, knows that may be the most difficult 
of the accomplishments that occurred under Chairman Collins' 
term.
    There are many others, but perhaps most significant is the 
subject of our hearing this day. We first passed the 
legislation creating the 9/11 Commission, I am proud to say, 
and then passed the landmark Intelligence Reform and Terrorism 
Prevention Act of 2004, which implemented most of the 
recommendations of that Commission.
    Throughout it all, Senator Collins has worked tirelessly 
for the good of the American people without regard to party 
affiliation. It has been a great personal pleasure to work with 
her. I said to Senator Collins after the results of the 
election last fall were in that as far as I was concerned, all 
that was going to change in our relationship was the title that 
each of us had. I aspire to continue in the tradition of non-
partisanship and productivity that she has set. The truth is 
that in a Congress increasingly divided by partisanship, this 
Committee has been an oasis of non-partisanship, which I think 
helps explain why it has also been so productive.
    So now in that spirit, let us get to work. Since the 
enactment of the 9/11 legislation, this Committee has monitored 
and overseen its implementation as part of our broader effort 
and responsibility to protect the security of the American 
people from terrorism. Today, we continue that work.
    Before we look forward, I want to say that I believe that 
much has been accomplished as a result of the work of the 
Commission and the passage of the 2004 legislation. Most 
significantly, the legislation created a strong Director of 
National Intelligence (DNI) with a budget and personnel 
authority necessary to coordinate our national intelligence 
efforts so that the dots, as we said, would be connected as 
they were not before September 11. We created a National 
Counterterrorism Center (NCTC) to connect more of those dots, 
which were left scattered before September 11, and to 
coordinate strategic operational planning across the Federal 
Government to fight terrorism.
    Incidentally, I recently visited the NCTC. I was very 
impressed by what has been established there. I came home and 
said to my wife that evening that I saw some things today that 
should make her and every other American feel more secure about 
what their government is doing to prevent terrorist attacks.
    These, the DNI and the NCTC, were the two major 
recommendations of the 9/11 Commission, which is to say the 
recommendations that the Co-Chairs Tom Kean and Lee Hamilton, 
whom we are honored to have with us today, told us we should 
most significantly adopt, and so I am proud that we have been 
able to do that. They are significant achievements. We are 
definitely better protected than we were before September 11, 
but we are not as well protected as we want and need to be. 
There are parts of the 9/11 Commission report that were not 
adopted and implemented. Some were adopted but only partially. 
Others were adopted and oversight will lead us, I believe, to 
conclude that they have not been adequately implemented.
    That is the focus that we begin with at this hearing today, 
to take a look at some of what has not been done, and I would 
say to start with that though some progress was made in this 
regard in the last Congress, the Congress itself has failed to 
reform its own oversight of homeland security and has done even 
less with oversight of the intelligence community, which the 9/
11 Commission recommended as a priority. We found it a lot 
easier to reform the rest of the government than we did to 
reform ourselves post-September 11. That is unfinished work.
    Information sharing--the Commission's report showed how 
crucial it is that our law enforcement and intelligence 
agencies share information among themselves and with State and 
local agencies, but the new Information Sharing Environment 
that was envisioned in our intelligence reform legislation 
seems to me to not yet have fully taken shape at the scale 
necessary.
    Third, communications interoperability--September 11 showed 
that it is imperative in a disaster for first responders to be 
able to talk to each other. It is clear that many of the first 
responders died on September 11 in New York because they 
couldn't communicate with one another. Hurricane Katrina showed 
us 4 years later that we still have a long way to go. This is a 
national problem, and the Federal Government needs to provide 
the leadership to solve it.
    Fourth, keeping suspected terrorists out of the United 
States. The intelligence reform legislation included a number 
of provisions intended to prevent terrorist infiltration of the 
United States. The government has focused substantial resources 
on stopping illegal immigration across the Southwestern border, 
but terrorists typically have attempted to enter the country by 
obtaining legitimate travel papers, and we have to do more to 
analyze their methods and develop initiatives to stop them.
    Fifth, the Privacy and Civil Liberties Oversight Board--
implementing an important 9/11 Commission recommendation, the 
Intelligence Reform Act created this Board as a means of 
reconciling the national need for security with our primary 
national value of liberty. In 2004, the Senate overwhelmingly 
passed provisions we had drafted to create this independent 
Board, but the Board Congress enacted into law is less robust 
and independent and therefore deserves reconsideration.
    State homeland security funding--unfortunately, we in 
Congress have not been able to come to an agreement to enact 
legislation concerning homeland security grants to State and 
local governments. Instead, in that failure to act, we have 
left the lawmaking to the Department of Homeland Security. Each 
year, the Department comes out with a new set of rules 
reflecting its then well-intentioned yet inconsistent effort to 
determine how homeland security grants can be distributed to 
reflect the risks throughout the Nation.
    The House passed a bill in this regard. The Senate passed a 
bill in this regard. Both distribute the overwhelming 
percentage of the money based on risk. The question is where to 
draw the line. I will say that I intend to make it a priority 
goal this year for this Committee to pass legislation and come 
to a meeting of the minds with our colleagues in the House so 
we can put into law an appropriate formula from the Federal 
level for responding to risk.
    Let me just say finally that my hope is that in the next 
few weeks, by the end of the month, we will report out a piece 
of legislation that will take steps forward to adopt some of 
the unadopted, unimplemented, or inadequately implemented parts 
of the 9/11 Commission report. That is the request of the 
leadership of the Senate, and I hope the Committee will work 
together to accomplish that. But that won't be the end of it. 
We are going to continue to work on other parts that we may not 
be able to adopt in the next 2 weeks, and, of course, a 
priority of this Committee in this session will be to continue 
to monitor and oversee the work of the DNI, the NCTC, and the 
Department of Homeland Security itself. That is our 
responsibility.
    We are blessed that more than 5 years after September 11, 
America has not been the target of another terrorist attack. 
That is a combination, I think, of what our government has done 
to prevent an attack and of the grace of God; we have just been 
plain lucky. The enemy is still out there, and we are not as 
defended and protected as we should be. Until we are, we are 
going to work tirelessly and restlessly with the help of the 
distinguished witnesses that are coming before our Committee 
today to do just that.
    She has a different title, but she is my dear friend and 
co-worker, partner in these efforts, and will continue to be, 
Senator Susan Collins of Maine.

              OPENING STATEMENT OF SENATOR COLLINS

    Senator Collins. Thank you very much, Mr. Chairman. Let me 
start by thanking you for your extremely generous comments. It 
was very hard to relinquish the gavel. [Laughter.]
    But if I had to do so, there is no one whom I would rather 
relinquish it to. My colleagues should know that I have already 
provided the new Chairman with a chocolate gavel to help him 
along in his new task.
    As the Chairman has indicated, this is the first Homeland 
Security Committee hearing of the new Congress, and it 
appropriately reflects the change in control of the Senate. 
What has not changed, however, is my high regard for the 
wisdom, the leadership, and the collegiality of our new 
Chairman, my respect for all of the Members of this Committee, 
and my belief that the Committee will continue to pursue a 
course of civility and cooperation, producing bipartisan 
legislation that benefits the American people. That is the 
proud tradition of this Committee, and I know it is one to 
which the new Chairman is firmly committed, and I pledge my 
support to working very closely with him.
    As Members of the Homeland Security Committee, we conduct 
our work ever mindful that thousands of lives were lost on 
September 11, that terrorists still threaten our Nation, and 
that we must work to protect Americans against that threat. The 
presence today of the family members of the victims of 
September 11, 2001, is a vivid reminder of our solemn 
responsibility--responsibility that transcends partisan 
politics.
    I also very much look forward to hearing the testimony this 
morning of Mayor Bloomberg, whose leadership on 
counterterrorism issues has been outstanding. We are also very 
fortunate to have three former members of the 9/11 Commission 
with us, Senator Slade Gorton, Congressman Lee Hamilton, and 
Congressman Tim Roemer. All of them provided this Committee 
with much good guidance as we drafted the Intelligence Reform 
Act of 2004, which, like the Chairman, I look back on as this 
Committee's greatest accomplishment in the last Congress.
    I also very much welcome the testimony of the President of 
the International Association of Chiefs of Police and 
Connecticut's homeland security leader.
    As the title of this hearing indicates, our task is by no 
means finished. We would, however, be remiss if we did not 
recognize that Congress has already enacted many significant 
measures to achieve the goals of the 9/11 Commission. In 2004, 
a Herculean bipartisan effort by this Committee made possible 
the most significant sweeping reforms in the intelligence 
community in more than 50 years. The Intelligence Reform and 
Terrorism Prevention Act of 2004 established the position of 
the Director of National Intelligence and created the National 
Counterterrorism Center, which the Chairman and I recently 
visited. But this major reform legislation also improved 
interagency information sharing, strengthened border and 
transportation security, hindered terrorist travel by 
consolidating watch lists and improving the visa issuance 
process, expanded our ability to cut off the financing for 
terrorist activities, and established congressional 
expectations for coordinating diplomatic, military, and foreign 
aid initiatives in the war on terrorism.
    Mindful of the balance between greater security and the 
civil liberties and privacy cherished by all Americans, we also 
established the Privacy and Civil Liberties Oversight Board and 
created two new privacy and civil liberties officers.
    As  this  partial  summary  suggests,  the  recommendations 
 of  the 9/11 Commission were the very basis for the provisions 
in this important legislation. More recently, this Committee 
wrote the new laws that greatly strengthen the protections for 
America's cargo ports and chemical facilities, again addressing 
vulnerabilities outlined and highlighted by the Commission's 
report.
    Implementing these Commission recommendations did not 
lighten our workload, however. Whenever a new policy or a new 
program is enacted, diligence in monitoring implementation and 
results is absolutely critical. For example, the Department of 
Homeland Security has granted nearly $3 billion since 2003 for 
improving interoperable communications, which are so vital to 
any coordinated disaster response. Yet we learned in our 
investigation of the response to Hurricane Katrina that this 
area is still woefully lacking, and just last week DHS reported 
that only six of 75 cities that it surveyed had received top 
marks for interoperable communications. More work needs to be 
done in this area. I am sure the members of the Commission and 
the Mayor agree with the Committee Members on that.
    Legislative efforts to implement the 9/11 Commission's 
recommendations were hard fought and they produced much 
progress. But the Commissioners warned us that one 
recommendation, if left unfulfilled, could undermine all those 
that were adopted. The Commission delivered this stark verdict: 
Congressional oversight for intelligence and counterterrorism 
is dysfunctional. The Commission made reform of congressional 
oversight a key recommendation for bolstering America's 
defenses, noting ``The other reforms we have suggested will not 
work if congressional oversight does not change, too.'' 
Unfortunately, this is an area where Congress did not fulfill 
the recommendations of the 9/11 Commission, and more work 
remains to be done.
    Mr. Chairman, I fully agree that urgent, unfinished 
business remains as we review the progress that we have made in 
passing the 9/11 Commission's recommendations. Yet Congress is 
not a rubber stamp. The 9/11 Commission did a terrific job, and 
I have such respect for its members. I agree with and have 
worked hard to implement many, indeed most, of its 
recommendations. But the thorough process that this Committee 
undertook to study the report demonstrated that not every 
single recommendation should be enacted.
    For example, the Commission recommended that the Department 
of Defense rather than the CIA be the lead agency for directing 
and executing paramilitary operations. The DOD, the CIA, and 
many experts opposed that recommendation, and Congress did not 
adopt it. And I think some of the members of the 9/11 
Commission would agree that perhaps we did make the right 
decision in that area.
    Nevertheless, Mr. Chairman, it is so fitting that we start 
our work this year by evaluating the progress in countering the 
threats facing our country, and there is no better way to start 
than by hearing from the distinguished witnesses that you have 
called today. I look forward to working with you, Mr. Chairman, 
with both the veteran, the returning, and new Members of this 
Committee to identify and advocate added protections for our 
fellow citizens, and I once again thank the 9/11 Commission, 
the families of the victims of the terrorist attacks, State and 
local officials, including the Mayor, and other experts for 
their much needed guidance.
    Thank you, Mr. Chairman.
    [The prepared statement of Senator Collins follows:]

                 PREPARED STATEMENT OF SENATOR COLLINS

    Mr. Chairman, this is the first Homeland Security Committee hearing 
of the new Congress, and it appropriately reflects the change in 
control of the Senate.
    What has not changed, of course, is my high regard for the wisdom, 
leadership, and collegiality of our new Chairman, my respect for all of 
our Members, and my belief that this Committee will continue to pursue 
a course of civility and cooperation, producing bipartisan legislation 
that benefits the American people. That is the proud tradition of this 
Committee.
    As Members of the Homeland Security Committee, we conduct our work 
ever mindful that thousands of lives were lost on 9/11, that terrorists 
still threaten our Nation, and that we must protect Americans against 
that threat. The presence today of family members of victims of the 
terror attacks of September 11th is a vivid reminder of our solemn 
responsibilities--responsibilities that transcend partisan politics.
    I also look forward to hearing the testimony of Mayor Bloomberg of 
New York City, whose leadership on counter-terrorism has been 
outstanding, and of three former members of the 9/11 Commission, 
Senator Slade Gorton and Congressmen Lee Hamilton and Tim Roemer, who 
provided the Committee with so much good guidance as we drafted the 
Intelligence Reform Act in 2004. I also welcome the testimony of Joseph 
Carter, president of the International Association of Chiefs of Police, 
and James Thomas, Connecticut's homeland-security leader.
    As the title of this hearing indicates, our task is by no means 
finished. We would, however, be remiss if we did not recognize that 
Congress has already enacted many significant measures to achieve the 
goals of the 9/11 Commission.
    In 2004, a Herculean, bipartisan effort by this Committee made 
possible the most significant reform in the structure and operation of 
our intelligence community in more than 50 years.
    The Intelligence Reform and Terrorism Prevention Act of 2004 
established the position of Director of National Intelligence and 
created a National Counterterrorism Center to coordinate intelligence 
analysis and operational planning for counterterrorism.
    This major reform legislation also:

    <bullet>  Improved interagency information-sharing and required a 
more efficient security clearance process;
    <bullet>  Strengthened border and transportation security;
    <bullet>  Hindered terrorist travel by consolidating threat 
screening and improving the visa issuance process;
    <bullet>  Expanded our ability to cut off the financing that 
enables terrorist activities; and
    <bullet>  Established congressional expectations for coordinating 
diplomatic, military, and foreign-aid initiatives in the war on terror.

    Mindful of the balance between greater security and the civil 
liberties and privacy rights cherished by all Americans, we also 
established the Privacy and Civil Liberties Oversight Board and created 
two new privacy and civil liberties officers--one at the Department of 
Homeland Security and one in the Office of the DNI.
    As this partial summary suggests, the recommendations of the 9/11 
Commission were the basis for many provisions in the Intelligence 
Reform Act.
    More recently, this Committee wrote the new laws that greatly 
strengthened protections for America's cargo ports and chemical 
facilities, again addressing vulnerabilities highlighted in the 
Commission report.
    Implementing these Commission recommendations did not lighten our 
workload, however. Adopting a new policy or creating a new program 
demands diligence in monitoring implementation and results. For 
example, the Department of Homeland Security has granted nearly $3 
billion since 2003 for improving interoperable communications, so vital 
to any coordinated disaster response. Yet, just last week DHS reported 
that only 6 of 75 cities it surveyed had received top marks for 
interoperable communications.
    More work must be done in the area of interoperable 
communications--on this, Members of this Committee and the Commission 
can agree. DHS must continue working with State and local governments, 
and this Committee must persevere in our oversight. The Nation demands 
better results.
    Legislative efforts to implement the 9/11 Commission's 
recommendations were hard-fought and produced much progress. But the 
Commissioners warned that one recommendation, if left unfulfilled, 
could undermine all those that were adopted.
    The Commission delivered this stark verdict: ``Congressional 
oversight for intelligence--and counterterrorism--is dysfunctional.'' 
The Commission made reform of Congressional oversight a key 
recommendation for bolstering America's defenses, noting that ``The 
other reforms we have suggested . . . will not work if congressional 
oversight does not change, too.''
    The 9/11 Commission called for a joint intelligence committee or, 
alternatively, for intelligence committees in each house with combined 
authorizing and appropriating authorities. We have neither, though some 
progress has been made on secondary recommendations like setting aside 
intelligence committee term limits in the Senate.
    The 9/11 Commission also urged each house to establish an oversight 
committee for all homeland-security issues. The Commission noted that 
DHS officials were appearing before 88 committees and subcommittees.
    Although the House and Senate have established such committees, 
their jurisdiction is far from complete. The House Homeland Committee 
does not have full jurisdiction over FEMA. This Committee, though 
charged with oversight of the Department of Homeland Security, lacks 
jurisdiction over several of its components, including the two 
largest--TSA and the Coast Guard.
    Mr. Chairman, I fully agree that urgent, unfinished business 
remains as we review the progress we have made in passing the 9/11 
Commission's recommendations.
    Yet, Congress is not a rubber stamp. The 9/11 Commission did a 
terrific job, and I agree with, and have worked hard to implement, many 
of its recommendations. But the thorough process that this Committee 
undertook to study the report demonstrated that not every single 
recommendation should be enacted.
    For example, the Commission recommended that the Department of 
Defense rather than the CIA be the lead agency for directing and 
executing paramilitary operations. The DOD, the CIA, and many experts 
opposed that recommendation, and Congress did not adopt it.
    Nevertheless, it is fitting that we start our work in the new year 
by evaluating our progress in countering threats facing our country. I 
look forward to working with both the veteran and the new Members of 
the Committee to identify and advocate added protections for our fellow 
citizens, and I once again thank the 9/11 Commission, the families of 
the victims of the terrorist attacks, State and local officials, and 
other experts for their guidance.
    Thank you, Mr. Chairman.

    Chairman Lieberman. Thanks very much, Senator Collins.
    Now we go to our first panel, a very distinguished panel. I 
thank you all for being here. Our three former colleagues, Lee 
Hamilton, Slade Gorton, and Tim Roemer, have shown us and the 
rest of America that there is productive life after service in 
Congress, and we thank you very much for all you have done, 
including returning here.
    I welcome Mayor Bloomberg. It is really an auspicious 
beginning for the first witness of our year to be the Mayor of 
New York. He is a great mayor. He is a great friend. He has 
very personal and very proud connection to the subject of this 
hearing. The Mayor was chosen to lead the City of New York in 
2001 while the embers still smoldered at the World Trade 
Center. He brought the city, which is the Nation's largest and 
most diverse, back, brought it together to rebuild itself, 
strengthen its ability to respond to a future attack, and has 
done some pioneering work in creating the systems to prevent an 
attack before it takes place.
    As I begin my time as Chairman of this Homeland Security 
Committee, I look forward to working with Mayor Bloomberg as a 
full partner in addressing the homeland security needs of our 
country. I don't think anyone has more to offer in that regard 
than you do. The Mayor gave very strong, influential testimony 
before the 9/11 Commission and has continued to bring forward 
important practical solutions to address the security of our 
Nation's cities. I look forward to his counsel, his visits to 
Washington, and our visits to New York as we move ahead 
together to better protect the security of our cities and our 
country.
    Mayor Bloomberg, thank you for being here.

 TESTIMONY OF HON. MICHAEL R. BLOOMBERG,\1\ MAYOR, CITY OF NEW 
                              YORK

    Mayor Bloomberg. Chairman Lieberman, Ranking Member 
Collins, Senator McCaskill, Senator Tester, Senators Stevens, 
Voinovich, Coleman, and Sununu, thank you all for having me 
here.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mayor Bloomberg appears in the 
appendix on page 83.
---------------------------------------------------------------------------
    First, let me congratulate you, Mr. Chairman, on your 
recent selection as Chairman. I think everyone knows of your 
formidable and well-documented commitment to fighting 
terrorism, and I look forward to working with someone who 
really understands the needs of New York and the region.
    Let me also acknowledge Senator Collins for her great 
service in leading this Committee, a Committee that has played 
a crucial role in ensuring the safety of our Nation.
    It is also a pleasure and an honor for me to join three 
distinguished members of the 9/11 Commission, Lee Hamilton, 
Slade Gorton, and Tim Roemer. These are three people that I 
guess I never thought I would be sitting with, so the pleasure 
is mine.
    This morning, I wanted to take the brief opportunity I have 
to talk about the progress New York City has made since 
September 11, 2001, in improving our counterterrorism 
capabilities. I also want to discuss crucial areas where the 
Federal Government can and must do more to help this Nation.
    As residents of the world's media capital, the Nation's 
financial hub, and the center of international diplomacy, we in 
New York realize that the attack on the World Trade Center was 
not intended to be a single, solitary event. We remain a prime, 
if not the prime, target for al Qaeda and other terrorist 
groups. This presents challenges that we are determined to meet 
head on, and we are sparing no expense. As I have said 
repeatedly, my responsibility as the Mayor is to first do 
everything I can to keep our city safe and then to find a way 
to pay for it, not the other way around.
    From the outset, I think we have done exactly that. Our 
Administration has taken steps to strengthen all parts of our 
city, including our first line of defense, the NYPD. We created 
a unique Counterterrorism Bureau and overhauled the NYPD's 
Intelligence Division. Both units now employ a total of 1,000 
police officers, and they have become a model to other big city 
police departments around the Nation and crucial weapons in the 
global fight against terrorism.
    In August 2004, for example, they foiled a plot to bomb the 
Herald Square subway station in midtown Manhattan just a week 
before the Republican National Convention. The tip came from an 
informant whom the Intelligence Division had cultivated in our 
city, and just yesterday you may have read in the paper one of 
the plotters was sentenced to 30 years in jail for what he was 
trying to do.
    Today, the NYPD's intelligence and counterterrorism program 
reaches around the world. In fact, we currently have 10 of our 
best detectives posted in Tel Aviv, London, Singapore, and 
other foreign cities working to obtain a full picture of the 
global terrorism threat. Getting a firsthand view of other 
approaches has always been one of our guiding management 
principles. We don't have all the answers, and we will take 
help from anyone, anyplace. We do not worry about whether we 
invented it or not. We only worry about whether it would be 
useful and whether it is right.
    Other city agencies are also keys to our counterterrorism 
response. Our fire department has thoroughly expanded training 
for chemical, biological, and radiological emergencies. We have 
also created a subway simulator at the fire academy to train 
for emergency underground problems, and we are expanding the 
length of training for our new recruits, making ours one of the 
longest and most intensive fire fighting training programs in 
any city in the world.
    Our Health Department's Syndromic Surveillance System 
examines 60,000 pieces of health information every single day, 
including ambulance runs and pharmacy sales, for the first 
signs of a bioterror attack. With bioterrorism, discovering 
that you are being attacked is as difficult as dealing with the 
actual attack. Our response last year to an isolated incidence 
of anthrax, although unrelated to terrorism, I think 
demonstrated our enhanced capability to identify and then 
react.
    Our Office of Emergency Management, which recently moved 
into a new state-of-the-art headquarters, has taken the lead in 
organizing dozens of interagency simulations. They have tested, 
for example, responses to natural disasters, such as a Category 
4 hurricane, and terrorist attacks that employ bioterrorism and 
other weapons of mass destruction. We have done simulations on 
our subway system. We have done simulations in Shea Stadium. We 
continue to believe that looking at these problems in advance 
is the way to be prepared when something happens.
    Interagency communications and coordination has also been 
enhanced through our Citywide Incident Management System, or 
CIMS, as it is called, which adapts the new National Incident 
Management System to America's largest city and clearly spells 
out the division of responsibility for first responders at 
major incidents. CIMS has frequently been put to the test 
during our day-to-day operations and response from aviation 
accidents to building collapses and explosions, and in each 
case, CIMS has ensured that we responded swiftly and expertly.
    In New York, we understand that preventing terrorism and 
responding to any large-scale emergency also depends on smooth 
coordination among key Federal, State, and city agencies. Our 
police department has an exemplary working relationship with 
the FBI's New York Field Office and its Assistant Director, 
Mark Mershon, and we have assigned more than 120 police 
officers to the FBI-NYPD Joint Terrorism Task Force, and I 
think the result is a genuine two-way information sharing that 
is unique in America. For example, when we discovered a threat 
to our subways in 2005, we stood shoulder-to-shoulder with the 
FBI and assured the public that we were taking the steps 
necessary to keep our transit system safe.
    That is what we are doing to keep our city, region, and to 
some extent the country safe. But my message to you today has 
to deal with how we pay for this because all of these 
prophylactic and response capabilities require funding, and 
such excellent cooperation with the FBI notwithstanding, some 
parts of the Federal Government have not been as good a partner 
to us as I think they should be.
    From day one, I have urged that homeland security funding 
be distributed based on risk and risk alone. I first made this 
case in front of members of the House Appropriations Committee 
in April 2003, and I have repeated this call before Congress 
and at the White House many times since. I have talked about 
threat-based funding when I testified before the 9/11 
Commission, and I was glad that Vice Chair Lee Hamilton, 
Senator Slade Gorton, Congressman Tim Roemer, and the other 
Commission members heartily endorsed my recommendation.
    Yet time and time again, our calls for fully risk-based 
homeland security funding have been ignored. Instead, we have 
seen huge sums of homeland security money spread across the 
country like peanut butter. More than $3 billion has been 
distributed in this irrational way so far. Some communities 
don't even know what to do with it when they get it. For 
instance, one town spends some of its share on a custom-built 
trailer for its annual October mushroom festival. Al Qaeda must 
be laughing all the way to their tents. Meanwhile, New York 
City, which has enormous needs, which has been attacked before 
and has been targeted many times since and will most likely be 
targeted again, goes wanting.
    If you want to build a honey pot to spread money around the 
50 States, so be it, but call it what it is. Don't call it 
homeland security. Homeland security funds should all go to the 
places where we need those monies. Do not confuse risks with 
targets. Everyplace there are risks, but there aren't that many 
targets, and targets are what the enemies of this country will 
focus on.
    I think it is fair to say that both the Administration and 
Congress share the blame for the politicalization of homeland 
security funding. For the sake of New York City and the sake of 
our Nation, I hope you stop writing politically derived 
formulas into homeland security bills. Instead, you should give 
the Department of Homeland Security complete flexibility to 
allocate 100 percent of homeland security grants according to 
risk, threat, and return on investment and then challenge the 
Department to exercise this flexibility in a coherent and 
rigorous manner.
    Now, to give credit where credit is due, Homeland Security 
Secretary Chertoff has expressed now a willingness to bring 
more common sense into the process and to better address our 
concerns. Last Friday, the Department of Homeland Security 
released new guidelines for the distribution of funds in fiscal 
year 2007, which gave greater consideration to threat, 
vulnerability, and consequences of a terrorist attack. For the 
first time, the Department's Urban Areas Security Initiative 
will recognize six high-risk, sensitive areas, including New 
York. Establishing this high-priority group is a step in the 
right direction. But when you actually compare the percentage 
of funding that these six cities received last year with what 
is being set aside for them this year, it is virtually the 
same. Until we find out precisely what the allocation will be, 
it is unclear if these new guidelines will make a difference in 
the details.
    Let me end with a little bit of other good news. After 
years of vigorously lobbying on our part, the Department of 
Homeland Security finally plans to loosen some of its 
restrictions on how Urban Areas Security Initiative money can 
be spent. For New York, that means we can use up to 25 percent 
of our allocation to support the officers in the 
counterterrorism and intelligence units. We have always 
believed that one of the strongest defenses against terrorism 
is good old-fashioned boots on the ground, not spending the 
money on equipment that we don't need. And now we may finally 
get some Federal support to keep them there.
    We will continue to work with Congress. We will continue to 
work with the Department of Homeland Security to increase the 
flexibility of their funding guidelines. Homeland security 
grants, for instance, still can't be spent on construction 
despite the fact that hardening sensitive targets can 
significantly lower the risk of attack.
    We will also work with Congress and the Department of 
Health and Human Services to fix the distribution of 
bioterrorism preparedness funds. New York City is only one of a 
handful of places in this Nation that has ever experienced a 
bioterrorist attack. Yet in fiscal year 2006, we received $4.34 
per capita, putting us at an incredible 27 out of the 54 
eligible States and cities.
    We will also continue to challenge Congress on making 
funding available for our wireless emergency communications 
network, which we have been developing for several years. This 
year, the Federal Government will distribute $1 billion for the 
development of State and local interoperable communications 
systems. This is a very sensible effort, and it speaks directly 
to one of the 9/11 Commission recommendations. But as of now, 
you should know, none of that funding is available to New York 
City because our systems will operate on frequencies other than 
the ones specified in the Federal Government's new grant 
program.
    For New York, this restriction punishes us for our 
aggressiveness in protecting our city. We have already invested 
more than $1 billion of our own money in our network's 
infrastructure, and we are building it on a frequency that 
works best in the subways, skyscrapers, and density of our 
urban environment. We have tried to develop a solution that 
makes sense for our city's needs because one size does not fit 
all, nor will it. And for Congress to move forward on their 
plan without making sure New York City is part of it is just 
the height of foolishness.
    And when you think about it, that is really the heart of 
the problem here. Time and time again, the Federal Government 
has tried to apply uniform solutions to localities like New 
York City, which deserve more nuanced and individual attention. 
What this country really needs is a Federal policy-making 
process that recognizes New York City for what it truly is, one 
of the largest, most densely populated areas in the world, a 
powerful symbol of what our enemies deeply despise, and a city 
that already has been targeted many times. This is our reality, 
and it is one that defies a mathematical formula, no matter how 
well intended.
    I appreciate the opportunity to be here. I would just urge 
you to take a look at not the politics, but what will keep this 
city, this region, and this country as safe as it can possibly 
be. Thank you very much.
    Chairman Lieberman. Thanks, Mayor. Thanks very much for 
your excellent testimony. I know we are going to have some 
questions for you after we hear from the other Commissioners.
    Lee Hamilton, it is an honor to welcome you to this 
Committee. We look forward to hearing from you now.

   TESTIMONY OF HON. LEE H. HAMILTON,\1\ FORMER VICE CHAIR, 
NATIONAL COMMISSION ON TERRORIST ATTACKS UPON THE UNITED STATES

    Mr. Hamilton. Chairman Lieberman, Senator Collins, and 
distinguished Members of the Committee, thank you very much. It 
is an honor for me to be here with you.
---------------------------------------------------------------------------
    \1\ The joint prepared statement of Mr. Hamilton, Mr. Gorton, and 
Mr. Roemer appears in the appendix on page 92.
---------------------------------------------------------------------------
    I might say to the Members of the Committee that I had the 
opportunity, Mr. Mayor, to visit the Counterterrorism Center in 
New York City and the Joint Task Force. I think it is an 
example for the Nation. New York has led the way in that area. 
It is vitally important, and I would recommend to the Senators 
here, if they can possibly do it, to visit that 
Counterterrorism Center in New York City because they will 
learn a lot there and much of it can be applied in other areas 
of the country.
    It is a pleasure to be here with the Mayor. He, of course, 
was very important, very cooperative in the work of the 9/11 
Commission. We appreciated that very much, and it's a pleasure, 
of course, to be with Slade Gorton and Tim Roemer, both of whom 
were essential and very important contributors to the work of 
the 9/11 Commission.
    I begin, of course, by acknowledging the extraordinary 
leadership of this Committee. Under Chairman Collins and 
Ranking Member Lieberman, it is my recollection that this 
Committee held the very first hearings on the 9/11 Commission 
recommendations. The Committee then drafted a bill based on 
those recommendations and managed the legislative process with 
very great skill. If my recollection serves me correctly, you 
had a remarkable 96-2 vote on the Senate floor. The Chairman 
and the Ranking Member then guided the bill through final 
passage of the Intelligence Reform and Terrorism Prevention Act 
of 2004.
    Today, under Chairman Lieberman and Ranking Member Collins, 
I think the exceptional leadership role continues. I don't know 
of a better example in the U.S. Congress of bipartisan 
cooperation than we have had with the two of you and the other 
Members of your Committee, and I certainly commend you for it, 
and we thank you for your leadership.
    I will make a few comments, very general comments, then 
turn it over to Senator Gorton and Congressman Roemer for 
filling in some of the details.
    It is 2\1/2\ years now since the 9/11 Commission completed 
the largest investigation, to my knowledge, in the history of 
the U.S. Government. I believe that roughly half of our 
recommendations have been accepted now, especially those with 
regard to the intelligence community, which you referred to in 
your opening statements. They were taken up by the Congress, 
enacted into law, and that is the good news.
    The bigger problem, and I was very pleased to see both of 
you hit upon this in your opening statement, is the challenge 
of implementation. Legislators sometimes think that passing the 
law completes the job. It is only the first step, as you 
recognize. No law is self-executing, and implementation is 
oftentimes the more difficult part of the process. Even when 
the letter of our recommendations was written into the law, we 
have often found that implementation has been lagging.
    In some cases, it is reasonable to expect that 
implementation takes a long time. But Congress does need to 
provide, and again, you have both recognized this, robust 
oversight to ensure that reforms are carried out. The 
continuing work of this Committee is essential to achieve the 
purposes of the public law. The question for us today is the 
remainder of the Commission's work.
    Roughly half of the Commission's recommendations still need 
to be addressed. We are, therefore, especially pleased and 
gratified by the commitment of the leadership of the 110th 
Congress to take up legislation to address the unfinished 
agenda. Those of us who served on the Commission certainly want 
to try to be helpful to you in every way that we can.
    I will now turn to Senator Gorton to comment on information 
sharing.
    Chairman Lieberman. Thank you very much. Senator Gorton, 
welcome back.

    TESTIMONY OF HON. SLADE GORTON,\1\ FORMER COMMISSIONER, 
NATIONAL COMMISSION ON TERRORIST ATTACKS UPON THE UNITED STATES

    Mr. Gorton. Thank you. First, progress on information 
sharing is still too slow. As the Commission's report 
documented again and again, we in the United States missed 
opportunities to disrupt the September 11 plot because of the 
failure to share information. The Federal Government is doing a 
better job of sharing terrorist threat information within its 
own structure, but there are still huge gaps in information 
sharing with State and local authorities.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Hamioton, Mr. Gorton, and Mr. 
Roemer appears in the appendix on page 92.
---------------------------------------------------------------------------
    In November of this last year, the Director of National 
Intelligence issued an Implementation Plan for the Information 
Sharing Environment, a plan required by the 2004 statute. That 
plan deserves the careful oversight of this Committee. We 
continue to hear about turf fights about who is in charge of 
information sharing with State and local governments. We 
continue to hear complaints from State and local officials 
about the quality of the information they receive. Suffice it 
to say, many questions and issues remain about the 
Implementation Plan for the Information Sharing Environment. 
The problem of information sharing is far from resolved.
    Second, we continue to be concerned about interoperability. 
As the just-released report from the Department of Homeland 
Security illustrates, first responders in many metropolitan 
areas still do not have the ability to communicate with one 
another effectively. Better communications depends on many 
factors--policies, technology, and training. It also depends on 
broadcast spectrum.
    The Commission recommended that Congress expedite for 
public safety purposes the allocation of a slice of the 
broadcast spectrum ideal for emergency communications. Those 
frequencies, able to get messages through concrete and steel 
high-rises without difficulty, are now held by TV broadcasters. 
They had been promised for public safety purposes for a decade 
and will finally be turned over to first responders in February 
2009. We do not believe that this date is early enough. Who can 
say that no disaster will strike before 2009? Why should public 
safety have to be put on hold to accommodate the broadcast 
industry? We believe that Congress should act to accelerate 
this date.
    Third, States and localities need to practice their plans 
for emergency response. As this Committee outlined in its 
excellent report, Hurricane Katrina once again taught us 
lessons we should have learned from September 11. Every 
metropolitan area and every locality needs to have a working 
response plan that embraces the Unified Incident Command 
System. A response plan needs to be practiced and exercised 
regularly. You can't wait for a disaster to hit and then look 
for the plan. All first responders need to know long beforehand 
who is in charge and what their jobs will be.
    The Department of Homeland Security now requires a Unified 
Incident Command System to be in place or States cannot receive 
homeland security funding, a good provision as far as it goes. 
But at the time of Hurricane Katrina, Louisiana and New Orleans 
had a paper plan, but it wasn't executed when it was needed. 
DHS needs to make sure that those plans are living documents, 
that first responders have practiced working together. If you 
are a first responder and you are talking to your counterpart 
for the first time on the day disaster strikes, your response 
plan will fail.
    Fourth, we have taken a special interest in the work of the 
Privacy and Civil Liberties Board, which we recommended and 
Congress created. It is the only office within the Executive 
Branch designed to look across the government at the actions we 
are taking to protect ourselves to ensure that privacy and 
civil liberties concerns are appropriately considered. We 
believe that the government needs strong powers in order to 
protect us. We also believe that there needs to be a strong 
voice within the Executive Branch on behalf of the individual 
and on behalf of civil liberties.
    The Board needs to move forward smartly with this important 
mission. Stories we read in the newspaper every day point up 
the importance of a strong voice and a second opinion within 
the Executive Branch before it goes ahead with controversial 
measures that affect our civil liberties. We want to do 
everything we can to encourage the work of the Privacy and 
Civil Liberties Oversight Board. We strongly supported this 
Committee's original proposal for the structure and authorities 
of the Board when it was created in 2004, and we believe that 
proposal deserves attention again.
    Fifth, we still do not screen passengers against a 
comprehensive terrorism watch list before they get on an 
airplane. The airlines do the name checking, and the government 
wants to protect sensitive information and therefore does not 
share all names on its watch list with the airlines. So the 
airlines screen passengers against an incomplete list. The 
solution recommended by the Commission is a straightforward 
one. The government should do the name checking of all 
passengers against its own comprehensive watch list.
    The Transportation Security Administration's plan for 
integrating commercial data into the screening process, a plan 
called Secure Flight, has been delayed repeatedly. But this 
delay should not stand in place of the government taking over 
name checking from the airlines so that all passengers are 
screened against a complete and up-to-date no-fly list. We 
understand that action may take place relatively soon, but 
every day delayed is a day lost.
    Sixth, scarce homeland security dollars must be allocated 
wisely. In our report, we recommended that homeland security 
funds be allocated on the basis of the greatest risk and 
vulnerabilities of attack. Secretary Chertoff has stated many 
times his support for this proposition. Therefore, we were 
surprised and disappointed last year that the Department of 
Homeland Security proposed cuts in homeland security funding 
for New York City and for Washington, DC. The terrorists 
targeted New York and Washington. So far as we know, they 
continue to target symbols of American power. It defies our 
understanding of the nature of the threat to reduce funding 
designed to protect New York and Washington, DC.
    The problem is not only in the Executive Branch. The 
underlying legislation also needs reform. Last year, the Senate 
passed a useful bill, the House passed a superb bill, but 
nothing came out of the Conference Committee on the subject. 
What we need this year, above all, is an agreement between the 
House and Senate that moves reform in the right direction. 
Unless and until the Congress sends a bill to the President 
allocating homeland security funding on the basis of risk, 
scarce dollars will be wasted.
    And, Mr. Chairman and Senator Collins, I want to add one 
thing that is not in our written statement. We have in the last 
weeks and months seen the resignations of the top two officials 
of the Directorate of National Intelligence, Ambassador 
Negroponte and General Hayden. I strongly suspect, although I 
don't have inside knowledge, that at least a part of this was 
due to frustration at their authority. I would strongly suggest 
that you look back not only at our own recommendations, but at 
your bill, the bill that the Senate passed on this subject that 
was watered down in conference with respect to creating clear 
lines of budget authority, personnel authority, and 
jurisdiction for the Director of National Intelligence so that 
person and that group can do the job that it was meant to do.
    Chairman Lieberman. Thanks. Congressman Roemer, welcome 
back, and thank you for all your service in this regard.

 TESTIMONY OF HON. TIMOTHY J. ROEMER,\1\ FORMER COMMISSIONER, 
NATIONAL COMMISSION ON TERRORIST ATTACKS UPON THE UNITED STATES

    Mr. Roemer. Thank you, Senator. It is an honor to be here, 
and I just ask unanimous consent that my entire statement, the 
rest of our statement, be entered into the record, and maybe in 
a little bit more informal way, I can talk about the last three 
remaining yet very important items on the September 11 agenda.
---------------------------------------------------------------------------
    \1\ The joint prepared statement of Mr. Hamilton, Mr. Gorton, and 
Mr. Roemer appears in the appendix on page 92.
---------------------------------------------------------------------------
    I, too, want to say how much of an honor it is to be with 
Mayor Bloomberg, who has been so successful, both in the 
private and the public sector, serving one of the most 
important cities in the world, and with my colleagues on the 9/
11 Commission, Lee Hamilton and Slade Gorton, who have done 
such great work.
    Mr. Chairman and Madam Former Chairman, I just want to say 
that this Committee has done bipartisan, productive, and 
prodigious work in making our country safer. You helped create, 
with the work on the House side, the 9/11 Commission. We 
wouldn't be here without your great work. You took the first 
step toward passing one-half of the 9/11 Commission 
recommendations, thereby putting us in a position to make this 
country much safer.
    Senator Collins, you said that we didn't do everything 
perfectly in this 9/11 Commission book--and anytime I am on 
talk radio shows, I hear more and more about the failures than 
the successes. We certainly did make some mistakes, but I think 
one of the things that we did right in this report was we 
looked at this problem in a global way, trying to develop a 
global strategy. How do we reorganize our government along the 
same lines as we did in 1947 with the National Security Act to 
create the Department of Defense, the CIA, and reorganize 
Congress, and how do we complement that with the global 
strategy to work with our allies, to talk about economic and 
educational programs, to have a message that is going to beat 
the seductive message of Osama bin Laden to the world's youth 
and the Muslim youth in this world? We have a long way to go on 
those fronts.
    Al Qaeda seems to be changing, rapidly deploying their 
terrorists all around the world. They have a production 
company, as-Sahab, which is first-rate, communicating with 
millions of people on not only Al Jazeera, but on CNN and FOX. 
They are recruiting on the Internet and training their people 
how to use IEDs and the bombs of the future. They are working 
outside of Iraq and Afghanistan, popping up and generating 
cells all over the world. They have the best of pre-September 
11 with command and control starting to come back in Pakistan 
and Afghanistan and now they have the best of post-September 11 
with self-generating cells, and their shadow looms large in 
Europe.
    So  what  can  we  do  about  these  things  in  the  short 
 term?  The 9/11 Commission talked about three remaining issues 
that are on my platter today. One is congressional reform. It 
is very difficult, as Mayor Bloomberg was saying, that Congress 
look at reforming the FBI and the CIA, but you must also look 
in your own backyard and reform the very powerful tool that you 
have, congressional oversight.
    Large numbers of Members here on your Committee today, 
including freshmen Members, are conducting that vigorous 
oversight and learning about how to do the job better of 
protecting this country, accepting some of these 
recommendations and rejecting others. But more oversight reform 
is needed.
    Congressional reform, I think, has taken a step forward 
with Speaker Pelosi's initiative on the House side to create a 
subcommittee on the appropriations panel that will not only 
empower appropriators to do more intelligence oversight, but 
also cross-pollinate that committee with authorizers and then 
make the authorizing committee more powerful.
    Homeland security jurisdiction is a big part of our 
recommendations, trying to make sure that your jurisdiction is 
not splintered among different committees, and I know your 
original bill to establish a powerful government reform 
committee was changed on the floor. Transit, and transportation 
and immigration and border issues were split up. The 9/11 
Commission was hopeful that those issues might remain within 
this committee. So we hope that you will continue to look at 
both homeland security oversight reform and intelligence 
oversight reform.
    Second, radicalization in the Muslim world. General Abizaid 
said very convincingly about a year ago, this is not just a 
military war, this is a political war. This is a war of ideas 
for hearts and minds. We must win that war. The time period for 
radicalized terrorists between alienation, radicalization, and 
detonation is shrinking. More and more young people may be 
signing up for al Qaeda. The United States needs to have a 
compelling message to counter that trend.
    We talk on the 9/11 Commission, and we propose a host of 
ideas, building scholarship exchange programs and library 
programs. We initiate an International Youth Opportunity Fund 
for building and operating primary and secondary schools in 
Muslim communities, especially where Muslim states will put the 
money forward first in alternatives to the madrassas that teach 
the hatred of Americans and the killing of Jews. We must 
counter those kinds of trends in the Middle East.
    And third, and maybe one of the most important issues that 
the 9/11 Commission recommended that we do more, we exert 
maximum effort in this area, is trying to make sure that the 
most dangerous weapons don't fall into the most dangerous 
hands, that the terrorists don't get ahold of nuclear fissile 
material and come and attack the United States with that kind 
of material.
    We lost 3,000 people on September 11. We don't have a 
convention hall big enough for the mourning that would take 
place if this country or Europe would be attacked with a 
nuclear weapon. We have to do more. The 9/11 Commission talked 
about strengthening the Proliferation Security Initiative, 
expanding the funding for the Nunn-Lugar Program, and doing 
more to reach outside of the former Soviet Union and expand to 
the Global Threat Initiative, the encompassing nature of trying 
to make sure that these dangerous weapons don't get into 
dangerous hands from civilian reactors.
    Finally, in conclusion, Senator Lieberman and Senator 
Collins and distinguished Members of this Committee, I just 
would like to say one of the highest honors, in addition to 
working with all of you, has been to work with the people that 
you are going to hear from in a few minutes, the September 11 
family members. You are going to hear from Mary Fetchet who 
lost her son, Brad; from Carol Ashley who lost her daughter; 
and from Carie Lemack who lost her mother. These people have 
come up to Washington, DC, sometimes four and five times a week 
at their own expense for the last 5 years to try to encourage 
Congress to pass these reforms and better put us in a position 
to make sure that we don't lose our sons and daughters.
    I would hope that after you all take the necessary steps to 
pass the remaining September 11 reforms and then tackle the 
converging trans-national threats that face us in the future, 
these families will be given a rest from coming to Washington 
so often and we will see this job completed in 2007 so they can 
get back to their own families and get back to their private 
sector jobs and we can get on to some of the other pressing 
issues on energy and al Qaeda and global warming that I think 
this country faces over the next 10 years.
    So thank you so much for your attention today, and we look 
forward to your questions.
    Chairman Lieberman. Thank you, Congressman Roemer. Thanks 
very much for very helpful testimony.
    I welcome the Members who have arrived since we commenced, 
Senator Stevens, Senator Coleman, Senator Warner, and Senator 
Sununu. In your absence, I congratulated you on your wise 
decision to rejoin the Committee and welcome you. Senator 
Obama, welcome to you, as well, for an equally wise decision. 
Good to have you with us.
    We are going to have a 7-minute round of questioning for 
each Member. I will say that I will call in order, as the rule 
of the Committee has been. If you arrived pre-gavel, you get 
called in order of seniority; post-gavel, in order of arrival.
    Mayor Bloomberg, you mentioned the Counterterrorism Bureau 
that you established post-September 11 that grew from two dozen 
officers working the terrorism beat to now over 1,000 with a 
worldwide reach, which is truly impressive. There was a strong 
feeling certainly in New York and here, as well, that one of 
the reasons you did that was that the Federal agencies had let 
down New York City and the city had to take an initiative on 
its own. I wonder, now that the Commission has acted, 
recommended, and we have established both the Director of 
National Intelligence and the National Counterterrorism Center 
at the Federal level, whether you have an impression that there 
is a stronger working relationship and on this level the 
Federal Government is providing more in the way of 
counterterrorism assistance to the city than previously?
    Mayor Bloomberg. Well, I have no knowledge of what occurred 
before January 1, 2002, when I took office. I can tell you that 
since then, we do get good cooperation from the FBI, in 
particular, which is the main interface in terms of 
intelligence. Having said that, we want to have somebody 
overseas to look and see what kinds of terrorist attacks 
actually take place, for example, on a subway, which is a 
natural target and it has been in many cities, and how 
responses have succeeded or what they could have done better.
    I think one of the great dangers here is that people forget 
that in the end it is the city's responsibility to respond and 
to protect on a day-in and day-out basis on the streets. The 
mistake, whether it is a national problem or a local problem, 
whether it is a terrorist attack or a natural calamity, is to 
blame Washington for everything. Washington can give us advice. 
Washington can give us money. Washington can provide some 
overseas intelligence. But in the end, it is the responsibility 
of each city's government and then a county or a State to 
respond, and I think that is what you saw in New York City on 
September 11.
    Our police department and fire department responded, and in 
retrospect, whether the radios could have worked better or 
anything else, I am not sure that anybody has come up with a 
credible scenario that says we could have done a better job in 
evacuating 25,000 people, even at the cost of 400 of our first 
responders. I think a lot of those first responders, even if 
they had heard an order to evacuate, probably would not have 
evacuated. Their courage, their training, their dedication is 
to go into danger when the rest of us, our natural reaction is 
to go away.
    But I think that each city has to--I think it was Mr. 
Gorton that said it--not only have a plan, but it has to be a 
real document that you live by. We test our coordination plan 
every single day when police and fire departments show up at 
the same place, every single week where there is a health issue 
and police and fire departments get involved, every day when 
our Department of Transportation has to face the issue of how 
would we move people in an emergency. Only if you do that will 
it work when you need it for a real emergency.
    Chairman Lieberman. Could you talk to us a little bit about 
what you have done in New York in terms of improving 
interoperable communications capabilities? I agree with Senator 
Gorton that we had fought to have an earlier turnover of the 
spectrum than February 2009. But 2009 was the earliest we could 
get. We may take another run at it. But in the meantime, the 
city has taken some action on its own. Could you tell us about 
that?
    Mayor Bloomberg. Well, as I said, we don't wait for anybody 
else. My responsibility is to make our city as safe as I can 
now and then to worry about how it fits in with outside or who 
is going to pay for it. Our radios today have a lot more 
interoperable capability than they did before. Keep in mind, 
most times you have agencies dealing with one another, it is at 
the highest level, and so one of the most important things we 
do is at a significant event, we establish a command center 
right on site and have the ranking police and fire and other 
agency officers there, and they are the ones that have to make 
the decisions as to who is going to take responsibility for 
something.
    We also have discussed this at length, argued about it, 
changed it, practiced, see whether it worked, moved 
responsibilities around, so that we know at a particular kind 
of event which agency is the most likely to be able to provide 
the response that the public needs. And we also cross-train 
because even if you have an agreement as to who is going to do 
what, the truth of the matter is the first person on the ground 
has to start providing life-saving capabilities and it may not 
be with their expertise.
    Chairman Lieberman. Thanks. Let me ask Mr. Hamilton first, 
and Mr. Gorton and Mr. Roemer if you want to add, about the 
Information Sharing Environment. There were great complaints in 
past years from the local and State levels about the ability to 
communicate and share information with them because, after all, 
they have hundreds of thousands of first responders who are not 
only first responders but if properly connected can be 
preventers, first preventers. What is your sense of how much 
progress we have made at that level of information sharing, 
from Federal to State and local and back?
    Mr. Hamilton. Mr. Chairman, it is very much a work in 
progress. It is probably the weakest spot in the information 
sharing area. We have made a lot of progress in sharing 
intelligence information within the Federal Government, not 
exactly where I would like to be, but nonetheless a lot of 
progress. It seems to me your question puts the finger on the 
weakest link in information sharing, and that is the 
intelligence from the Federal Government to local police, State 
police, and other key local officials. A lot of effort has been 
put into this. Fusion centers have now been created around the 
country. I think that is a very good development. Some are 
working reasonably well, some not so well, but it gives us a 
mechanism to improve.
    I do think there remains a bit of arrogance, frankly, on 
the part of the Federal people that we know it and we will 
share with you. Trust us, we will give you the right 
information in a timely way. It is not enough of a two-way 
street. That is, we at the Federal level have an awful lot to 
learn from these hundreds of thousands of people on the beat, 
on the streets of New York and every other city, State, and 
county.
    So I think this is an area that needs very robust 
oversight, continual effort to try to improve by many people. 
But it remains the weak link, and we have not yet made the flow 
of information easy to the local people. Likewise, we have not 
made the flow of information easy from local and State to 
Federal.
    Chairman Lieberman. Thank you. My time is up, and I am 
going to try, because of the number of people here, to stick to 
that 7 minutes, so Senator Collins, it is all yours.
    Senator Collins. Thank you, Mr. Chairman.
    Mayor, the NYPD has an enormously capable Counterterrorism 
Unit that you have described today, and it is impressive that 
you have members of your department stationed overseas, as 
well, to improve your intelligence capabilities. This Committee 
has begun an investigation of homegrown terrorists. In other 
words, we can have all the border security in the world, but if 
there is radicalization right here in the United States, we may 
have people who are already here who pose a significant threat.
    Congressman Roemer talked about the need to have more 
outreach to moderate Muslims and to try to counter that 
radicalization. Are you taking a look at that threat, as well, 
of homegrown terrorists?
    Mayor Bloomberg. Well, we have 38-odd-thousand police 
officers. We spend $5.5 billion of New York City taxpayer money 
on providing protection because, while terrorism is something 
we are talking about today, it is street crime that most people 
have a much greater risk of experiencing. But I think all of 
those police officers are trained to look for terrorism in one 
form or another. A much more likely scenario in any big city 
than a massive terror attack is the individual who is mentally 
deranged who tries to take a few lives and gets a lot of the 
publicity and what our thousands of police officers really do 
focus on.
    I think the other thing you point out is that immigration--
or people coming across the borders--is not the answer or the 
only answer to threat. Quite the contrary, I think that one of 
the great dangers in trying to keep people from coming into 
this country is to let al Qaeda win without ever firing a shot. 
The damage that is being done to our educational system, to our 
scientific community, to the future of our country in terms of 
jobs and opportunities--it is so great--it is hard to describe, 
and it will take decades to reverse.
    We are making this country persona non grata to the very 
people that we need to have come here, and most of them are not 
terrorists, and the fact of the matter is if you want to be a 
terrorist, there are lots of ways to get into this country. 
What we have to do is stop them at the borders, if you can, but 
also on the streets once they get here because they are likely 
to get here or be grown here.
    Senator Collins. Congressman Hamilton, Congressman Roemer 
talked about the importance of congressional reform. I think 
Congress finds it far more difficult to reform itself than to 
impose reforms on the Executive Branch. Your report outlined a 
situation in which Department of Homeland Security (DHS) 
officials were testifying before an astonishing 88 committees 
and subcommittees, and we did make some progress in 
consolidating oversight in one committee. But in the Senate, 
the two largest entities within DHS are outside the 
jurisdiction of this Committee. They are in the committee of my 
friend from Alaska. In the House, the oversight committee does 
not even have jurisdiction over FEMA, a major carve-out, if you 
will.
    How important do you think that congressional reform still 
is? You highlighted it in the report, but is it still a 
priority for the Commission?
    Mr. Hamilton. Well, yes, I think it is. I have some 
appreciation of the difficulties here inside the Senate and 
inside the House, probably more about the House than the 
Senate. The objective all of us share is that the Legislative 
Branch give very aggressive, robust oversight of the executive 
on the implementation of law to see that the law is being 
implemented in the manner that you had intended.
    Now, it really makes the Secretary of DHS's job incredibly 
more difficult to have him reporting to so many different 
committees and subcommittees, and I think we have to have an 
appreciation of the burden that we put on the Executive Branch, 
we in the Congress, you in the Congress, when you do not 
clarify these lines of responsibility. It is a difficult thing 
to reorganize the Federal Government, and it is a very 
difficult thing to reorganize the committees of the Congress. 
But there has to be an appreciation of the fact that when a 
secretary is responsible to multitudes of subcommittees and 
committees, there is not good oversight. If you have that many 
committees doing the oversight, you don't have any committee 
doing the oversight effectively and comprehensively.
    So I do not think we have--you have--in the Congress 
reached the point where you are sufficiently reformed to 
provide an efficient means of oversight, and I think the 
appropriations committees have made a lot of progress here. I 
think I am correct in saying--you can correct me if I am 
wrong--that in the appropriations committees now, the 
subcommittee has responsibility for all of homeland security. 
That is not true in the authorizing committees. So the 
objective here, it seems to me, should be to organize it like 
the appropriating committees have done it and not the 
authorizing committees.
    Senator Collins. Senator Gorton.
    Mr. Gorton. Senator Collins, as my memory serves me, your 
reform in 2004 reduced that number from 88 to 79. [Laughter.]
    And we would certainly not presume to tell you where 
various jurisdictions should lie. The thrust of our Commission 
report was there ought to be a considerable consolidation for 
two reasons. One, as Mr. Hamilton outlined, simply the burden 
imposed on the administrative agencies is too great without 
clear lines of authority to whom they report in Congress. But 
second, it is important for you. If it is everyone's 
responsibility, it is no one's responsibility. If it is 
concentrated someplace, the members of that committee will pay 
a lot of attention to the subject and will provide a better 
balance to the Administration than is the case when authority 
is too widely spread.
    Senator Collins. Thank you.
    Chairman Lieberman. Thanks, Senator Collins. I want to 
assure you that Senator Collins and I are both interested, 
though we know how difficult this is internally, to take 
another fresh look at this. I was encouraged that the House 
apparently is going forward, as Congressman Roemer said, with a 
proposal that Speaker Pelosi has made, so we will take a look 
at that and other alternatives to achieve the goals that I 
think you quite effectively argue for.
    Senator McCaskill, it is my high honor to call on you for 
the first time as a Member of this Committee and to welcome you 
again. You bring a very strong background to the work of this 
Committee as a prosecutor. Thank you for joining us.

             OPENING STATEMENT OF SENATOR MCCASKILL

    Senator McCaskill. Thank you so much, Mr. Chairman. It is 
an honor to be here with all of my colleagues and an honor to 
address this Committee, and I particularly want to acknowledge 
the families of those in the room that lost loved ones in the 
tragedy of September 11.
    My area of concern today is really in two specific areas of 
wasteful spending and communication. As the Auditor of 
Missouri, I had the opportunity to audit the funds that came to 
Missouri from this program, and my office did an audit both in 
May 2004 and May 2006, and with the permission of the Committee 
and consent, I would like the summaries of those audits to be 
made part of the record.\1\
---------------------------------------------------------------------------
    \1\ The information submitted by Senator McCaskill appears in the 
Appendix on page 205.
---------------------------------------------------------------------------
    Chairman Lieberman. Without objection, so ordered.
    Senator McCaskill. What I found in those audits was 
everyone wanted to do the right thing but had no idea how to do 
it quickly, efficiently, or be trained appropriately, 
particularly in the area of equipment, where we found 19,000 
individual personal protective equipment (PPE) suits had been 
shipped into Missouri, and even in our urban areas, when we 
looked into the PPEs, many of them were still in cardboard 
boxes. Many of them had never even been removed. A lot of the 
State employees that were supposed to be able to use these 
suits had never been trained appropriately.
    I think the rub is, how do we avoid the mushroom festivals 
but yet still give Mayor Bloomberg the flexibility he needs 
with his unique situation in New York to utilize the funds in a 
way that is appropriate. I think there is a tendency to throw 
money at a problem, particularly one as horrific as the 
terrorism threat, but you want to give leverage and flexibility 
to the local areas.
    Do the members of the 9/11 Commission who are here today 
have any specific recommendations for us as to how we can, 
either in a proactive or even in a punitive way, stop the kind 
of spending that has gone on with some of these monies to the 
great detriment of our ultimate security?
    Mr. Hamilton. Senator McCaskill, you put your finger, I 
think, on a very important matter. The recent internal reviews 
of the Department of Homeland Security reveal very great 
deficiencies in contracting, and so they have a real problem 
here by their own acknowledgment. Now, how do you get at it? It 
is not an easy question, but you have to be able to employ the 
tools that are available to you, and you have a lot of them.
    I think the GAO can be hugely helpful to you if you give 
them direction and tell them what you want to achieve and let 
them become an investigative arm for you. Employing your 
Committee staff is hugely important here so that they can look 
into every nook and cranny of these operations, and contracting 
has become a very sensitive spot that needs to really be 
examined because government contracts drive so much of business 
today, and they are often not given the attention they need.
    I think you have to work very closely with the inspectors 
general of the departments so that you know what they are 
looking at. These inspectors general vary in quality from 
department to department, but the good ones know what is going 
on in that department, and they know what needs to be uncovered 
in that department, and they can give you a lot of guidance.
    And, of course, the hearing itself is important. I think 
when a secretary or under secretary comes before this 
Committee, your responsibility is to really grill them. You are 
a co-equal branch of government, and you have a responsibility 
just like the Executive Branch does. So I think you need to 
have questions that are very sharp and pointed with regard to 
performance.
    Wasteful spending is a tough thing to deal with in 
government because there are such huge amounts of money 
involved, and you have to turn to every tool you can look at. I 
have mentioned a few. I am sure there are others.
    Mr. Roemer. Senator, if I may, I think the past election 
was more about change, not only in the status quo of foreign 
policy but in the status quo of Capitol Hill, and nothing 
reflects that more than how we use taxpayers' money. The 9/11 
Commission found that some of these monies on homeland security 
were being spent on air-conditioned garbage trucks, Kevlar 
vests for dogs, and I talked to a Member of Congress from 
Southern Indiana who said he received in a sheriff's department 
a number of hazmat suits from the Federal Government that 
didn't fit anybody in his department. He couldn't use them.
    So we need to reform this, and as Congressman Hamilton 
pointed out, I think we need to look at benchmarks and 
standards that are attached to our intelligence so that, with 
all due respect to New York, which has been successfully 
attacked not just in 1993, but again in 2001, a number of plots 
have been uncovered to attack New York again and again and 
again, Omaha and Louisville shouldn't get increases and New 
York get cut. So we need a formula that is risk-based and that 
requires tough decisions to be made by legislators to change 
the process that we have in place.
    Senator McCaskill. Very briefly, because I am almost out of 
time and I don't want to overstay, especially my first day. 
Mayor Bloomberg, first of all, I acknowledge your incredible 
life story and that you have achieved the American dream, and 
we are grateful that you have devoted a lengthy chapter to 
public service.
    I want to talk about communication going from Federal to 
local. Because of the tragedy, and out of that fire, you forged 
the ability to communicate in New York that, frankly, I don't 
think is happening around the country. On a personal basis, as 
a local prosecutor, it is very difficult to communicate with 
the Federal Government within law enforcement. It is a 
calcified cultural problem. Do you have any lessons that you 
can tell us as to how it is that the NYPD has that kind of 
working relationship that most local police departments around 
the country merely dream of?
    Mayor Bloomberg. I think it is not realistic to expect the 
Federal Government to outreach. It is just too many places, and 
they don't know where to go. It is incumbent on every local 
government to take the initiative and try to develop 
relationships in Washington. They can do it through their 
elected officials. They can do it by traveling to Washington. 
There are a variety of ways of doing it. But any city that sits 
there and waits for Washington to come to them--and maybe that 
is the way it should work, but that is not a practical thing to 
do, and I think you are derelict in your responsibility if you 
don't take every opportunity to outreach, go to Washington, 
tell them what you need, and keep calling them until they give 
it to you.
    Chairman Lieberman. That was a classic Bloomberg ``can 
do.''
    Senator McCaskill. I like that.
    Chairman Lieberman. Will do. Thanks, Senator. Senator 
Levin.

               OPENING STATEMENT OF SENATOR LEVIN

    Senator Levin. Thank you, Mr. Chairman. I would like to put 
my statement in the record. I am not able to stay, unhappily, 
but I want to thank you, Senator Collins, and our witnesses for 
their contribution.
    Chairman Lieberman. Thanks, Senator Levin.
    [The prepared statement of Senator Levin follows:]

                  PREPARED STATEMENT OF SENATOR LEVIN

    I thank Senators Lieberman and Collins for holding this hearing 
today. It is certainly an appropriate way to begin work in this 
Committee in the new Congress by examining what needs to be done to 
ensure that the recommendations of the 9/11 Commission are realized. I 
welcome the families of the victims of 9/11 as well as the 
Commissioners who worked tirelessly to come up with recommendations to 
improve our national security and correct problems that occurred 
before, during and after the tragedy of September 11, 2001. It is our 
responsibility, along with the Administration, to implement more of 
those recommendations. Indeed, that is one of the top priorities of the 
new Democratic leadership of the 110th Congress.
    We have made progress in some areas, but we still have a long way 
to go. First, if we're serious about homeland security, we need to fund 
it. Year after year, we've seen significant cuts to our vital first 
responder grant programs. We need to not only fund these programs and 
levels that will provide the needed security and training, but we also 
need to change the way that we allocate funding for our largest first 
responder grant programs. For the past 5 years, several of the largest 
State homeland security grant programs have distributed funds using a 
funding formula that arbitrarily sets aside a significant portion of 
funds to be divided equally among the States, regardless of size or 
need. The current ``Small State Formula'' has severely disadvantaged 
States such as Michigan with high populations and/or those with high 
risks. The Commission had it right when it recommended that those funds 
be allocated based on risk.
    There are huge shortfalls in the area of interoperability. We still 
don't have a dedicated funding source for interoperable communications, 
even after September 11 and Hurricane Katrina tragically showed how 
vital those communications are. In the Senate, we have voted to 
establish demonstration projects for interoperable communications along 
the Northern and Southern borders, because of the added need to operate 
with foreign governments, but those projects have been dropped from 
legislation in conference. Further, our first responders don't have the 
spectrum they need for interoperability and instead of making 
broadcasters return their extra spectrum as a result of converting to 
digital Congress gave them even more time than originally intended to 
do so. This means our first responders will have to wait longer to get 
the spectrum intended for public safety use. I urge the 110th Congress 
to revisit this issue in the name of public safety.
    We should also be pressing for faster results in developing 
explosive detection technology. The Commission gave the Administration 
a grade of ``C'' in deploying airline passenger explosive screening at 
U.S. airports. Though passenger explosives screening technologies have 
been under development for several years and are now being deployed in 
selected airports, they still have a ways to go regarding technical 
capabilities. We should be putting more resources into the research and 
development and deployment of these important airline safety 
technologies.
    We also need to ensure that privacy and civil liberties concerns 
are considered in the development and implementation of our national 
security laws and policies. The current Civil Liberties and Oversight 
Board, which is housed in the Executive Office of the President, should 
be reestablished as an independent agency within the Executive Branch 
and it should have subpoena powers. Only if we ensure that the Board is 
independent with the tools it needs to investigate can we be certain 
that our citizens' privacy and civil liberties are adequately 
protected.
    The Departments of Defense and Energy have made some progress in 
the areas of nonproliferation and threat reduction areas particularly 
in Russia. Now the focus has to be more global as the Commission 
recommended and the actions have to be implemented with a much greater 
sense of urgency. I would appreciate it if the former Commissioners 
here today could assess briefly if you believe any additional 
legislative authorities are needed by either the Department of Energy 
or the Department of Defense.
    Further, the release of the 9/11 Commission Report fueled a debate 
about how our intelligence community should be reformed to better 
respond to the threat of terrorism and the Commission's report provided 
us many useful recommendations for improving the structure of our 
intelligence agencies. But, in taking on structural reform, we can't 
lose sight of the fundamental problem that was demonstrated not by the 
pre-9/11 intelligence failures but by the pre-Iraq War intelligence 
failures.
    The massive intelligence failures before the Iraq War were of a 
totally different kind from the 9/11 failures. As described in a 
bipartisan 500-page SSCI report, to a significant degree, the failures 
were the result of the CIA shaping and manipulating intelligence. The 
CIA interpreted and communicated intelligence information in manner 
intended, in my opinion, to tell the Administration what it thought the 
Administration wanted to hear. The scope and seriousness of this 
problem of manipulated intelligence to serve policy goals cannot be 
overstated.
    One way to promote independent objective intelligence is through 
strengthening Congressional oversight of intelligence. On this issue, 
the 9/11 Commission itself said that ``Of all our recommendations, 
strengthening congressional oversight may be among the most difficult 
and important.'' I agree with the Commission's assessment. That is why, 
during the Senate's consideration of the intelligence reform bill, I 
worked so hard to include provisions aimed at achieving that goal. The 
absence of these provisions from the final bill was deeply troubling.
    For example, the original bipartisan Senate-passed bill contained 
language that required the DNI, the NCTC, the National Intelligence 
Council, the CIA and other intelligence centers, to provide 
intelligence not shaped to serve policy goals. The original Senate-
passed bill promoted independence of the NCTC by stating that the 
Director could not be forced to ask for permission to testify before 
Congress or to seek prior approval of Congressional testimony or 
comments. And the Senate-passed bill contained a provision requiring 
the DNI to provide Congress access to intelligence reports, 
assessments, estimates and other intelligence information and to do so 
within a time certain. Unfortunately those provisions were omitted from 
the final bill that was signed into law by the President. If we are to 
avoid another Iraq fiasco, it is imperative that the Congress revisit 
the issue of how best to strengthen its oversight as one way to promote 
objective, independent intelligence and incorporate the provisions 
which were dropped from the final intelligence reform legislation.
    While the 9/11 Commission gave the government high marks in 
combating terrorist financing, the Commission also said that more needs 
to be done; that the State Department and the Treasury Department are 
locked in a turf battle; and that ``the overall effort lacks 
leadership.'' While we were able to include vital anti-money laundering 
provisions in the Patriot Act, additional language may be required to 
spell out that every financial institution must establish anti-money 
laundering programs for all accounts, not just for private banking 
accounts. For the most part, many financial institutions already have 
anti-money laundering programs in place that cover all accounts, but we 
should ensure that it is the law, and not just an option for financial 
institutions. In addition, the Permanent Subcommittee on Investigations 
held a hearing in November where Federal agencies such as the 
Department of Justice, the Internal Revenue Service, and the Treasury 
Department, all concluded that the United States is out of compliance 
with a key anti-money laundering recommendation of the Financial Action 
Task Force--that the beneficial owners of U.S. corporations be known. 
This is also an area that Congress may wish to consider as we draft a 
9/11 bill.
    Finally, the 9/11 Commission Report stated that, if the United 
States is going to win the struggle of ideas, we must offer ``an 
example of moral leadership in the world, committed to treat people 
humanely, abide by the rule of law, and be generous and caring to our 
neighbors.'' As the 9/11 Commission Report states, the United States 
must offer the Arab and Muslim world a vision of a better future, based 
on these principles. To do so, the Commission recommended that the 
United States engage in a ``comprehensive coalition strategy'' to 
counter terrorism.
    One important element of this strategy would be, according to the 
9/11 Commission Report, reaching out to other countries to develop 
common standards for detention and prosecution of captured terrorists. 
The Commission, which issued its report in July 2004, recommended that 
such a common approach could be based on Common Article 3 of the Geneva 
Conventions on the law of armed conflict. As the report notes, the 
provisions of Common Article 3 were specifically intended for 
situations in which the usual laws of war do not apply. However, the 
Administration failed to follow this 9/11 Commission recommendation. 
Only after the Supreme Court ruled 2 years later in Hamdan that Common 
Article 3 applied to the treatment of detainees in the war on terrorism 
did the Administration adopt these internationally-recognized standards 
for the treatment of detainees in U.S. custody. Meanwhile, the U.S. 
treatment of detainees has elicited broad criticism at home and abroad.
    The revelation of secret CIA prisons outside of international 
monitoring, and the Administration's advocacy of military commission 
procedures that fail to meet international standards, show that the 
Administration has not embraced the 9/11 Commission's recommendations 
on developing a common coalition approach on the humane treatment of 
detainees. To promote cooperation with our partners in the war on 
terror, the Administration should change course. To promote cooperation 
in the war on terror, the Administration should change course and 
accept established international standards, already accepted by our 
allies, for the treatment of detainees. I am concerned that the 
Military Commissions Act, which Congress passed last fall over my 
opposition, could be construed to give the Administration license to 
continue some of these practices. I certainly hope that it will not do 
so.
    These are just a few of the important areas that we need to address 
in the coming days. I look forward to working with my colleagues in the 
Senate to implement these important provisions.

    Chairman Liebermban. Senator Voinovich, a very valued, 
hard-working Member of our Committee.

             OPENING STATEMENT OF SENATOR VOINOVICH

    Senator Voinovich. Thank you very much. First of all, let 
me say at this first hearing of the new Committee in the 110th 
Congress, it has been a pleasure being a Member of this 
Committee because of its bipartisan nature. We have done a 
great deal of work here. I think this is one of the hardest-
working Committees in the U.S. Senate. I would be remiss if I 
didn't acknowledge Senator Akaka, who is the new Chairman of 
the Subcommittee on Oversight of Government Management, the 
Federal Workforce, and the District of Columbia, who I look 
forward to working with.
    I am pleased that we have our witnesses here today, and I 
would like to raise just three areas of concern with you. First 
of all, I have been advocating a Chief Management Officer for 
the Homeland Security Department. We had Secretary Ridge. Now 
we have Secretary Chertoff, who will likely depart after the 
next presidential election. There continue to be major 
management challenges associated with integrating the 
Department. We have a major transformation problem with the 22 
agencies and the 180,000 employees that were merged.
    I am concerned about the void in leadership at the 
Department that may occur during the transition following the 
next presidential election. I would like your opinion on 
whether we ought to have somebody with a term that is in charge 
of transformation and could provide sustained leadership and 
continuity for the Department.
    Second, I agree about the oversight of homeland security 
and intelligence here in the U.S. Senate. I probably shouldn't 
say this, but when you put Senators Harry Reid and Mitch 
McConnell in charge of putting legislation together, both of 
them wanting to be leaders in the U.S. Senate, it is very 
difficult for them to make changes affecting their colleagues 
that are jealous of their jurisdiction to give up that 
jurisdiction. I know I wrote to the Commission about this 
problem, and I said, if you make a big deal out of it, maybe we 
can get the kind of oversight that we should have here in the 
U.S. Senate. I know that Senator Collins agrees with me. We 
have to address that issue.
    And last but not least, Congressman Roemer, I would like 
your opinion on the issue of radicalization of Muslims in the 
United States of America. I don't know if any of the Commission 
members read this book, Mecca and Main Street: Muslim Life in 
America After 9/11, but it is an eye-opener. If we are not 
careful, we are going to see radicalization of Muslims here in 
the United States of America. I know when I was mayor, I used 
to talk about the infrastructure of human understanding, 
getting people together, and encouraging a dialogue. Mayor, you 
know what I am talking about, getting everybody together, 
opening up the channels of communication, and trying to deal 
with this xenophobia in terms of the Muslim community.
    So I would like you to comment on those three areas, and 
maybe, Congressman Roemer, you can start off. What are we doing 
to bring about better understanding right here in the United 
States about the Muslim population and between faiths and 
cultures? Senator Collins had a hearing on the issue of 
radicalization. What is your opinion of what we are doing and 
what should we do?
    Mr. Roemer. Senator, I think you bring up an excellent 
question, and I don't believe that we are doing nearly enough 
about this area or this topic. One of the most underreported 
speeches or talks given in the last 2 months was given by the 
Director of the MI5 over in Great Britain, and she stated that 
Great Britain has about 1,600 people that they are currently 
following in the Muslim community with about 30 ongoing plots 
that they have to monitor. Now, that is a problem for London. 
That is a problem for Great Britain. And that is a significant 
problem for the United States. If we have the radicalization 
going on in Europe, and with the kind of transportation and 
visas and passport systems we have, we have a big problem in 
the United States.
    Your question gets to not only what is the looming problem 
in Europe, but how do we prevent that alienation and 
radicalization from taking place in our great country? And so 
far, we have been very successful. We have been working 
closely, including the Muslim community, but I don't think we 
are doing nearly enough.
    Again, as I said to Senator Collins, you get on talk radio 
in our country and you don't get the kind of dialogue and the 
kind of respect and the kind of in-depth conversation that you 
need on this, and many people will call in and say, ``we just 
need to profile every Muslim in our country,'' and ``it is 
always a Muslim doing this, so let us make sure they cannot get 
on planes.''
    It is incumbent upon all of us to try to deepen and 
strengthen the conversation here with our American Muslim 
citizens that do so much for our country. Otherwise, we may 
have a potential problem here that we may alienate some of our 
own citizens. So I think this is something that we need to work 
on and work on together, and there are some ideas that I would 
love to share with you if I can come by and talk to you about 
this whole idea of moving forward on these issues both here and 
overseas.
    Senator Voinovich. Thank you.
    Mr. Gorton. I join in Congressman Roemer's comments. 
Compared with Western Europe, we have done a better job of 
integrating Muslim citizens into American society, which 
doesn't mean we have done an adequate job----
    Senator Voinovich. One of the things about this book, and I 
don't know if you have read it, but you ought to read it, is it 
is amazing what has happened to the Muslim community after 
September 11.
    Mr. Gorton. Yes.
    Senator Voinovich. The second, third generation are getting 
more sincere about their religion. Many of them are having a 
difficult time dealing with modernity. It is a real problem.
    Mr. Gorton. It is. It is a real challenge, but part of the 
challenge that Congressman Roemer referred to is that you have 
an even less integrated Muslim population in Europe, and many 
of them, of course, have British and French passports today, 
which makes their travel a great deal easier. Yes, it is a 
challenge. Yes, I think we should be doing a great deal about 
it. On your oversight point, I have already commented.
    On your first point, on a Chief Management Officer, I 
gather your proposal was designed to create more continuity as 
you change secretaries of the Department. But wouldn't that 
imply that the officer had Civil Service status, and if so, how 
much power are you going to give----
    Senator Voinovich. I am talking about giving that person a 
term. For example, we give the head of the Government 
Accountability Office a 10-year term. I think a 5-year term 
would provide continuity and sustained leadership during a 
change of presidential administration to keep focus on the 
management and cultural transformation that has to occur at the 
Department. I think if we don't do something like this, we are 
just going to bumble along in terms of what we need to do in 
the Department of Homeland Security. The leadership is a 
revolving door. For example, Mr. Negroponte is now leaving as 
the Director of National Intelligence and another individual is 
going to come in. How far along are they with their 
transformation of those agencies? From a management point of 
view, it gives me some real concern.
    Mr. Gorton. I think that is well worth the Committee's 
consideration.
    Mr. Hamilton. Senator, first of all, I like the idea of 
someone in the Department focusing on management. Our 
secretaries today are public figures. They really have to go 
from crisis to crisis in many ways, and they are heavily 
involved, as they should be, in policy, and they have very 
little time to manage the Department. Tens of thousands of 
people, billions of dollars that they manage, or should manage, 
but they just can't get to it. If you are the Secretary of 
State, Defense, DHS, or Energy, you can spend very little time 
on management. So I like the idea of having a management 
officer. I understand some of the problems Mr. Gorton has 
mentioned.
    Second, with regard to oversight, the one simple point here 
it seems to me is crucial. The way power is shifting in the 
Congress from authorizers to appropriators is dramatic. And 
what that means is that the oversight needs to be linked to 
funding, and if it is not linked to funding, it will not be 
effective oversight because the folks out there in the 
Executive Branch are going to pay attention to the 
appropriators, not to the authorizers, because the 
appropriators have the real power.
    More and more, you are seeing great difficulty in getting 
authorizing bills enacted into law to the point where some of 
our authorizing committees in the Congress today have 
relatively little input--I could put it more strongly--into 
policy. So if you are going to have robust oversight, you have 
to link it to budget power because that is what the Executive 
Branch understands--money--and you have to link these two in 
some manner.
    The third point, on the radicalization, I think it is a 
huge problem. You have 1.3 billion Muslims spread from London 
to Jakarta. You have more and more Muslims coming into this 
country. Two comments here. One is that I think the problem of 
assimilation of Muslims into American communities is a huge 
problem, and I don't really think the Federal Government can do 
all that much about it. I am seeing in communities I am 
familiar with committees being established to help assimilate 
not just Muslims but others into the communities. I applaud 
that effort. I think we have to get much better at it. The 
Federal Government can do some things, but it really is a State 
and local matter, it seems to me. How do you assimilate these 
very diverse populations into a given community in Indiana or 
any other place?
    On the broader question of the radicalization of Muslims, 
that is the core of the war on terror. You are not going to win 
the war on terror if you cannot deal with the problem of 
radicalization of Muslims. It is a principal challenge of 
American foreign policy. I would be glad to discuss it in more 
detail. It is a huge problem.
    In the 9/11 Commission Report, we talked about American 
foreign policy. It is so frustrating to us because we view the 
United States as a country of hope and of freedom and of 
opportunity and see all of these good things about the United 
States, and for some reason, we just cannot convey that 
effectively in our foreign policy. We have to show more 
sensitivity. We have to be on the side of those in the Muslim 
world who want to improve their lives. We can't solve the 
problems for them. Their governments have to be the principal 
people that try to help solve the problems. We have to let them 
know that we are on their side in terms of wanting a life that 
is more decent than they have.
    That is a subject for not one, but many more hearings, but 
I am glad you have put your finger on it.
    Thank you.
    Chairman Lieberman. Senator Voinovich, thanks. That was a 
very important exchange on both matters. I will just say very 
briefly that Senator Collins began an interest in this question 
of homegrown terrorism with a very important hearing last year 
on the efforts within American prisons to recruit and 
radicalize Muslims. I intend to continue more broadly on the 
question of what is the status of homegrown terrorism, what can 
we do about it, what should we be doing about it from a law 
enforcement point of view, but also how can we stem its spread 
in a community that has been relatively assimilated but is also 
undergoing all the pressures that the world Muslim community is 
undergoing.
    Senator Tester, you are next. Thank you very much for 
joining the Committee. As I look around the half-circle, it is 
remarkable, the great diversity that is represented on the 
Committee. You bring the background from a farming family. You 
have been a teacher. You were a citizen who got angry about 
something. You ran for the legislature. You ended up as the 
President of your Senate, and here you are as a U.S. Senator on 
our Committee. Thank you for being here.

              OPENING STATEMENT OF SENATOR TESTER

    Senator Tester. Thank you, Mr. Chairman. I, too, have a 
written statement that I would like unanimous consent to be 
entered into the record.
    Chairman Lieberman. Without objection.
    [The prepared statement of Senator Tester follows:]

                  PREPARED STATEMENT OF SENATOR TESTER

    Thank you Chairman Lieberman and Senator Collins for scheduling 
this very important hearing at the beginning of the 110th Congress and 
for your work not only pushing for the 9/11 Commission, but also 
passing the Intelligence Reform and Terrorism Prevention Act of 2004 
that responded to many of the 9/11 Commission recommendations. I am 
honored to be working with you on this key Committee.
    As you know, in 2004, the bi-partisan independent 9/11 Commission 
released its report on its investigation of the events leading up to 
the 9/11 attacks.
    It is now 2007 and only half of those recommendations have been 
addressed in legislation or executive order. And many of the 
recommendations that have been addressed have been underfunded or not 
fully implemented.
    My own Montana Department of Homeland Security is happy to meet 
greater homeland security requirements, but the problem is the funding 
keeps going down as the requirements increase.
    Montana has a 600 mile border with Canada. Without the proper funds 
and proper coordination among local, State and Federal officials it 
will continue to be an ideal location for a terrorist to cross the 
border.
    Plus, we have to realize that there are more threats to national 
security than just terrorists. Wildfires, earthquakes and hurricanes 
have the potential to cost lives and devastate communities.
    Funding formulas for emergency preparedness need to take all 
threats to national security into account.
    These are just a few of the many gaps in protection our country 
still faces more than 5 years after September 11, 2001, and more than a 
year after Hurricane Katrina.
    From this point forward, I urge the Administration and we in 
Congress to tend to business and pass and robustly implement the 9/11 
Commission recommendations that remain unaddressed.
    I look forward to the testimony today and working with this 
Committee to improve our Nation's security.

    Senator Tester. My first question would probably be for 
Senator Gorton, since you brought it up about the frequencies 
that are to be turned over in 2009. It seems to me that here we 
are 5 years-plus after September 11. What is the hold-up?
    Mr. Gorton. The hold-up, of course, has been the television 
industry itself not wanting to give up those frequencies on 
which you still get your over-the-air analog--Channel 4, 
Channel 5, and Channel 7. Originally, Congress just said that 
it would be given up and turned over to law enforcement when a 
certain very high percentage of people, as I remember, had 
high-definition television.
    Last year, the Congress did respond with the 2009 deadline. 
We are still deeply concerned because that puts us at risk 
until that date arrives. I can't say that the decision of the 
Congress was utterly irrational. There were interests on the 
other side. But the risk to our national security and to our 
people's lives, it seems to me, is greater than the 
inconvenience that would attend an earlier date.
    Senator Tester. Thank you. Mr. Chairman, Mayor Bloomberg, 
assuming that this does happen in 2009 or before, you have 
already got your system put into place. Would it dovetail in 
with this?
    Mayor Bloomberg. Well, we can make anything dovetail, but 
we are going to stick with our system because at 400 megahertz, 
you get a signal that goes into buildings and into subways a 
lot better and that is what our need is. To build a system and 
waste money that isn't going to fit the environment of 
Manhattan and of the surrounding boroughs doesn't make any 
sense for us at all.
    We are going to do it regardless. Our issue is getting the 
Federal Government to pay for it, not whether we are going to 
do it.
    Senator Tester. I guess the question would be, then, is why 
were certain bandwidths picked? Obviously, Mayor Bloomberg 
thinks the 400 megahertz was the best. That is why you chose 
it.
    Mayor Bloomberg. For us. I am not an expert on other 
places.
    Senator Tester. You are using it now. Is it possible to use 
that bandwidth to take care of the problem? We could start 
immediately.
    Mr. Hamilton. I think the key here is to allocate an 
adequate part of the broadcast spectrum for public safety 
purposes. There are technological problems involved there. 
There are big financial problems. This broadcast spectrum is a 
hugely profitable piece of property, big-time money here. To 
give up part of that is quite a sacrifice.
    You are not dealing here, though, with inconsequential 
matters. You are dealing here with the lives of people. And if 
our first responders cannot talk to one another when they reach 
the scene of a disaster, you lose lives. We did lose lives 
because of that. We will again unless we get this problem 
resolved.
    Two-thousand-nine is fine, but my goodness, it is way too 
far in the future from our point of view.
    Senator Tester. I understand. Go ahead, Congressman Roemer.
    Mr. Roemer. Senator, I am not an expert on the difference 
between 400 megahertz and 700 megahertz spectrum, but I do 
remember sitting in testimony up in New York City and hearing 
fire chiefs and people from the New York Fire Department say 
that on September 11, CNN knew more about what was happening 
about the building crashing next door to them than they could 
report to each other. They couldn't talk. They couldn't 
communicate effectively with one another. And we need, whether 
it is 400 megahertz radio spectrum that the Mayor thinks works 
in New York, 700 megahertz, whatever it might be, it needs to 
penetrate concrete and steel. The White House issued an after-
action item report on Hurricane Katrina, and they said that 
this issue was one of the key issues that we need to resolve, 
and we still haven't resolved it today.
    Senator Tester. Point well taken.
    Mr. Chairman, I guess this should be for Congressman 
Hamilton, the 9/11 Commission recommended a strong, independent 
Privacy and Civil Liberties Oversight Board to oversee 
information sharing and to prevent abuse, I guess is the best 
way to put it, and to ensure that privacy and civil liberties 
are appropriately considered. How would you assess the 
effectiveness of this Board? Is it independent? And is it 
properly funded?
    Mr. Hamilton. It took a long time to get it into place, and 
once it got into place, it has taken a long time, it seems to 
me, to get itself organized. I try to follow these things 
fairly carefully, and I am not aware that they have really 
stepped in and challenged any agency on a civil liberties 
question. Maybe they have. I am certainly not aware of it.
    Almost everything you do in homeland security has a civil 
liberties implication to it, and the people that have to take 
action are under a lot of pressure to take action, but they 
need to be checked. They need to be reviewed on the question of 
what it is they are doing. How does it impact on our privacy 
and on our civil liberties?
    We all understand the fact that we have lost a huge amount 
of civil liberty and a huge amount of privacy because of 
terrorism. You probably cannot avoid that. You certainly cannot 
avoid it completely. But you must have somewhere in the 
government a strong, robust review, looking at every proposal 
that is made from a civil liberties standpoint.
    Now, we wanted an independent agency. We wanted a Senate 
confirmation. We wanted subpoena power. We wanted reports to 
the Congress regularly. I think most of that is in place, maybe 
not the subpoena power. But we have a Board in place, and I 
think your function now is to make sure that Board is 
aggressive and robust in what they do. They have not been, I 
don't think, up to this point, but they are still getting their 
act together.
    Senator Tester. Thank you.
    Chairman Lieberman. Thanks very much, Senator Tester.
    Senator Sununu, as I have said before, I welcome you back 
to the Committee. I look forward to working with you.

              OPENING STATEMENT OF SENATOR SUNUNU

    Senator Sununu. Thank you, Mr. Chairman. Let me just begin 
with an observation about the point Congressman Hamilton just 
made. As a supporter of the Board taking a look at civil 
liberties and someone who pushed very hard to include oversight 
provisions, I admit the review process may not be everything 
that you would like. While there are still some issues with 
regard to implementation, I believe it is worth noting that 
sometimes the mere existence of such an organization is enough 
to encourage better internal oversight, better internal 
management in consideration of these civil liberties issues. I 
think to a certain degree, we have already seen some benefits, 
even if there are still improvements to be made on the 
implementation side.
    [The prepared statement of Senator Sununu follows:]

                  PREPARED STATEMENT OF SENATOR SUNUNU

    As a Member of this Committee, during the 108th Congress, I worked 
with my colleagues under the leadership of then Chairman Collins to 
craft and pass the Intelligence Reform and Terrorist Prevention Act. 
This bipartisan legislation, guided by the recommendations of the 9/11 
Commission, was an important step forward in making our intelligence 
community more agile and responsive to the threats America faces. We 
were able to accomplish this by: Creating the position of National 
Intelligence Director to manage the Nation's intelligence community; 
establishing a National Counterterrorism Center that integrates 
intelligence capabilities and develops interagency counterterrorism 
plans; forming an information network system to better facilitate the 
exchange of information between Federal, State, and local entities; and 
creating a Civil Liberties Board to ensure that privacy and civil 
liberties of law abiding citizens are protected as the country defends 
itself against terrorism. Although these changes were important in 
removing the outdated, stove-pipe structure of our intelligence 
organizations, this Committee must continue to press for effective 
reform to better protect the United States against terrorist attacks.
    Moving forward, it is our role as Members of this Committee to 
assess the government's ability to properly detect and defend the 
Nation against any and all perceived threats. The 9/11 Commission's 
warning that if one of their recommendations went unfulfilled, it could 
undermine those that have been implemented, should not go unheeded. 
However, the Senate needs to remain diligent in evaluating the 
effectiveness of current, as well as new, programs aimed at bolstering 
our security.
    To date, we have spent almost $3 billion on improving 
interoperability, but as the scorecard released from the Department of 
Homeland Security last week indicates, there is still much work to be 
done. Although allocating and spending money on effective equipment and 
technology is important, of equal if not greater importance is our 
ability as a government to prevent future attacks by changing the way 
our country is viewed. Creating a better understanding of the 
opportunity and growth present in America, while simultaneously 
dispelling myths, is vital.
    We also must be willing to reform. Congress needs to implement a 
system of oversight under which those in charge of protecting the 
Nation spend their valuable time in the field rather than testifying 
before various Congressional committees. To her credit, Senator Collins 
worked at narrowing the scope of committees and subcommittees in which 
officials at the Department of Homeland Security have appeared; however 
the list is still too broad.
    I look forward to working with my colleagues on the Homeland 
Security and Government Affairs Committee to achieve these and many 
other goals aimed at protecting our country and its citizens.

    Senator Sununu. I want to ask the members of the panel a 
question about education, the discussion of a battle of hearts 
and minds, ideas, which I think is extremely important. I think 
Congressman Roemer mentioned it at some length in his comments. 
One of the best opportunities and systems that we have for 
supporting this critical effort with regard to education, not 
just here in the United States but in particular abroad in the 
Arab world, are the U.S. educational institutions overseas. In 
particular, we have three within the Arab world that have more 
then a few years of experience, they have decades of 
experience: Lebanese-American University, American University 
in Beirut, and American University in Cairo.
    Coincidentally, I happened to meet with the President of 
the Lebanese-American University today, and these institutions 
are educating close to 20,000 students as we sit here. They 
have a great track record in fostering the lessons and systems 
for open dialogue, tolerance, and naturally carry with them a 
better understanding of what America is in terms of 
opportunity, growth, and democracy, as well as what we are not.
    In the review of the Commission, I am curious to know in 
this subsequent work whether or not you have assessed or 
attempted to assess the specific value of these institutions 
and whether you made any specific recommendations for better 
utilizing these institutions. One of the few methods that we 
use to support them is through a scholarship program, and I 
have fought very aggressively for continued and some increased 
funding in those programs. Sometimes I have had to fight very 
hard with my own colleagues here in the House and Senate, as 
well as the Administration, to get proper recognition for the 
value of these institutions.
    But I am curious to know what the Commission found and 
whether or not you had any recommendations regarding these or 
other educational institutions abroad. Why don't we start with 
Congressman Hamilton?
    Mr. Hamilton. Senator Sununu, I personally think among the 
most important dollars we spend in foreign policy is in the 
area of scholarship and student exchanges and the American 
universities that you refer to. These American universities are 
centers of excellence in their region, and I have been 
impressed and you probably have been, too, with how many 
leaders in these countries go through these universities. I 
don't know of a dollar we spend anywhere from which we get a 
bigger benefit than these American universities, these centers 
of excellence in the Arab world, and I personally would 
strongly favor strengthening them.
    I don't think we mentioned them specifically in the 9/11 
Commission Report, and as you were talking, I said to myself, 
we should have because we certainly emphasized the idea of 
exchanges and scholarships as being critically important in 
dealing with the radicalization of the Muslim world, but we did 
not specifically mention these American universities. I 
strongly support them. I think all of the Commissioners would 
without hesitation.
    Mr. Gorton. I can't improve on Lee Hamilton's statement.
    Senator Sununu. Congressman Roemer.
    Mr. Roemer. I can't improve, but I will probably put my 
foot in my mouth trying. We had as our chairman, a very 
distinguished former governor from the State of New Jersey, Tom 
Kean, who was also a university president, president of Drew 
University. I remember many conversations, although Mr. 
Hamilton is absolutely right, we didn't put enough emphasis on 
this in the report, but Mr. Kean would talk all the time to us 
about the importance of making sure we kept our system open for 
people coming into the United States, for these cultural 
exchanges. Even more importantly today, we send people to these 
centers of excellence and education so that we understand the 
culture and the history and the language and the challenges in 
the Middle East and places all around the world. It is a two-
way street, and I think we need to do a much better job here, 
Senator. You are right.
    Senator Sununu. Thank you. The second question I want to 
ask comes back to this issue of technology and 
interoperability. Mayor Bloomberg, you talked about and we just 
heard an exchange about which frequencies you choose to use. I 
want to ask about the issue of Federal technology mandates 
because that is really what this is. The Federal Government has 
decided to provide funding support for systems that only use a 
very specific technology or frequency. I have had a general 
concern about the Federal Government mandating--whether it is 
in the public sector, public safety, or even in the private 
sector--specific technologies that have to be used to solve a 
problem because that tends to stifle innovation and 
competition. In this case it has restricted your ability to use 
what you feel is the best technological solution for meeting a 
public safety problem. Clearly, the 400 megahertz works better 
for you.
    Are there other areas where you have seen that the Federal 
Government has mandated technology or equipment to be used or 
an approach to be used in this area of homeland security that 
you have found similarly problematic?
    Mayor Bloomberg. Well, I have always thought, Senator, that 
the Legislative Branch of Government should provide monies for 
functionality and leave it to the Executive Branch to decide 
how to use that money. That is the division of powers that I 
think the Founding Fathers envisioned. They might not have 
talked about technology as being one of those, but every one of 
these things is exactly the same thing.
    Each locality has different needs. Geography plays a big 
part in how communications functions. Scale is a very different 
thing. If you have a small volunteer fire department and a 
police department of a handful of officers, they need very 
different kinds of communications and equipment than if you are 
dealing with somebody in an inner city, where you have 
obstructions and scale and density that make first responders 
behave differently and have different needs.
    I think you shouldn't restrict it to just technology, 
whether it is the frequencies they pick or how the radios 
should work or who should manufacture the radios. In the end, 
an awful lot of this, remember, comes out of the fact that 
companies lobby Congress to devise regulations or requirements 
that only their products can fit. One of the Committee Members 
talked about the amount of money that spectrum represents. That 
is just symptomatic of all of this. In the end, the 
functionalities we are trying to provide lose out to the 
economic interests that different manufacturers try to promote.
    Senator Sununu. Thank you, Mayor.
    Mr. Chairman, I will note Congress is going to deal with a 
very large supplemental spending bill in the coming months----
    Chairman Lieberman. Right.
    Senator Sununu [continuing]. For Iraq and for the Middle 
East more broadly. There is going to be a lot of support in 
there for our troops, which I think we need, but I hope we also 
find a way to deal with some of these underlying educational 
questions and questions about winning hearts and minds because 
that funding is at least as important as that for the military 
consequences. Thank you, Mr. Chairman.
    Chairman Lieberman. I agree with you. Thank you for your 
contribution.
    Senator Obama, I think all of us know that you are at one 
of those stages in your career where everything you do is being 
widely observed. I want to say that I don't believe you have 
made a more important decision in recent times than to join 
this Committee. [Laughter.]
    I think it shows a great wisdom and maturity of judgment, 
and I hope those who are watching will note. [Laughter.]
    But more directly, we welcome you and your considerable 
experience and ability to this Committee. Thank you.

              OPENING STATEMENT OF SENATOR OBAMBA

    Senator Obama. Mr. Chairman, it is an honor to be serving 
with you and Ranking Member Collins. The two of you have done 
outstanding work together and I just hope to play a small part 
in the work of this Committee.
    I want to congratulate the members of the 9/11 Commission 
for your outstanding service and your stick-to-it-ness and your 
diligence.
    I am going to have to probably leave before the next panel, 
so I want to just take the opportunity to thank the members of 
the families who are here for your doggedness in trying to turn 
a personal tragedy into something more meaningful for the 
country as a whole.
    What I would like to do, and Mr. Chairman, if I could have 
unanimous consent to place a written statement into the 
record----
    Chairman Lieberman. Without objection, so ordered.
    [The prepared statement of Senator Obama follows:]

                  PREPARED STATEMENT OF SENATOR OBAMA

    Mr. Chairman, thank you for holding this hearing today. As a new 
Member of the Homeland Security and Governmental Affairs Committee, I 
am pleased that the first hearing we are having this Congress is on the 
9/11 Commission recommendations.
    In the more than 5 years since the 9/11 attacks, our Nation has 
failed to implement some of the most basic elements necessary to make 
this country safer. I thank Mayor Bloomberg, Vice Chair Hamilton, and 
Commissioners Roemer and Gorton for joining us today to discuss these 
issues.
    In a report card delivered in 2005 by the 9/11 Commission, the 
country's security efforts received mediocre to failing grades--
including 17 Ds and Fs--in 41 areas of homeland security.
    To this day, our first responders still do not have the 
communications equipment they need to coordinate a rescue in the event 
of an attack. We still inspect only 5 percent of the 9,000,000 
containers that enter this country every year. We're still spending 
only 2 percent of what we need to secure our railroads and subways, and 
not nearly enough on baggage and cargo screening at our airports. We 
still have only 10,000 border patrol agents to guard 8,000 miles of 
land borders, and only one agent to guard every 3 miles of border with 
Canada. And we're leaving some of America's most vulnerable targets--
including chemical plants with toxic substances that could kill 
millions--with the most minimal security.
    The Commission made recommendations in these areas, many of which 
we still have not implemented. And the recommendations that we've 
implemented haven't been as rigorous as we would hope. When the 
Director of National Intelligence steps down from his post to be a 
deputy in the State Department, I have to wonder whether the effort to 
restructure our intelligence community is being taken seriously. And 
when our homeland security funding is still not being allocated 
primarily on the basis of risk, I have to wonder whether we're placing 
home-state politics above good policy.
    If, on the day after September 11, you had told anyone in America 
that these gaps in our security would still exist more than 5 years 
later, they might have thought you were crazy. This cannot go on. 
National security cannot be something we only discuss on September 11, 
or when terrorists try to blow up planes over the Atlantic, or when it 
suits our political interests on Election Day. It is an every day 
challenge, and it will take Americans of every political persuasion to 
meet it.
    In my questioning I intend to inquire further into the Commission's 
recommendations on risk-based funding and congressional reorganization 
and I thank you again for appearing before the Committee.

    Senator Obama. I would like to focus on something that was 
mentioned in the initial testimony but we haven't talked about 
since, and I will address the first set of questions to Mayor 
Bloomberg and that has to do with the Urban Area Security 
Initiative and risk-based funding.
    I know this is something that is very important to you. It 
is important to my State, obviously. We have a major urban area 
in Chicago. I represent the entire State of Illinois, which 
means that there are discussions within Illinois about how 
money should be allocated, and sometimes downstate communities 
want to make sure they are not shortchanged. I am sympathetic 
to that because I represent the whole State, but I have argued 
even within the State that it is very important for us to focus 
our money on where the prime targets are.
    Recently, last week, Secretary Chertoff announced a 
revision in the UASI funding formula so that New York and five 
other areas, which includes the Chicago area, will be competing 
for 55 percent of all of these dollars. Looking at how the 
numbers were allocated last year, it is not clear to me whether 
this signals a significant improvement with respect to risk-
based funding, and I am wondering whether you would like to 
comment on the changes that have been suggested.
    Mayor Bloomberg. Before you came, I pointed out that while 
focusing on the half-a-dozen high-risk areas is a step in the 
right direction, if you look at the numbers, in fact, you 
probably wouldn't get any more money than you did last year, 
and so the devil is always in the details.
    What I would say to you for your State is just they have to 
understand downstate that it is Chicago that is the economic 
engine of the State, just like New York City is the economic 
engine of New York State, and Rich Daley is as good a mayor as 
you will ever find anyplace, and he certainly understands it is 
boots on the ground, it is training, it is making sure that you 
worry about street crime. It is education, which is the first 
line of defense against almost every problem we have.
    Senator Obama. So I guess the question is, have you in 
conjunction with other leaders in what I think we would agree 
would be prime targets for terrorist activity, in this upcoming 
budget season, come up with a specific approach that you would 
like to see taken when it comes to how the Federal Government 
allocates these dollars?
    Mayor Bloomberg. I think it is very simple. Agricultural 
money should go to places where they grow things and homeland 
security money should go to where there are vulnerabilities 
that are targets. Just because we have something that if it was 
destroyed would hurt the country doesn't mean that is 
appropriate for homeland security dollars to defend. Our corn 
crop is very important. We can't eat in this country without 
it. But homeland security money shouldn't go to protect the 
corn crop because that is not what terrorists are going to try 
to attack.
    They are going to go after half-a-dozen big cities. They 
are going to go after the big cities that represent America to 
the rest of the world. They are not that smart in terms of 
picking economic targets. They are picking targets that have 
symbolic value. And when you think of America, you think of New 
York City, you think of Washington, DC, you think of Chicago, 
you think of San Francisco and L.A. Those are the cities that 
are on the picture postcards around the world, and they are 
trying to destroy our way of life. Everything that we value is 
so threatening to these terrorists. We have to protect against 
what they are likely to do, not against where we would like to 
have money spent in this country.
    Senator Obama. Would any of the other members of the panel 
like to comment on this?
    Mr. Hamilton. Senator, I very much agree with the Mayor's 
observations here. The statute today, as I understand it, has 
two phases to it, two parts to it. One is a fixed allocation 
and the other is the Urban Area Security Initiative. The latter 
is distributed on the basis of risk. The former is revenue 
sharing, in effect.
    What the Mayor has said repeatedly, and I strongly support 
his comments, is if you want to provide revenue sharing, go 
ahead and do it, and you should do it, I guess. But let us not 
take very precious homeland security money, which is designed 
to protect the lives of American people, and shift that into 
the normal uses of local and State Government.
    Senator Obama. I just want to be clear, Mr. Chairman, what 
you are arguing is if we are going to do revenue sharing, let 
us do it outside of homeland security----
    Mr. Hamilton. Absolutely. You have the point.
    Senator Obama. OK. Thank you.
    Mr. Gorton. I think I have learned something here today by 
listening to the Mayor. We constantly use the word ``risk.'' He 
is unhappy with that word. There are lots of things that are 
risks that are not----
    Senator Obama. Targets.
    Mr. Gorton [continuing]. Likely targets, and his use of 
that word ``vulnerability,'' I think, was a very important 
distinction. We at least have to try to think what the targets 
are and to anticipate them. And what you have to do, I don't 
think you can define them here in the Committee or in the 
Congress, but you have to empower someone in the Department of 
Homeland Security to use the right considerations in 
determining how to distribute the money.
    Senator Obama. I think that is a useful distinction between 
targets and risk. I am going to squeeze in, since I have 15 
seconds left, just a quick question. We raised the fact that 
there is a gap between 2005 and 2009 as to when we are supposed 
to be shifting over the spectrum. Does the Committee have some 
specific recommendations on this--in terms of covering that 4-
year gap, in terms of what we could be doing at the Federal 
level legislatively, or is it just a function of making sure 
that the money is flowing properly to the local jurisdictions 
and letting them make some decisions like Mayor Bloomberg has 
made very ably in New York City?
    Mr. Roemer. Senator Obama, I think it is a function of two 
things. First of all, I think it is still worth the effort to 
try to move the radio spectrum from being handed over in 2009 
to 2007. The House bill that was introduced on Friday does not 
do that. Congressman Hamilton and I participated in a press 
conference yesterday encouraging them to take another look at 
this issue and in the meantime to address the homeland security 
funding issue. You have heard it from very eloquent people here 
on the panel. We still need a homeland security strategy that 
really highlights our vulnerabilities and our targets and our 
intelligence. If we have 103 nuclear power plants, and there 
are a couple close to Illinois and Indiana----
    Senator Obama. There are a lot of them in Illinois.
    Mr. Roemer. What are we doing? What are the 10 benchmarks 
to make those safer, and how many of them have reached eight of 
those 10? That is the kind of national strategy that we still 
need to have come out of homeland security that will better 
allocate our funding and get away from the pork-barrel process 
that we have now.
    Senator Obama. Thank you, Mr. Chairman.
    Chairman Lieberman. Thank you very much, Senator Obama.
    Audience Member. [Inaudible.]
    Chairman Lieberman. Excuse me. Could you wait until the 
end, please, because we have witnesses who are waiting for 
quite a long time, Senators, as well.
    For the record, I want to thank Senator Stevens, who was 
here for quite a long time and had to go before he was able to 
question. Senator Coleman, you are next. You bring the 
extraordinary experience of a mayor to this Committee.
    Senator Coleman. Thank you. Thank you, Mr. Chairman.
    Chairman Lieberman. Excuse me, Senator Coleman. I want to 
indicate that Congressman Hamilton and Congressman Roemer 
indicated to the Committee that they had a time limit, and I 
understand that this has been a very thoughtful debate and we 
have many more Senators than normally come. It is a tribute to 
the panel. It has been a very thoughtful exchange, and I want 
to say that, with our gratitude, we will completely understand 
if you have to leave in the next few moments.

              OPENING STATEMENT OF SENATOR COLEMAN

    Senator Coleman. Thank you, Mr. Chairman. I just want to 
thank the Chairman and now Ranking Member. One of the messages 
out of the last election was for us to work together and get 
things done. I don't know if there is a better Committee in the 
Congress that has both a reputation and a track record for 
doing that, and so it is an honor for me to continue to serve 
on this Committee.
    I just have to note, Mr. Mayor, by the way, having been a 
former New Yorker, but there is that joke that says a New 
Yorker's view of America is New York. Chicago is right next to 
it. Then you have L.A. and San Francisco, and I think Miami is 
now joined in. There are those other pieces. [Laughter.]
    But you have raised an interesting issue with this risk-
target. In Minnesota, we have the Mall of America, a target. On 
the other hand, we have a nuclear power plant on an Indian 
reservation right on the Mississippi River, a risk.
    And one of the challenges, and I think as a mayor that is 
of concern, is we mandate local departments all through the 
country to do a lot of things without the resources. I think 
this deserves further discussion, this risk-target, but there 
are a lot of areas of great risk throughout the heartland. 
Minnesota Wild played at the Xcel Energy Center, a symbol of 
America. Indianapolis hosts the NCAA Final Four, symbols of 
America. But I think you raise interesting issues that 
certainly need further discussion.
    Let me ask you a question, if I can, about 
interoperability, where we stand today. I was listening to my 
colleague, Senator Sununu. I totally agree with the concern 
about the Federal Government mandating specific technologies. 
My concern, though, in this area of interoperability, and 
again, I go back to a challenge on the Northern border, the 
inability of a local sheriff's department to be in 
communication with folks perhaps in the National Guard in 
Minneapolis-St. Paul, two police departments that can't talk 
together.
    If there were a major attack in New York today, would there 
be an ability of police and fire departments to talk together? 
And in addition, if Federal authorities join in? And there is 
the National Guard. What would be the status of the ability of 
those various agencies to communicate with each other to 
respond to the crisis?
    Mayor Bloomberg. Well, we have radios that are 
interoperable between the police and fire departments. We have, 
as a matter of fact, a separate back-up network where we call 
the commissioners every month, our Office of Emergency 
Management, in case all the cell service were to go out and 
somebody were to try to jam some of those others. We have 
another separate back-up system.
    Which brings to mind, I will solve your problem for you on 
how you assess risk. You talk about the Mall of America. It is 
a place where somebody might want to attack, but there is a 
very simple solution to this. Call the insurance industry and 
say you want to buy insurance for everything, and they will 
tell you with their quotes as to just how much they think there 
is a risk. There are professionals doing it. They are not tied 
to the politics of spreading money around.
    The problem here is not that we don't know how to establish 
what is the most vulnerable, what is the most likely to be 
attacked, what is going to hurt this country the most, what is 
the expected probabilities of these things, the expected mean 
value of them. It is that we are not willing to do it. And I 
think that is the real issue that Congress has to face. Are 
they serious about giving money to where they can best protect 
the country or are they trying to use it for other purposes?
    I think it was Mr. Hamilton who said there are good reasons 
to spread money around. It is called revenue sharing. You 
collect it from everybody. You want to give some of it back to 
everybody. There is nothing wrong with that, but that is not 
homeland security.
    Mr. Hamilton. Senator, I think you have raised the question 
of priorities. I think the toughest problem in homeland 
security is establishing priorities. You have all kinds of 
targets. You have all kinds of facilities out there. Every 
community has them. A really tough job is to say, OK, I am 
going to protect this facility but not that one. Establishing 
priorities is tough.
    Now, we have been very slow in doing it. The DHS talks 
about an assessment of critical infrastructure. There is value 
to that. You have to go around to every community and say, OK, 
what are the most important facilities to protect? But it 
doesn't help you to come in with a list of 1,000 facilities in 
New York City that need protection. You don't have that much 
money. You have to decide on a priority basis, and that gets 
really tough. I think, frankly, over a period of years now, 
several years, we have just been very slow to tackle the tough 
question of priorities.
    Senator Coleman. I think you are absolutely right, and the 
challenge then that we face is, there is not enough money for 
everything.
    Mr. Hamilton. Yes.
    Senator Coleman. But there are needs that go beyond even 
the highest priorities. There is still risk. Those insurers 
will tell you there is risk. Now, do we just fund the top 10? 
Is that what we do? Or do we say that there is risk and 
terrorists hit soft targets? There is a provision in a House 
bill, I understand, of 100 percent cargo screening. This 
Committee has spent a lot of time on that issue. There are 11 
million containers coming into this country. It is going to 
cost a lot of money, and I am not sure we have the technology. 
It probably sounds good, but you have to figure, we have X-
number of dollars. What are you going to spend it on?
    Mr. Hamilton. Yes.
    Senator Coleman. So maybe we have a layered system that we 
have and use some of the money to go to some of the other 
things. Congressman Roemer, you----
    Mr. Roemer. Senator, I think you are absolutely right. I 
think it was Sun Tzu in ``The Art of War'' who said, if you try 
to protect everything, you protect nothing, and a layered 
defense is probably the most effective way, expecting that we 
are going to be vulnerable. We are not going to be perfectly 
secure in the future and there will probably be some successful 
attacks.
    One of the most interesting things about Osama bin Laden's 
statements, particularly the one he made before the 2004 
Presidential election, was he said not only am I going to kill 
Americans--he talks a lot about the military implications--he 
also talks at length about leading America to bankruptcy, 
making them spend money in emergency spending bills on 
Afghanistan and Iraq. He knows our spending process here. And 
so I think if we fall into Osama bin Laden's trap, if we just 
throw money at all these problems and we don't layer our 
defenses and make priorities, Osama bin Laden has one up on us.
    Mr. Hamilton. You have some guidelines here. You have the 
guideline of experience. They have struck New York City twice. 
They have struck Madrid. They have struck London. We know the 
targets they go after. They go after the targets in the very 
big cities.
    Another guideline is what they have said, and what they 
have said, of course, is they want to strike symbolic targets. 
They wanted to hit the Capitol of the United States. They 
wanted to hit the White House. They wanted to hit the 
Washington Monument.
    So you are not totally at a loss here. You have to look at 
the best intelligence that is available to you as to what 
targets you protect.
    Mr. Chairman, I will take advantage of your gracious offer. 
I am hosting a lunch here in just a few minutes.
    Mayor Bloomberg. Mr. Chairman, could I add something to 
Senator Coleman's question?
    Chairman Lieberman. Go right ahead, Mayor.
    Mayor Bloomberg. I think, in the end, you can't protect 
everything, as Mr. Roemer said, and you are going to have to 
look some constituents in the eye and say, no, we are just not 
going to do that. But al Qaeda wins if we close our ports, 
which was exactly what would happen if you tried to look at 
every single one of the 11 million containers that come here. 
Al Qaeda wins if we close our borders and don't have the people 
that are going to create the next industries or do the 
research.
    There is a level of risk that society has to be willing to 
run, and is not somebody responsible for every natural 
disaster, you can't blame somebody? And you can't have the 
ultimate protection. We have to worry about our civil rights, 
and we have to worry about the economic consequences, and 
within that framework make decisions which will not please 
everybody and are not easy to explain, but decisions that, 
look, this is what we are going to do and this is what we can't 
do.
    Senator Coleman. Thanks, Mr. Mayor.
    Mr. Roemer. Mr. Chairman, can I just follow through on 
something that just came to mind while the Mayor was speaking? 
This is not something that we proposed in the 9/11 Commission, 
but I think it is something that with powerful independent 
checks and balances, better oversight in Congress, that you 
could accomplish here. What about working with the States to 
develop best practices at the States to see what New York City 
and New York State has done in the right ways to prioritize 
risk assessment and targeting the resources? Maybe there are 
five or six other States that are really doing this well. If 
so, we should try to drive those best practices to the local 
and the State levels and reward the adoption of best practices 
at the State and local level. What are the States that are 
doing this well? Are they Ohio and Connecticut and Maine and 
other States? Or what are they not doing well? And how do we 
replicate this and encourage this to take place in the future?
    Chairman Lieberman. It is a good idea, and we will ask the 
folks from State and local government on the next panel. Thanks 
very much, Senator Coleman.
    Senator Akaka, welcome back. Thank you, dear friend.

               OPENING STATEMENT OF SENATOR AKAKA

    Senator Akaka. Thank you very much, Mr. Chairman. Before I 
start my questions, I want to add my welcome to the panel that 
is here today and my welcome to the September 11 families who 
are here. I look forward to working with the Committee in this 
Congress. Under the leadership of you and Senator Collins, this 
Committee has embodied bipartisanship. I know that the trend 
will continue in the 110th Congress.
    I have a statement that mentions three main issues that I 
am concerned with: The lack of foreign language skills in the 
Federal workforce; inadequate oversight of privacy and civil 
liberties in the war on terror; and insufficient efforts to 
secure nuclear material both at home and abroad. Mr. Chairman, 
I ask that my full statement be included in the record.
    Chairman Lieberman. Without objection, so ordered.
    [The prepared statement of Senator Akaka follows:]

                  PREPARED STATEMENT OF SENATOR AKAKA

    It was over 2 years ago that this Committee came together to review 
the report of the National Commission on Terrorist Attacks Upon the 
United States, known as the 9/11 Commission Report, to issue 
legislation that addressed a number of the Commission's 
recommendations. The work we did was important and timely, but more 
remains to be done.
    Many of the issues I raised during the original 9/11 Commission 
Report hearings are still outstanding.
    First, not enough has been done by the Administration to increase 
foreign language capabilities in the Federal Government. According to 
the 9/11 Commission Report, al Qaeda was more globalized than we were. 
I completely agree. Al Qaeda knew the English language and American 
culture, but we didn't know theirs. Federal agencies lacked sufficient 
Arabic speaking agents on September 11th which contributed to the 
United States' inability to predict and prevent the September 11 
attacks. Although critical attention has been brought to the lack of 
foreign language expertise in America, much more needs to be done.
    For Federal agencies to recruit individuals with language 
proficiency, we need an educational system to produce individuals with 
those skills. And we need to not only teach the languages that are 
deemed critical today, but those that will be critical in the next 20 
to 50 years.
    At the recommendation of language policy experts; Federal, State, 
and local government officials; and businesses, I offered legislation 
in 2005 to establish a National Foreign Language Coordination Council 
with Senators Cochran and Dodd to develop a national language strategy.
    However, the Administration has blocked this effort and instead has 
focused efforts on a very limited plan: The National Security Language 
Initiative (NSLI). While I believe NSLI is a good first step, it should 
not be the only step the government takes to improve language 
capabilities in the United States. Five years after September 11 we 
should not still be debating how to improve foreign language training 
in the United States. I look forward to hearing our witnesses 
suggestions on how to improve language skills and cultural 
understanding to address current and future needs.
    Second, the 9/11 Commission's recommendation that privacy and civil 
liberty protection oversight be increased has not been fulfilled. I was 
pleased that the Commission recognized the need for strong oversight of 
counterterrorism efforts to protect the privacy and civil liberties of 
all Americans. The Intelligence Reform and Terrorism Prevention Act 
(P.L. 108-458), as passed by this Committee, was on the right track in 
establishing the Privacy and Civil Liberties Oversight Board. However, 
the bill that passed Congress was weaker than initially proposed. In 
light of the increasing threats to personal civil liberties, I believe 
that the Board must be independent and have the power to protect the 
freedoms we hold most dear. Likewise, Federal agencies must have strong 
and independent privacy officers to ensure that laws and procedures 
protecting the rights of individuals are followed. That is why I 
introduced the Privacy Officer With Enhanced Rights Act, or the POWER 
Act, with Senators Lieberman and Feingold, to strengthen privacy 
oversight at the Department of Homeland Security. As the 9/11 
Commission Report states, ``. . . insecurity threatens liberty. . . . 
Yet if our liberties are curtailed, we lose the values that we are 
struggling to defend.''
    Privacy need not be sacrificed in the name of security. In fact, 
violating privacy rights can endanger security, as is the case with the 
REAL ID Act. The 9/11 Commission recommended that the Federal 
Government set standards to prevent fraud in U.S. identification 
documents, such as drivers' licenses. This important recommendation was 
addressed by the Intelligence Reform Act, which mandated that standards 
for issuing drivers' licenses and identification cards be promulgated 
by a group of stakeholders under the direction of the Secretary of 
Transportation.
    Unfortunately, the Intelligence Reform Act requirement was eclipsed 
in 2005 by the REAL ID Act, which requires each State's driver's 
licensing agency to collect and store substantial numbers of records 
containing licensees' most sensitive personally identifiable 
information, including Social Security number, proof of residence, and 
biometric identifiers. If such a State database is compromised, it 
could provide a one-stop access to virtually all information necessary 
to commit identity theft.
    Moreover, the sharing of the aggregated personally identifiable 
information of licensees between and amongst various government 
agencies and employees at the Federal, State, and local level, as 
contemplated by the REAL ID Act, could allow millions of individuals 
access to that information without protections or safeguards. The 
potential for the private sector to scan and share the information 
contained on a REAL ID compliant license exponentially increases the 
risk of identity theft as well. Despite these obvious threats to 
Americans' privacy, the REAL ID Act fails to mandate privacy 
protections for individuals' information nor does the Act provide 
States with the means to implement data security and anti-hacking 
protections that will be required to safeguard the new databases 
mandated by the Act.
    REAL ID exacerbates the threat of identity theft: As the Honolulu 
Star Bulletin noted in an October 1, 2006, editorial, the REAL ID Act 
gives us ``a false sense of security.''
    It is important that the 9/11 Commission's recommendations are 
implemented with good judgment and common sense and not overzealously. 
The identification security recommendation can be fulfilled without 
unduly sacrificing privacy in the process.
    A third issue concerns the importance of securing nuclear weapons 
and nuclear material both at home and abroad. The Government 
Accountability Office (GAO) has undertaken a number of investigations 
at my request into how the United States can improve the security of 
nuclear material. Some significant steps have been taken in the United 
States to store safely low-level nuclear materials that could be used 
in the production of so-called ``dirty bombs.''
    However, more needs to be done. Even more critical is the 
importance of securing nuclear weapons and material in the States of 
the former Soviet Union. As the recent death by polonium-210 poisoning 
in London of a former KGB agent illustrates, deadly nuclear materials 
are more widely available than previously suspected. Next month GAO 
will release another report at my request on the Department of Energy's 
international radiological threat reduction program.
    Mr. Chairman, I look forward to working with you to draft 
legislation to address these and many other concerns raised in the 9/11 
Commission Report. In addition, as Chairman of the Oversight of 
Government Management Subcommittee, I will hold hearings on many of 
these crucial issues because rigorous oversight and strong legislation 
go hand in hand. Thank you, Mr. Chairman.

    Senator Akaka. Mr. Roemer and Mr. Gorton, the 9/11 
Commission Report pointed out that on September 11, al Qaeda 
was more globalized than we were. Its members know the English 
language and American culture, but we don't know theirs. 
Following September 11, the FBI scrambled to find agents 
capable of speaking Arabic. The ability of Federal agencies to 
recruit individuals with language skills is directly tied to 
the ability of U.S. schools to educate individuals with those 
skills. Congress must help schools and universities teach the 
languages that are deemed critical today as well as those that 
will be critical in the next 20 to 50 years.
    However, our Nation lacks a long-term plan for improving 
foreign language skills and increasing cultural understanding. 
That is why I introduced legislation to establish a National 
Foreign Language Coordination Council to develop and oversee 
the implementation of a national language strategy. Would each 
of you give your assessments of the status of our foreign 
language capabilities today and your suggestions to improve our 
language proficiency in the United States. Mr. Roemer.
    Mr. Roemer. Senator, I think you bring up a critically 
important point and a very good question for not only our human 
intelligence capabilities and our intelligence that we gather 
overseas in the future and how we rebuild and recruit people 
into the CIA, but also something Senator Sununu talked about a 
little bit earlier, how do we work at the primary and secondary 
levels of education to compete with the madrassas and how do we 
do a better job of working at the higher education level to 
understand cultures and histories and regions of the world 
better than we do.
    When I served on the House Intelligence Committee, Senator, 
I took a trip to Southeast Asia, and without revealing the 
country, I went into one of the stations where we run our spies 
and was welcomed by somebody who said, we have somebody here in 
charge of these efforts who is from Southern Indiana, is a 
Hoosier like you, and can't wait to see you. We haven't had 
many Members of Congress visit here lately.
    I was a bit chagrined and surprised, and when I did get a 
chance to meet this person, he looked a lot like me, Caucasian, 
six-two, blue eyes, didn't look the part to how we should be 
oriented, postured, and trying to penetrate that particular 
society. The person's language skills weren't much better than 
mine for that particular country.
    We need to do a much better job, sir, in terms of our 
language skills, our knowledge of history, our recruitment, our 
diversity, and strengthening where we are now blind in so many 
areas--Iraq, Iran, North Korea, and penetrating al Qaeda. This 
is an area that I hope our intelligence communities and our 
Intelligence Committees are overseeing.
    One of the things that I worked on with Senator Feingold 
before I left the U.S. Congress was a reserve corps, trying to 
recruit first-generation Americans into the translation area 
and then tier them into subsequent areas when we have clearance 
problems and security issues to overcome, to test their skills 
and their backgrounds and see if we have a longer length of 
time so that we can clear them for even higher-risk areas. So 
it is an area of vulnerability for us. It is an area where we 
have to do a lot of work, sir, and I think there are some good 
ideas out there that the 9/11 Commission has outlined. Where I 
work at the Center for National Policy, we have a paper that I 
would love to share with you on how to help rebuild our human 
intelligence capabilities in this area.
    Mayor Bloomberg. Senator, you couldn't be more right in the 
need for foreign-speaking law enforcement and intelligence 
people. I just swore in a class of 1,300 police officers at 
Madison Square Garden a couple of weeks ago. In that class, 
people were born in 65 different countries. So we have a lot of 
people in the police department that come from around the 
world, speak foreign languages, but we also make a special 
effort to recruit into the police department people that speak 
the languages that the intelligence community would find 
useful, Arabic, Urdu, a bunch of other languages, and we 
probably have more Arabic-speaking police officers in the NYPD 
than maybe exist in any other police or intelligence operation 
in the entire Western world. We would be happy to lend some to 
the Federal Government if---- [Laughter.]
    I have sat there while the Federal Government has tried to 
find somebody to translate, and we just send it over and get it 
back in 10 minutes.
    Chairman Lieberman. Maybe we could make an exchange for 
more homeland security funding. [Laughter.]
    Mayor Bloomberg. Senator, we have always been very pleased 
and thankful for the monies that Washington sends, and we would 
be happy to, at a price, sell you some services back. 
[Laughter.]
    Chairman Lieberman. That is a deal.
    Senator Akaka. Mr. Gorton.
    Mr. Gorton. Senator Akaka, I think your idea has a great 
deal of merit, but, of course, there are trends in teaching 
foreign languages to Americans. In World War II, you needed to 
know German. When I was growing up and was in school, the 
language to take was French, and for four very unproductive 
years, I took French---- [Laughter.]
    And I can get an occasional line in a French movie today 
out of that investment. And then we all had to know Russian 
when the Cold War was going on or Japanese because they were 
the future of economics in the world. Now, of course, there are 
more Chinese than any other. Obviously, Spanish is 
overwhelmingly important to Americans because of our make-up. 
You spoke of Arabic, but it looks like Farsi is every bit as 
important as Arabic to us now.
    If you are choosing a career, it is very difficult to go 
into one of those languages and find that it may not, by the 
time you are done, be the one that everyone needs. And so 
perhaps the idea of someone to overlook and make some kind of 
recommendations in this entire area is, certainly from my 
perspective, worth considering. But it is a big bet when you 
decide, as a young person, to make that your major investment 
of time.
    Senator Akaka. Let me conclude, Mr. Chairman, and since you 
mentioned World War II, there was what they called the MIS, the 
Military Intelligence Service, at that time where they 
recruited people to study Japanese. That program really was 
basic to shortening the war by 2 years.
    Mr. Gorton. Absolutely.
    Senator Akaka. These Japanese-speaking and reading members 
of the force made a huge difference, and we need to do that 
here and prepare for the future.
    Thank you so much, Mr. Chairman.
    Chairman Lieberman. Thank you, Senator Akaka.
    I must say, I visited Iraq in December, and I was struck by 
the number of Arab-Americans, including Iraqi-Americans, that 
are there in translating positions to our great benefit.
    Senator Warner, thank you very much for your return to this 
Committee. You obviously are one of the great leaders on 
national security in the Senate, and you bring that experience 
to our focus on homeland security.

              OPENING STATEMENT OF SENATOR WARNER

    Senator Warner. Thank you very much, Mr. Chairman. I thank 
you and the Ranking Member. Having been here nearly three 
decades in this institution, I have watched the transition 
occasioned by elections, but the most important symbolism is 
the notepad, and that remains unchanged. [Laughter.]
    There is Senator Collins, right on the notepad.
    Chairman Lieberman. We are both very thrifty. We are going 
to use those until they run out. [Laughter.]
    That is what you would do, Mayor, wouldn't you?
    Mayor Bloomberg. Absolutely. [Laughter.]
    Senator Warner. And I thank this distinguished panel. I 
stepped out a minute to speak to Lee Hamilton. Where he finds 
the time to do so much public service is remarkable. I have 
known each of you, and there is life here after the Congress, I 
am sure.
    But Mr. Mayor, I stumbled out of bed yesterday morning, and 
the first thing I saw on CNN was you jumping, not stumbling, 
off the subway about 6:30 in the morning to greet another 
problem in the great city. I have had the privilege of knowing 
you a number of years now, and you have made one of the most 
remarkable transitions from the private to the public sector. 
Not only are New Yorkers lucky to have you, but indeed, your 
symbolism of the importance of the role of mayors, be they in 
your major city or even the smallest communities of my State--
--
    Mayor Bloomberg. Or Senator Coleman. There is life after 
being a mayor.
    Senator Warner. Oh, yes, and he reminds us of that with 
some frequency. [Laughter.]
    To get down to just two good, basic matters, and I call 
these to your attention and hope you will speak up accordingly, 
first, Mr. Mayor, on the question of port security, you have 
one of the greatest ports in the world, as we do in my State of 
Virginia, East Coast ports. We are trying to keep apace. You 
are trying to keep apace. Where are we, in your judgment, of 
coming to a point where we have a reasonable confidence in the 
security of our port system?
    Mayor Bloomberg. Without violating any intelligence 
information, I think we do a not terrible job. We are likely to 
spot significant problems, although we are a long ways from 
ever being able to look at every container, and it is not clear 
to me that you would really want to do that. The cost-benefit 
may not be worthwhile. The country may have other ways to 
protect itself with the limited dollars that it has.
    A big part of our port is over on the New Jersey side. 
There are big ships that come in. You try to do things overseas 
before those ships get loaded, and then you try to look for 
patterns when they arrive as to who is going to pick them up. 
We are always trying to balance creating jobs, for example, on 
the waterfront, where if you do background checks, some people 
may not pass, but you want those people to have opportunities 
to get a job.
    The fact of the matter is, we are an international world 
where goods and services and information moves very easily, and 
controlling it totally is probably not possible.
    Senator Warner. Do you find there is a good system of 
sharing experience with your other competitive ports in the 
United States and the world? In other words, is there a 
synergism----
    Mayor Bloomberg. I just don't know whether we do. I am not 
an expert on that, but I will be happy to have somebody get 
back to you.
    Senator Warner. And I appreciate that very much.
    To my former colleague on the Armed Services Committee, 
Slade Gorton, I ask you about the impact of the potential 
services of the National Guard to our communities given the 
ever-increasing burdens that are being placed upon the Guard 
and the Reserves occasioned by the conflicts primarily in 
Afghanistan and Iraq. I think we will hear tomorrow night some 
rather interesting comments with regard to recognition of their 
remarkable participation both at home and abroad, but at the 
same time, they are stretched pretty thin. What is your view on 
that?
    Mr. Gorton. Senator Warner, your last comment is 100 
percent correct. The Guard and the Reserves are stretched 
overwhelmingly thin. It was my pleasure and my privilege after 
my service in the Air Force to serve more than 20 years in the 
Air Force Reserve, never once being called up to do anything 
other than Reserve duty. It boggles my mind to think of my 
successors being called up not once, but twice, and sometimes 
three times from productive careers in civilian life to serve 
their country. It is less disruptive when it is a very short-
term call for some kind of, say, physical emergency or 
catastrophe here in the United States, basically in their own 
home areas.
    But I believe that one of the immense challenges that you 
have on the Armed Services Committee and Senator Levin is going 
to have is how do we keep people encouraged and serving in our 
National Guard and in our Reserves with these immense demands 
that we put on them. These are extraordinarily patriotic, 
selfless individuals, and we have to recognize the contribution 
that they are making.
    Senator Warner. The question specifically is they are your 
first line of surge, if we use that word now, surge response in 
difficulties here domestically.
    Mr. Gorton. They will be, just as they were in Hurricane 
Katrina. If there is another major terrorist attack of a 
certain nature, there is no question but there is going to be a 
significant role for the National Guard in connection with 
responding to it.
    Senator Warner. Thank you. My time is up, Mr. Chairman.
    Chairman Lieberman. Thanks very much, Senator Warner.
    We have two more Senators who want to ask you questions. 
Mr. Bloomberg and Mr. Gorton, thanks very much for the time you 
have given us this morning.
    Senator Carper, welcome back.
    Senator Carper. Thanks, Mr. Chairman. Welcome back to you.
    Chairman Lieberman. Thank you.

              OPENING STATEMENT OF SENATOR CARPER

    Senator Carper. Mayor and Senator Gorton, it is good to see 
both of you. I slipped out of the hearing just a few minutes 
ago when Congressman Hamilton left, and I wanted to go with him 
over to the Capitol. He is hosting a luncheon there and wasn't 
sure just which way to go to get out of this building. We all 
get lost from time to time. I took him over to the Capitol and 
pointed him in the right direction, but what I really wanted to 
do was have a chance to talk with him beyond the give and take 
that a session like this affords us.
    I suspect that Senator Lieberman and Senator Collins may 
recall roughly 2 years ago when Congressman Hamilton, Governor 
Kean, and others on the 9/11 Commission came before us and 
presented their findings and responded to our questions and 
over 40 recommendations in all that they were submitting to us. 
I reminded Mr. Hamilton of that and the question that I asked 
him and Governor Kean, I said, how is it that a group as 
diverse as that which the two of you have led have come to 
consensus around all these different recommendations, some 40 
recommendations, and you agree on all of them and present them 
to us in their entirety.
    Now I sort of link that to the working group he has headed 
with Jim Baker, again, another group of 10 very diverse people, 
five Democrats, five Republicans, and they have come forward 
and made not 40 recommendations, but some 70 recommendations 
and have reached, I think, unanimity on, I believe, just about 
all of them.
    The question I asked him 2 years ago, I asked him again 
today as we were walking down the hall and taking the subway 
over to the Capitol, and I said, how did you initially with Tom 
Kean and then you and Jim Baker manage to foster this kind of 
consensus when we struggle so much with that here? It kind of 
relates to what Senator Warner was mentioning earlier. Senator 
Warner said, where does he find the time to do so much public 
service? It is remarkable.
    And Mr. Hamilton said to me this afternoon, he said, I have 
the time because I don't have to live with the kind of schedule 
that you do, where you live your life, and Senator Gorton, you 
remember what this was like, I know, and we do, we live our 
life in 15- to 30-minute increments here. He said, what you 
don't have as a Representative or as a Senator is really the 
chance to sit down and to have good heart-to-heart, in-depth 
conversations with your colleagues. He said it was out of those 
kinds of conversations that he had with Tom Kean that they 
sized one another up, developed a sense of understanding, and 
then trust, and that sense of trust really infused the rest of 
the Commission. A similar kind of thing happened with Jim Baker 
and the members of the working group that they led on Iraq.
    So when our time here is over and done with, maybe we can 
look forward to having some time to really kick back and do 
good work across the aisle with our friends and colleagues from 
around the country and come back and testify and tell how we 
really believe they can solve these issues.
    Mayor, I have a question of you, if I may, and then maybe 
if I have time one for Senator Gorton. In your testimony, I 
believe you praise the Department of Homeland Security for 
allowing cities like New York City that receive urban area 
grants to spend at least a portion of their grant funding to 
pay personnel costs. I recognize as an old governor that this 
may be necessary from time to time, but I am concerned if we 
are going to be spending Federal dollars day-in, day-out to 
cover cities' operating costs.
    I am especially concerned when I think of all the unmet 
homeland security needs across our country, some of which we 
have talked about here today. Where do you think the Federal 
Government's responsibility in funding first responders should 
end and the responsibility of State and local governments 
begin?
    Mayor Bloomberg. Well, I think operationally, State 
governments and local governments, local in particular, are 
where the buck should stop, and they are the ones responsible 
for protecting their cities, counties, or States. In terms of 
funding, we all try to get as much money as we can from every 
place that we can. I think if the Federal Government wants to 
spend its money wisely on providing homeland security, it has 
got to take a look at what works. Its natural inclination is to 
go and buy equipment--that we can have a photo opportunity in 
front of, for example--but that may not be what you need.
    Somebody talked before about a local town near the Canadian 
border. They probably don't need very fancy equipment. They 
need some smart people who know strangers when they walk into 
the community and know what path through the woods somebody is 
likely to take and know where the river is shallow so that 
people might want to cross it. We have added a lot of police 
officers and other emergency responders to our payroll because 
that is the way to stop terrorism. We can always use more 
equipment, but we can't use it anyway near as productively as 
we can well-trained, well-supervised boots on the ground, as I 
call it.
    Let me also just close by saying something that occurred to 
me when you were talking about Mr. Hamilton and how he does 
everything. My experience in life has always been that when you 
have a tough job, you give it to the most overworked person you 
know. There is a reason why that person is overworked, and 
there is a reason why everybody wants Lee Hamilton.
    Senator Carper. Good point. Senator Gorton, if you will, I 
believe the 9/11 Commission has been on record calling for a 
risk-based distribution of Federal first responder aid. Mayor 
Bloomberg, in his testimony, talked a little about this just 
now. He calls for a system that is based entirely on risk. Do 
you think that this would be a responsible step for us to take, 
to eliminate base allocations or small State minimums entirely, 
and how do you envision grants being distributed under that 
kind of scenario?
    Mr. Gorton. Mayor Bloomberg has made that a central point 
in his testimony here today. The comparisons that he has made 
about amounts of money and distribution formulas have been 
eloquent and are ones with which I agree and ones with which 
the Commission agrees.
    I don't believe that the Congress can set the formula 
itself. You really can't do it. This is a dynamic situation. 
But I think the Congress should set a formula for monies for 
homeland security to be based on vulnerability and on the 
threat that is provided by international terrorism. It would 
presumably be the Department that used that guidance, probably 
to make adjustments in each and every year. But if the Congress 
is going to give money to deal with the problem of homeland 
security and the threat of terrorism, it ought to be focused on 
homeland security and on the threat of terrorism and not on 
something else.
    Mayor Bloomberg has also been eloquent on the proposition 
that there may very well be room for other kinds of aid and 
assistance to State and local governments, but it should be 
denominated as being for purposes other than homeland security 
and the struggle against terrorism.
    Senator Carper. Thanks.
    Mr. Gorton. If I can say, Senator Carper got it absolutely 
right in his opening remarks about organizations like the 9/11 
Commission. It was a very different experience than being here 
in the Senate, where you all do live in 15- and 30-minute 
increments. We had a year and a half, 10 people who didn't know 
one another when they started out, but an overwhelming single 
challenge. And almost from the beginning, it was in our minds 
that if we split up, especially if we split up on a partisan 
basis, our recommendations would be worthless. We were able to 
reach agreement on the history and then ultimately on the 
recommendations.
    I can tell you, with Tim Roemer having sat here next to me, 
he and I had a disagreement that lasted until the last night 
before we finished on a very important matter. We reached the 
conclusion that it was far more important to be united than to 
do our own separate views, and in reflection afterward, the 
final answer on that issue was better than it would have been 
had either of us completely prevailed. It wasn't a lowest 
common denominator compromise, it was a highest common 
denominator compromise.
    But it was that ability to get to know one another on a 
single issue, as profound as it was, that led to those results. 
Your statement is entirely correct in that respect.
    Senator Carper. Thank you.
    Chairman Lieberman. Thank you. Good advice every now and 
then, that still happens around here, and we hope it----
    Mr. Gorton. You did it when you took up our recommendations 
in this Committee.
    Chairman Lieberman. I can't tell you how many Members of 
the Committee on both sides of the political aisle said to 
Senator Collins and me, this is why we came to the Senate, to 
work together to solve a problem like this. Talking about 15- 
or 20-minute segments, every now and then we get the chance to 
spend 3 hours at a hearing like this---- [Laughter.]
    And that is a good experience.
    The last Senator to ask this panel questions, with thanks 
again to the panel, is Senator Mary Landrieu. Welcome to the 
Committee. You have just joined us, and we look forward to 
working with you.

             OPENING STATEMENT OF SENATOR LANDRIEU

    Senator Landrieu. Thank you, Mr. Chairman, and I am looking 
forward to the next panel and want to provide time, so I will 
just be as quick as I can. I have an opening statement for the 
record. I am very pleased to join this Committee and look 
forward to working with both of you, who I consider 
extraordinary leaders.
    [The prepared statement of Senator Landrieu follows:]

                 PREPARED STATEMENT OF SENATOR LANDRIEU

    The terrorist attacks that occurred on September 11, 2001 shocked 
and saddened the Nation and the world. Legislation subsequently offered 
by Senators Lieberman and McCain created the independent National 
Commission on Terrorist Attacks Upon the United States. The 9/11 
Commission's final report revealed critical gaps in our Nation's 
security and the need to modify and develop policy, law, and regulation 
to mitigate vulnerabilities, threats, and consequences.
    Of its 41 recommendations, approximately half have been addressed, 
by a combination of the Legislative and Executive Branches in 
association with foreign, State, and local governments and the private 
sector. The Intelligence Reform Act addressed a number of these gaps, 
but many more remain. Hurricane Katrina demonstrated massive 
shortcomings in our Nation's emergency preparedness and response 
capabilities. This Committee conducted an extremely thorough 
investigation, which led it to conclude what many Americans have since 
witnessing response failures in New Orleans, namely that the Nation's 
people, economy, and infrastructure has not been adequately safeguarded 
since September 11.
    Some of the witnesses here today plan to talk about the failure to 
practice plans in place before Hurricane Katrina, and the importance of 
established responder networks and regularly conducted exercises. I 
look forward to hearing the witnesses' views on progress in 
implementing and expanding Incident Command capabilities among State 
and local governments, which was one of the Commission's 
recommendations.
    I look forward also to hearing each of your assessment of our 
progress in the area of interoperable communications, which was among 
the response community's chief failures on September 11. Communications 
failures paralyzed command and control networks on the Gulf Coast after 
Hurricane Katrina, when catastrophic damage to communications 
infrastructure left police without a functioning radio network. 
Satellite communications were slow to arrive on the scene, and 
responders were forced to utilize text messaging in order to coordinate 
with one another. This demonstrated the emergency management potential 
for communication modes other than voice, and I am hopeful that newly 
available spectrum for public safety use will allow increased 
transmission of data, video, and internet-based information. The 
spectrum transfer should also increase network capacity and 
transmission speed. Allocation of additional spectrum to first 
responders was another recommendation of the Commission upon which 
Congress has acted, and I look forward to hearing panel views on the 
transition process, and the viability and utility of the February 2009 
deadline for broadcasters to disconnect.
    Just last week, the Department of Homeland Security issued a report 
which stated only six major American cities, out of 75 surveyed, have 
achieved optimal communications interoperability. We clearly have a 
long way to go in achieving this goal, and I look forward to hearing 
your assessment of current funding schemes, standards setting, 
technical assistance, interagency coordination, and Federal outreach in 
this area.
    While progress has been made in reforming the intelligence 
community and improving information sharing at the Federal level, more 
progress must be made to coordinate information between Federal and 
local law enforcement. We must act also to improve border and document 
security, secure weaponizable material around the world, and strengthen 
oversight of intelligence and homeland security structures.
    I am highly encouraged by the incoming Congress's enthusiasm for 
implementing the remainder of the 9/11 Commission's recommendations, 
and I commend Chairman Lieberman and Senator Collins for their past 
leadership in this area, and their continuing commitment to this task. 
I look forward to the witnesses' testimony and to also working with my 
colleagues on this Committee to legislate additional security 
requirements and ensure their timely and effective implementation.

    Senator Landrieu. Mayor Bloomberg, we had an incident, as 
you know, in New Orleans, Hurricanes Katrina and Rita, and the 
subsequent collapse of the levee system that flooded an area 
larger than the size of Great Britain and put a major city 
under 20 feet of water. Needless to say, there was a tremendous 
amount of confusion about where the water came from, what 
happened, what caused it, how to swim out of it, where to go, 
where was the high ground, where were the helicopters, and none 
of the communications systems worked. Our National Guard was 
left riding bicycles up and down the levees delivering notes to 
one another to try to save people as the helicopters swirled 
around to try to lift people off of roofs, and you know because 
you sent people from New York to help us, and we are very 
grateful.
    I know before I came, there had been a lot of comments 
about communications, but I would like for the record if you 
could just briefly, what additional communications have you all 
done since September 11 to make sure that your fire fighters 
can speak to your police officers, can speak to the ambulance 
drivers, etc.? What would you recommend for us that we haven't 
done, and I know that we haven't done our frequency plan yet 
because I am going to focus, Mr. Chairman, on this 
communications issue, which I thought was really at the heart 
of the ``charge'' of disorganization. Anyone would be 
disorganized if you can't communicate with the next person, and 
everyone's cell phones went down. Doctors couldn't communicate 
to nurses. It just goes on and on.
    So I am going to stay focused like a laser on this 
communications piece because panic becomes a real problem in 
our situation, as in yours, but ours was greatly expanded. So 
just a comment about communications and what could we do that 
would be better in your mind than what we are doing now.
    Mayor Bloomberg. Senator, I think all of the country feels 
the pain, if it is not too trite to say so, that the people of 
New Orleans felt. We tried to do the little bit that we could. 
We just pray that everybody recovers and it doesn't happen to 
anybody else.
    I think you have to answer your question on two levels. 
One, we have put automatic vehicle locators into all of the 
ambulances and all of the fire trucks so that we can look at a 
computer display, know what is the closest piece of equipment 
to dispatch, and it has actually brought down response time for 
our ambulances about 26 seconds, which is a very big percentage 
of the response time and can save a lot of lives. We have back-
up radios, and we have radios that are now interoperable. We 
have a back-up system.
    But I think a better answer to your question is the 
communications that you really need in New Orleans and we 
really need in New York is the face-to-face communications. Our 
police officers and fire fighters and transportation people and 
health officials all have to know each other. They have to know 
each other on a first-name basis. They have to know the ethics 
and the procedures of the other departments. They have to work 
together. And you do that by everyday training. You have 
tabletop exercises. You have field exercises where people show 
up. You encourage communications. You have the chiefs of 
different departments go and have a meal with each other, a cup 
of coffee. You make sure that they talk. You have athletic 
events.
    We get them together, and they just get a chance to know 
each other and to respect each others' values and each others' 
capabilities, and that is more important than any technology 
because no matter what the event is, in the end, it is going to 
be solved by people who are facing each other, having to decide 
who goes into this building, who does this, who does that. Our 
Office of Emergency Management is planning in advance. No 
matter what the event is, what is your responsibility, what is 
my responsibility? What happens if you don't show and I do, and 
I don't have the equipment I need? How do I go and behave?
    Senator Landrieu. And what about cell phone capacity 
because all the cell phones basically went down and nobody 
could communicate.
    Mayor Bloomberg. Well, you are always going to have----
    Senator Landrieu. The same thing that happened on September 
11, 2001.
    Mayor Bloomberg. Nobody is ever going to build a phone 
network, whether it is cell phones or wire lines, that can 
handle everybody wanting to make a call at the same time. We 
had that problem at the World Trade Center tragedy, where a lot 
of people couldn't get through. The cell system didn't go down, 
it just got overburdened. But that can happen with land lines, 
as well, and one of the dangers that we worry about is that we 
get so dependent on cell phones that it is the only kind of 
communications we have. We want to use cell phones. We want to 
use hand-held radios. We want to use radios in trucks. We want 
to use satellite phones. We want to use a lot of different 
things because you can't be assured that any one system will be 
there.
    If you want to know what is the great danger in today's 
world in a modern city, it is losing communications. One piece 
of software could take out all the telephones in the city. Just 
one little comma in a line of code, and it would take an 
enormous amount of time perhaps to find it and to fix it. So 
you have to know how to behave without that line of 
communication.
    Electricity goes down, your cell phones may work, but 
eventually the generators run out of fuel, and they stop 
working. What do you do? We had a case where we had a blackout, 
and the pumps that pumped gasoline are electric, and they 
couldn't put the fuel in the truck, so the truck couldn't take 
the fuel to the back-up generators. Nobody thought about that. 
Now, I don't think that is going to happen. We have taken 
steps. But it is that kind of level.
    The only way that you do it is you practice all the time, 
Senator, and it is, in the end, the city's responsibility to 
take care of themselves, certainly for big cities, counties 
when you get to the smallest cities where they have to pool the 
resources, and then the State somewhat and the Federal 
Government way down the line. The Federal Government does 
things in advance or afterward, not during.
    Senator Landrieu. Thank you, Mayor Bloomberg.
    Chairman Lieberman. Thanks very much, Senator.
    Both of you, thank you. Senator Gorton, thanks for your 
continuing service. Mayor, your experience and testimony today 
has been very helpful to us. I believe, based on the 
experience, I think you have become a national asset, and we 
intend to call on you as we go forward with our work here. 
Thank you very much.
    Senator Voinovich. Mr. Chairman, I was remiss in not asking 
that a statement I have be inserted in the record previously.
    Chairman Lieberman. Without objection, Senator Voinovich, 
will do.
    [The prepared statement of Senator Voinovich follows:]

           PREPARED STATEMENT OF SENATOR GEORGE V. VOINOVICH

    The September 11, 2001 attacks revealed numerous shortcomings in 
our nation's capacity to detect potential terrorist threats and respond 
effectively. In response, Congress enacted legislation to establish the 
Department of Homeland Security, and to reform and reorganize our 
intelligence community to address current and future national security 
threats. The reorganization of the Intelligence Community was guided by 
the recommendations of the 9/11 Commission, and represented the most 
sweeping reform of our intelligence agencies in more than 50 years. In 
conjunction with legislative reform, the Federal Government has more 
than tripled government-wide spending related to non-defense homeland 
security, distributing approximately $12 billion dollars in direct 
grants for State and local preparedness.
    As this Committee works to assess the results and implementation of 
legislative reforms, and as our national homeland security policy 
matures, it is important to acknowledge that while we can enact 
legislation and authorize funding to minimize risk, we can never fully 
eliminate it. Thus, we must use common sense in developing legislative 
reforms that ensure our limited resources are allocated based upon risk 
assessments grounded in credible intelligence and analysis.
    While activities devoted to preparing for, protecting against, and 
responding to potential terrorist attacks are essential elements of our 
national homeland security strategy, preventing terrorist attacks from 
occurring is our government's primary responsibility. For this reason, 
I believe efforts dedicated to detecting, preventing, and disrupting 
terrorist activity yield the greatest results. It is critical that we 
continue to strengthen our intelligence gathering capabilities as the 
first and best line of defense against potential terrorist activity.
    Successful implementation of the 9/11 Commission recommendations 
depend on how the intelligence community agencies operate together as 
well as how they are organized. Accordingly, I will remain focused on 
the capacity of the intelligence community to execute its mission in 
terms of management and personnel. I look forward to hearing whether or 
not our witnesses believe the Intelligence Reform and Terrorism 
Prevention Act gave the Director of National Intelligence sufficient 
authority to effectively manage and integrate the intelligence 
community.
    My continued work in enacting positive human capital reform in our 
intelligence and homeland security agencies stems back to March 2001, 
when I chaired a subcommittee hearing entitled, ``National Security 
Implications of the Human Capital Crisis.'' During the hearing, former 
Defense Secretary Schlesinger, a member of the U.S. Commission on 
National Security in the 21st Century, testified ``We must take 
immediate action in the personnel area to ensure that the United States 
can meet future challenges . . . fixing the personnel problem is a 
precondition for fixing virtually everything else that needs repair in 
the institutional edifice of U.S. national security policy.'' 
Similarly, the 9/11 Commission concluded, ``We know that the quality of 
the people is more important than the quality of the wiring diagrams. 
Good people can overcome bad structures. They should not have to.''
    We must be sure that the reforms implemented to date provide for a 
highly-skilled intelligence community workforce supported by 
organizational systems that lead to measurable results in the capacity 
of our nation's Intelligence Community to meet its ever-changing 
mission. The report card released by the Public Discourse Project 
showed evidence of some progress, but weaknesses remain. Further 
progress is needed if we are to prevent future attacks against our 
homeland.
    Finally, one aspect of the various homeland security reforms that I 
have been disappointed in has been the Congress's unwillingness to 
reform itself in accordance with the 9/11 Commission's recommendation 
to provide better and more streamlined oversight of the Department of 
Homeland Security. I continue to believe that Congress could do a 
better job if we were willing to set aside the turf battles and 
reorganize our own committee structure to provide more efficient 
oversight over homeland security.
    I commend Chairman Lieberman for convening this hearing as part of 
this Committee's continued oversight of the various homeland security 
and intelligence reforms it has played a large role in shaping. I look 
forward to working with my colleagues in a bipartisan manner as we 
ensure our intelligence community is capable of marshalling the full 
range of capabilities needed to respond to threats against our 
homeland.

    Chairman Lieberman. The Committee will take a 5-minute 
recess. We have two more panels, and we look forward to hearing 
the testimony of both panels.
    [Recess.]
    Chairman Lieberman. I am going to reconvene and thank our 
witnesses on this second panel for their patience. Obviously, 
there was a lot of interest in the first panel. A lot of people 
came. But the Committee is interested in the perspective that 
the two of you bring. I am grateful that you are here and that 
you stayed.
    Chief Carter, you are the President of the International 
Association of Chiefs of Police (IACP), and in that capacity 
you are going to be testifying on behalf of police chiefs 
nationwide. Since 2003, Chief Carter has served as Chief of the 
Massachusetts Bay Transportation Authority Transit Police 
Department. He has been in law enforcement for nearly 30 years, 
achieving a high rank in the Boston Police Department and also, 
I am proud to note, grateful to note, Brigadier General in the 
U.S. Army Reserve.
    Chief Carter, why don't you begin.

      TESTIMONY OF CHIEF JOSEPH C. CARTER,\1\ PRESIDENT, 
         INTERNATIONAL ASSOCIATION OF CHIEFS OF POLICE

    Chief Carter. Thank you and good afternoon, Mr. Chairman, 
Senator Collins, and Members of the Committee when they come. 
[Laughter.]
---------------------------------------------------------------------------
    \1\ The prepared statement of Chief Carter appears in the appendix 
on page 100.
---------------------------------------------------------------------------
    On behalf of the International Association of Chiefs of 
Police (IACP), it is my pleasure to be here this afternoon to 
share the view of the Nation's law enforcement community on our 
national efforts to detect, prevent, prepare for, and respond 
to acts of terrorism.
    Over the past several years, a number of dramatic steps 
have been taken to confront the menace of terrorism, including 
the passage of the Patriot Act, the establishment of the 
Department of Homeland Security, and the creation of a variety 
of programs designed to assist State and local governments in 
their efforts.
    Unfortunately, despite these efforts and the billions of 
dollars appropriated by Congress for homeland security 
initiatives, State, Tribal, and local law enforcement 
executives have grown increasingly concerned over a homeland 
security strategy that has moved too slowly and has not fully 
comprehended the post-September 11 role of State, local, and 
Tribal law enforcement in securing our homeland. It is a 
strategy that while improving the security and safety of a few 
communities has left many others increasingly vulnerable.
    For these reasons, I would like to spend a few moments 
discussing what the IACP believes are the vital elements that 
must form the basis of a successful homeland security strategy.
    First and foremost, the IACP believes that the prevention 
of terrorist attacks must be a paramount priority in any 
homeland security strategy. To date, the vast majority of 
Federal homeland security efforts have focused on increasing 
the national capabilities to respond to and recover from a 
terrorist attack. Although the Association agrees that there is 
a need to enhance response and recovery capabilities, such 
preparations must not be done at the expense of efforts to 
improve the ability of law enforcement and other public safety 
and security agencies to identify, investigate, and apprehend 
suspected terrorists before they can strike.
    On a related note, because of IACP's strong belief in the 
importance of prevention, we are extremely dismayed over the 
Congress's failure to establish the Office of Terrorism 
Prevention within the Department of Homeland Security as part 
of its FEMA reform legislation last year. The failure to create 
this office substantially undermines efforts to improve our 
Nation's security and further hinders terrorism prevention 
efforts of State, Tribal, and local law enforcement agencies. 
The IACP implores the Congress to address this situation as 
soon as possible.
    Another critical element that must serve as the foundation 
for a successful homeland security strategy is the realization 
that terrorist attacks that occur in the United States, while 
they have national and international repercussions, are 
inherently local crimes that require immediate response of 
State, local, and tribal authorities. Even more critical is the 
realization that while planning, conducting surveillance, or 
securing the resources necessary to mount their attacks, 
terrorists often live in our communities, travel on our 
highways, and shop in our stores.
    As we discovered in the aftermath of September 11, several 
of the terrorists involved in those attacks had routine 
encounters with State and local law enforcement officials in 
the weeks and months before the attack. If Tribal, State, and 
local law enforcement are adequately equipped and trained and 
fully integrated into the information and intelligence-sharing 
network, they can be invaluable assets in efforts to identify 
and apprehend suspected terrorists before they strike.
    In that light, I would like to touch briefly on the 
importance of intelligence and information sharing. As the 9/11 
Commission properly noted, the lack of effective information 
and intelligence sharing among Federal, State, Tribal, and 
local law enforcement agencies was and continues to be a major 
handicap in our Nation's homeland security efforts. The IACP 
wholeheartedly agrees with this determination. In fact, in 
2003, the IACP developed the National Criminal Intelligence 
Sharing Plan (NCISP), which was endorsed by the Department of 
Justice, the Department of Homeland Security, and the FBI, to 
provide a cohesive vision and practical solutions to improve 
law enforcement's ability to detect threats and protect 
communities.
    The recommendations contained in the NCISP focused on 
establishing a collaborative partnership that would not only 
ensure that all levels of government are equal partners, but 
would also promote a freer flow of information and make certain 
that the experience and capabilities of all parties are 
realized.
    It is for these reasons that the IACP strongly supports the 
Information Sharing Environment (ISE) implementation plan 
recently submitted by the Office of National Intelligence. The 
ISE plan, along with the release of Guideline 2, which directs 
the development of a ``common framework for the sharing of 
information,'' is a major step forward in intelligence 
integration and will allow the law enforcement community to 
better detect, disrupt, and prevent future acts of terrorism.
    The IACP is particularly pleased that the ISE plan 
emphasizes the vital role that State, local, and Tribal law 
enforcement must play in the development and dissemination of 
critical intelligence. This reinforces the IACP's longstanding 
belief that only through effective information sharing can we 
hope to make our home towns and the homeland safer.
    The IACP is also very supportive of the aggressive yet 
achievable time line set forth for establishing the Information 
Sharing Environment and believes that meeting the 2009 date is 
critical to our homeland security efforts. Therefore, it is 
imperative that the Director of National Intelligence retain 
the Program Manager for Information Sharing Environment for the 
3-year implementation phase as recommended in the plan. The 
IACP strongly supports this recommendation.
    As Congress continues its efforts to develop policies and 
programs to prevent terrorist attacks in the future, the IACP 
urges you to support the proposals contained in the ISE 
implementation plan.
    Finally, I would like to conclude my remarks by addressing 
another essential element in a successful homeland security 
strategy. It is critically important that we commit to the 
development and maintenance of a broad-based effort that builds 
on the Nation's prevention and response capabilities from the 
ground up. It is vital that a baseline capability be 
established in all communities, not just urban areas or those 
determined to be at greatest risk. Once these capabilities are 
established nationwide, they can be used as a foundation upon 
which more advanced homeland security capabilities can be 
built.
    Regrettably, the current homeland security strategy and 
funding formulas appear to have the opposite goal. The last 
several years have witnessed a pronounced shift away from a 
broad-based homeland security program toward a program that 
targets primarily urban areas for assistance. While the IACP 
agrees that there is a need to provide urban areas with the 
resources they need to protect their communities from terrorist 
attacks, this must not be done at the expense of programs that 
provide assistance to law enforcement agencies throughout the 
rest of our country.
    Unfortunately, this is exactly what is happening. As funds 
have shifted toward major metropolitan areas, the vast majority 
of our Nation's communities have been forced to compete over an 
ever-dwindling pool of resources. As a result, their ability to 
upgrade their capabilities and improve their readiness has 
already been severely hindered. It is the IACP's opinion that 
failure to implement and adequately fund a broad-based effort 
that will improve the security of all communities weakens our 
overall approach to securing the homeland.
    Indeed, as larger metropolitan areas become more secure, 
terrorists will seek out other less protected targets to 
attack. As we move forward in developing our national homeland 
security strategy, we must remember that we are a Nation of 
communities and that all our communities are at risk.
    This concludes my statement, and I will be glad to answer 
any questions you may have.
    Chairman Lieberman. Thank you, Chief, for that excellent 
testimony. We do have some questions, and I look forward to 
asking them.
    I am delighted and honored to welcome Commissioner Skip 
Thomas, who leads the Department of Emergency Management and 
Homeland Security in the State of Connecticut. The Commissioner 
previously served as Director of Justice Planning for the 
Connecticut Office of Policy and Management and also as Chief 
of Police in Glastonbury and Vernon, Connecticut.
    We thank you for coming down, and we look forward to 
hearing your response from the point of view of the States of 
our country.

  TESTIMONY OF JAMES M. THOMAS,\1\ COMMISSIONER, CONNECTICUT 
    DEPARTMENT OF EMERGENCY MANAGEMENT AND HOMELAND SECURITY

    Mr. Thomas. Thank you very much, Senator. Good afternoon, 
Senator Lieberman, Senator Collins, Senator Voinovich. My name 
is James Thomas, and I am the Commissioner of the Department of 
Emergency Management and Homeland Security for the State of 
Connecticut. I am here today to talk about the continued 
implementation of the 9/11 Commission recommendations.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Thomas appears in the appendix on 
page 109.
---------------------------------------------------------------------------
    There are three overarching themes that influence my 
thinking. First, I strongly feel that the No. 1 priority for 
government is and always should be public safety. Public safety 
and security are the two critical areas that cannot be 
delegated to anyone other than government. With that in mind, 
the Federal Government, in partnership with the State and local 
agencies, share this responsibility. For America to be safe, we 
must all work together, and we are only as strong as the 
weakest link.
    Second, we have focused a great deal on funding and 
planning for response and recovery, as the Chief mentioned. We 
need to focus on funding and planning for prevention and 
protection. What we really want to do is to prevent another act 
of terrorism anywhere in this great country.
    Third, when we are talking about collaboration, we need to 
make sure that all partners are included. By that, I mean 
local, regional, State Governments, private sector, and Tribal 
Nations, as well as the Federal Government, who should be 
leading the way through adequate funding and sharing of the 
very best technology that we have to offer, as well as the 
sharing of lessons learned.
    With these themes in mind, I would like to address three 
specific areas, the areas of funding, interoperability, and 
information sharing.
    I recently heard DHS Under Secretary George Foresman say 
that we should not judge States by how much grant money they 
have spent or how fast they spent it. Instead, success should 
be judged by the quality of their programs and the extent to 
which they have supported and approved upon interagency and 
intergovernmental coordination and collaboration throughout the 
program development. I wholeheartedly support this perspective.
    The Federal Government should ensure that grant funding 
streams are flexible enough to accommodate unique needs within 
each State. States would greatly benefit from expanding funding 
to an all-hazards planning, prevention and mitigation, 
preparedness, and response and recovery. Federal streams must 
acknowledge that different States across the country are at 
different stages of development. Those States that have well-
defined programs need funds to sustain their work. Other States 
with less robust programs need funding to achieve their initial 
programmatic goals. All States must be able to address the 
emerging needs that arise in this environment of ever-changing 
technology and events.
    If States can justify unique circumstances which require 
specialized funding, they should be allowed to spend their 
Federal funds this way. Again, we must remember that our 
country is only as strong as the most vulnerable locale, that 
being a large metropolitan area, a county, or even a rural 
community where one would think that the terrorists would be 
least likely to train at or to strike.
    Risk-based funding is a laudable and appropriate concept 
that should be adopted as recommended by the 9/11 Commission. 
In order to achieve the consistent data on which the Federal 
agencies will base funding determinations, the Federal 
Government should use one template, or standardized tool, for 
risk and vulnerability assessment to be used by each State 
across the country. Significant progress has been made this 
year in this area, but the States should continue to have the 
opportunity to provide input on the creation of this tool.
    Clearly, high-risk jurisdictions must receive adequate 
funding to protect their citizens and visitors. But 
nonetheless, funds should not be targeted exclusively to the 
immediate geographic areas of high risk because that will leave 
the surrounding communities extremely vulnerable. For example, 
a terrorist event in any large urban area, such as New York 
City, will affect several States and jurisdictions. In the 
example of New York City, both New Jersey and Connecticut as 
well as other States might be impacted as the New York 
residents and visitors flee the city. Such an event may even 
require the evacuation of lower Fairfield County in Connecticut 
and sections of Northern New Jersey.
    We also must make sure that the large cities and UASIs are 
safe and secure by taking the necessary steps to keep any 
potential threat or danger from ever getting into those large 
areas. For example, hundreds of thousands of people enter New 
York City every day from rail, buses, and ferries. We have to 
make sure that our transportation systems are secure all along 
the routes leading into these areas. Again, we are only safe 
and secure when the entire system is safe and secure.
    I know Senator Lieberman has introduced legislation for 
improving rails. If you think about Penn Station, more people 
use Penn Station than all the airports combined in the New York 
area. We have to make those areas very secure.
    State and local governments must be given the flexibility 
to apply the resources to identified needs and target dollars 
in a way that is meaningful to every State, regional, and local 
community. In Connecticut, we do not have county governments. 
It is important that the State and municipalities be able to 
focus on the priorities that we have identified, such as the 
greater need for prevention and protection rather than just 
response and recovery.
    All States need to develop and further enhance their public 
and private partnerships. A small amount of Federal funds 
should be set aside for this purpose. With 80 percent of the 
funds having to go to local governments and 20 percent of the 
funds allocated to the States, there are really no funds 
available to partner with the private sector. Yet the private 
sector owns about 85 percent of all the assets in most of our 
States. Federal funds should be made available so that States 
can adequately share resources with the private sector. That 
will greatly improve information sharing, collaboration, 
training, and again, prevention and protection. In return, 
there must be private sector accountability for this 
relationship.
    A key area that I would like to address is 
interoperability. Standardizing systems across the United 
States would greatly enhance interoperability. In Connecticut, 
we are working with New York State, New York City, and New 
Jersey to administer and distribute our Federal transit 
security grant in a manner that is beneficial to the tri-State 
area. We are making sure that all our radio systems in that 
tri-State area allow the officers on the trains to be able to 
talk to each other. We think this is a critical area as people 
move through. Even the police officers in New York are sworn 
into Connecticut, and our troopers that go in from Connecticut 
into New York. We need to have interoperability of 
communications within that whole tri-State region.
    There are other examples of the need for standardization in 
interoperability. Nationwide, there are hundreds of individual 
communication and information systems into which critical 
information is funneled. There are still many silos around 
communication systems that need to be eliminated.
    In our State, we have tried to address this by bringing all 
the people from the State and local disciplines together to 
coordinate and collaborate on issues involving interoperable 
communications. Planning for and participating in exercises and 
drills brings all the stakeholders to the table and encourages 
not just the testing of equipment and protocols, but getting to 
know each other very well. It provides an opportunity for the 
development of interpersonal relationships and enhanced 
communications among stakeholders, which are very vital to 
successful emergency management.
    But interoperability means more than just voice, from my 
viewpoint. It should include geographical information systems, 
oblique imagery, and mobile data terminals in every response 
vehicle. From a practical viewpoint, voice, one person is 
talking and a lot of people are listening. If you have mobile 
data terminals in every first responder vehicle, everybody sees 
the picture, sees the maps, and you can communicate very 
effectively using data. It is a great tool.
    And finally, the Federal Aviation Administration 
legislation and homeland security legislation needs to be 
synchronized and coordinated in all areas of aviation security, 
port security, and rail security. States need a consistent 
message from Washington in the areas of transportation policy, 
planning, and grant funding. For example, perimeter security at 
airports is just as important as a strong baggage check area. 
All security starts on the outside boundaries and moves in 
toward the key assets, such as the airport, train station, and 
other transportation hubs. Ultimately, if the outside boundary 
is not secure, neither is that mode of transportation.
    Last, information sharing is a vital tool in the fields of 
emergency management and homeland security. As I mentioned 
earlier, there is a great need to collect information at the 
local level--that is where most of it is going to come from--
pass it up to the State and on to the Federal Government in a 
very timely manner. The Homeland Security Information Network 
should be used by all States. This would allow all States to 
share vital information.
    A fusion center, where information that is collected from a 
variety of local, State, regional, and Federal sources is 
subject to analysis and dissemination, is a critical component 
of information sharing. Local communities need proper funds and 
technologies to accomplish this goal. We have to have a fusion 
center in all of our 50 States and territories. They need to be 
linked regionally and then to the National Security Center and 
capable of sharing real-time information, stressing real-time 
information.
    There is also a need to review and revamp the current 
classification system within the intelligence community. Much 
of the information that is now being classified ``secret'' 
should be reclassified ``for official use only,'' so that it 
can be shared with those who need it most, the State and local 
police officers and emergency personnel at the scene.
    Information sharing should be expanded with the notion that 
the public is a partner with government and, if well informed, 
can serve as the eyes and ears for protection and prevention. 
Again, we will need the help of the general public. There will 
never be enough police officers, FBI agents, and other law 
enforcement personnel to do the job without the assistance of 
the public. We need to have a strong, sustained public 
education campaign that engages and challenges the people of 
our great country not to be complacent. We need each and every 
one of us to be involved if we are going to be truly effective 
in the area of homeland security.
    We are concerned more than ever that because of September 
11, our lives have changed as we once knew them. We need to 
implement the recommendations of the 9/11 Commission as soon as 
possible. Again, I say to you, it is the responsibility of 
government, Federal, State, local, and Tribal, to provide a 
safe place for all of us to live. We need to work together like 
we have never worked before. Check the egos at the door. Do the 
right thing. Let us make the United States a safer and better 
place to live. Let us move on the implementation of the 9/11 
Commission recommendations this session.
    Chairman Lieberman. Thanks very much, Commissioner. That 
was excellent testimony.
    Let me ask you both to talk a little bit more about this 
funding question. Obviously, this is something we have been 
struggling with here in Congress. Mayor Bloomberg makes a very 
strong argument that you have to distinguish between risk and 
targets, that the cities have more targets. Therefore, they 
should essentially get almost all the money, maybe all the 
money.
    In the two bills that were passed in the House and the 
Senate, most of the money in those formulas is distributed 
based on risk. There is a small percentage, slightly larger in 
our bill, smaller in the House bill, that goes on a minimum per 
State, and that is based on the perception that everything is 
at risk in the war on terrorism.
    There is a limited pot of money here. I would say 
parenthetically that one of the big problems, as I think one of 
you said, is that homeland security funding, the major programs 
have been cut 43 percent since 2004. So the arguments we are 
having over allocating and priority setting get a lot more 
difficult when you are dealing with a shrinking pot and a 
growing need.
    But from the perspective of the State and local law 
enforcement, how do you make the case? How would you set the 
priorities here, knowing that even if the pot were larger, it 
is always not going to be enough? How do we allocate between 
the argument that the Mayor of New York makes and the arguments 
that the two of you make on behalf of State and other local 
governments?
    Mr. Thomas. Well, I think we have to consider risk, and 
there is no doubt about it that there are certain targets that 
we are anticipating based upon intelligence, let us say, the 
six larger areas, UASI areas, and we have 39 new areas. We also 
have to look at, if you are a terrorist and you are trying to 
think, including homegrown terrorists, would you put all of 
your efforts going to a place where the protection is the very 
highest, everything you are doing is being monitored, or are 
you going to be working in an area that probably doesn't have 
the same level of resources?
    A lot of our communities anywhere in the United States, 
just because of our geographic location, place us at very high 
risk because of, let us say, New York City. Our State of 
Connecticut--and I am not here just for Connecticut or New 
Jersey or our State--in our part of the country, we talk of the 
10 State Northeast Consortium. We go down as far as Delaware, 
Pennsylvania, New York, New Jersey, and the six New England 
States because we think we all have to work together.
    So when you are talking about that, I think that people are 
looking at a risk. We are talking regionally and ultimately 
nationally. But everybody has a high degree of risk just 
because of the way that terrorists operate, and we can't put 
all of our money just in the six UASI areas and the 39 tier two 
groups and leave everybody else. That would be extremely 
foolish. I think it would be a tremendous mistake. We all have 
critical assets in our State that are very prime targets, and I 
think that is reality, whether it be nuclear power plants or we 
have submarine bases. We have all kinds of industries that have 
a direct impact upon national security today.
    I think you have a difficult task. Where do we draw that 
line? But in reality, we are here to protect the country, and 
there are 50 States in that country and six possessions. We 
have a responsibility to protect the country.
    Chairman Lieberman. Chief, in your answer, let me just ask 
you to address one other thing, as well. There are two 
arguments made on this subject. One is that there is a greater 
need in the cities, for instance, like New York, but the second 
is that when you spread money around the country on a minimum 
per State basis, some significant amount of money will end up 
being used for non-homeland security needs. I don't know 
whether your association has ever tracked this. Obviously, you 
can always find somebody who is spending public money for 
something different than it should be spent for.
    But it would be real helpful to this Committee if it is 
possible for you, and maybe you want to address it today, to 
give us some basis for concluding that the overwhelming amount 
of the money that is going to the States and then to the 
localities on these different homeland security grant programs 
are actually being used to protect against the risk that exists 
in those non-central city areas.
    Chief Carter. Mr. Chairman, I am not familiar with a 
specific study----
    Chairman Lieberman. Yes.
    Chief Carter [continued]. But we could examine that among 
our membership pretty easily.
    Chairman Lieberman. That would be helpful.
    Chief Carter. But not withstanding that and just to 
piggyback on what Commissioner Thomas indicated, and not to 
minimize the need that was articulated by Mayor Bloomberg in 
terms of his risks that he sees in the City of New York, New 
York being an epicenter of life in America and having the many 
vulnerabilities that it has, those vulnerabilities, those risks 
again exist throughout America. When terrorists plan, when they 
exercise, all the things you heard in earlier testimony that we 
need to do at the State and local level as well as the Federal 
level in preparation to ensure that we are operable should 
there be an incident, terrorists are doing the same thing, and 
they are not doing it in Mayor Bloomberg's city because they 
know about the 1,000 officers that are doing intelligence that 
are there. They are in the hamlets. They are in the small 
cities.
    When you look at and examine terrorist incidents around the 
country, particularly those that are on mass transit, they are 
coming from the suburbs, they are coming from those small 
villages and towns into the city.
    Chairman Lieberman. That was true on September 11, 2001.
    Chief Carter. It was true on September 11, true in London, 
true in Spain. If you look at incidents that take place on 
almost a daily basis--we monitor this in transit policing 
throughout the country and throughout the world--they are 
coming from the suburbs, they are coming from the small towns 
that you would least expect would have terrorist activity. It 
is that police officer on a midnight shift, or on that last 
half, as we call it, or on early evening shift that is going to 
have perhaps an interaction with a potential terrorist.
    And if we don't have a network or an effective system of 
information sharing, if we do not have a piece of the pie in 
terms of being able to get the tools and resources that they 
get in a New York City, then we would have a failed homeland 
security strategy. I want to underscore, home town security, we 
profess, is homeland security.
    Chairman Lieberman. Thank you both very much. My time is 
up. Senator Collins.
    Senator Collins. Thank you very much, Mr. Chairman.
    First, let me start by thanking you both for excellent 
testimony. I so wish that more of our colleagues and members of 
the previous panel were here to listen to your caution and what 
you have to say.
    Chief, you made an excellent point about the need to focus 
on prevention, and this is a point that resonates with me 
because two of the September 11 terrorists started their 
journey of death and destruction from Portland, Maine. I think 
that fact has been lost in the debate on the funding formula.
    Moreover, if you look at the 9/11 Commission Report, it is 
just as you say. The terrorists trained, hid, transited in 
smaller communities. It is, and I agree completely with Mayor 
Bloomberg, much more likely that a large community, a city like 
New York, will be the target, but we want to prevent the attack 
from happening in the first place. That is why both Senator 
Lieberman and I did advocate the Office of Prevention, an idea 
that your Association shared with us, and we put it in the 
Senate version of the FEMA reform bills. Unfortunately, we lost 
it in conference.
    But I would like to ask both of your opinions on an idea 
that we have been exploring as we try to seek a compromise on 
the formula issue, and that is that we carve out a percentage 
of the money to be used for prevention, not just improving 
recovery and response as the Commissioner has mentioned, which 
is what a lot of the emphasis has been on, recovery and 
response, but for up-front efforts to prevent. I would like to 
ask you both to comment on that as my first question.
    And then my second question, we have also explored the idea 
of having a percentage of the money carved out to support 
interoperability communications. That is critical, whether we 
are talking about a terrorist attack or a natural disaster, 
such as Senator Landrieu talked about earlier. It was very 
frustrating to me when we did the oversight of Hurricane 
Katrina to find exactly the same interoperability problems in 
the Gulf Region that were such a problem on September 11, so 
many years later.
    So if you could comment on both: Should we, taking your 
advice on prevention, carve out some funding to make sure that 
there is this emphasis on prevention and carve out some funding 
for interoperability? Chief Carter, we will start with you.
    Chief Carter. Thank you, Senator Collins. We strongly 
believe that the prevention rubric is quite important to 
homeland security strategies in America. We firmly believe that 
in having the ability to deter, detect, and prevent terrorism, 
that we must get funding in that area to help buttress programs 
that communities have established without funding. Cities, 
towns, and States have been forced because of lack of funding 
to do things, stealing from Peter to pay Paul, to put in place 
programs that could use some funding to help strengthen our 
homeland security strategy. So it is an area that we strongly 
urge that you consider in terms of the homeland security 
funding strategy. Prevention is key and we support that.
    The other area that you asked about was interoperability. 
Interoperability of communications, again, at the local level, 
the Tribal level, and at the State level, is that all 
communities have some kind of standardization of communication, 
of data sharing, so that if there is an incident, it will not 
only impact the big city, but it is going to impact that entire 
region, and if we cannot communicate with each other, if we 
have not exercised with each other and tested systems that are 
interoperable, we would have failed. Those lessons have been 
demonstrated for us not only on September 11 here in this 
country, but all around the world. Interoperability is also 
key, as well as the prevention dimension that you talked about.
    Senator Collins. Thank you. Commissioner, my time has 
almost expired, but if you could comment on those two issues.
    Mr. Thomas. I would support the Chief's comment 100 
percent. Key for us is to prevent things from happening, and we 
do that through effective education campaigns. We have put the 
1-800-TIPS line in New York City. A lot of States are doing it. 
We have to educate the public. They are the eyes and ears for 
us, as well as the police officers on the different shifts. 
That is who is going to break and prevent things from 
happening. We really have to promote prevention. That is the 
key for us. I think none of us want another attack. It is going 
to be a police officer out there working a shift who sees a 
group of people doing something unusual.
    There is a story--it is a true story--a lady who lived in a 
condominium saw somebody throw something into the dumpster. She 
was upset. We consider it larceny sixth degree, somebody using 
the dumpster. They went into the dumpster and found somebody 
had dropped a whole bunch of IDs off and things along this 
line, which would give them access. So an investigation was 
done, and in reality, it was much more than somebody dumping 
off trash, but in reality, an effort to do criminal acts using 
fake IDs, and the reality has significant impacts.
    So what we have to do is get the public involved. Let them, 
when they see something suspicious, call the local police 
department, engage that officer. Let us give the example that 
the Chief had mentioned. An officer is working late at night. 
He or she sees something unusual. If they had the mobile data 
terminal system in their car and they punched in and were able 
to tie into the Homeland Security Information Network or NCIC, 
which hopefully most of us can do, but not everybody has that 
mobile data terminal. What if critical information came out and 
said, listen, that person is an area of concern. Get as much 
information--I mean, you could maybe prevent something. That 
officer or trooper may never know that. We have to get 
information out there. Let us prevent things from happening.
    Interoperability, you cannot stress it enough. It is almost 
6 years later, and for some reason we are still talking about 
it. It is frustrating. But the Mayor is right. Some people work 
better on a 400-megahertz system. Some people work on an 800. 
Some of them work off of 700. Each locality, because of the 
topography, the demographics of the city, the community, is 
going to be different. But homeland security has to give us the 
flexibility to get systems that work on a regional basis 
because we are going to rely on each other. We need 
interoperability--police, fire, EMS, emergency management, or 
when our other partners come in, we have to stress that.
    I say, carve money out for interoperability. You can carve 
money out for prevention as long as it includes that public 
education. That is who is going to make the difference for us. 
The public is going to make a difference. So we could carve it 
out. We have to do this together. Nobody can do it alone.
    Chairman Lieberman. Thank you, Commissioner and Chief, for 
your testimony, for the excellent answers to the questions. 
Actually, I have more questions, and what we would like to do 
is submit them to you through the mail and ask that you answer 
them for the record, and we will share them with the other 
Members of the Committee. Thanks very much for being with us. 
All the best.
    Chief Carter. Thank you.
    Chairman Lieberman. We will call the third panel, with 
apologies to them that we come on at this point. I don't know, 
Senator Collins, whether the Chairman has the ability to issue 
a special certificate of merit to the witnesses, the people in 
the audience, and particularly the media who have stayed to 
this point, but if I could, I would. [Laughter.]
    This panel is composed of three of the heroes, if one can 
say that, of this fight. Each one lost a loved one on September 
11 and took that terrible loss and grief and turned it into 
advocacy for prevention and protection.
    Mary Fetchet lost her son, Brad, at the World Trade Center. 
She founded Voices of September 11th.
    Carol Ashley, mother of Janice Ashley, who died at the 
World Trade Center, has testified before Congress and serves on 
the Family Advisory Board of Voices of September 11th.
    And Carie Lemack, daughter of Judy, who was a passenger on 
American Airlines Flight 11, one of the planes the terrorists 
crashed into the World Trade Center, is co-founder and 
President of Families of September 11th.
    Senator Collins and I know, we say this often, you never 
can say it enough, that without the support and the persistent 
advocacy and, in fact, the kind of outcry that you brought to 
the cause, there never would have been a 9/11 Commission, there 
never would have been a 9/11 Commission Report, and there never 
would have been the September 11 legislation and all that it 
has done and yet has to do. So thanks for sticking with us all 
the way, including in this latest chapter.
    Ms. Fetchet, I think you are the first to go. Thank you.

 TESTIMONY OF MARY A. FETCHET,\1\ FOUNDING DIRECTOR, VOICES OF 
      SEPTEMBER 11TH, AND MOTHER OF BRADLEY JAMES FETCHET

    Ms. Fetchet. I was going to say good morning, but I guess I 
will say good afternoon----
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Fletchet appears in the appendix 
on page 113.
---------------------------------------------------------------------------
    Chairman Lieberman. Thank you.
    Ms. Fetchet [continuing]. Mr. Chairman, Ranking Member 
Collins, and Members of this distinguished Committee, I am 
honored to testify today at this vitally important hearing on 
ensuring full implementation of the 9/11 Commission 
recommendations.
    My name is Mary Fetchet. I am Founding Director of Voices 
of September 11th, and as you mentioned, my husband and I 
suffered the ultimate loss as parents when our 24-year-old son, 
Brad, was tragically killed in Tower Two of the World Trade 
Center. Like many Americans, my sense of faith in our 
government's effectiveness was shattered on September 11, 2001, 
and I sit here before you today once again filled yet with 
renewed hope that in the new Congress, your Committee will 
continue to take this opportunity to address the unfinished 
business identified on December 5, 2005, in the final report 
card of the 9/11 Public Discourse Project.
    I have made a personal commitment along with other family 
members to advocate for full implementation of the September 11 
recommendations, and I have been driven really by the wake-up 
call that our family suffered when my son was senselessly 
murdered at the hands of terrorists on September 11. It is my 
personal belief that almost 6 years later, our country remains 
vulnerable. And although some progress has been made, there 
remains much work to be done. I feel that we collectively, the 
Administration, Congress, government agencies, and interested 
individuals, have a moral obligation and responsibility to work 
together.
    I am adamant that the 9/11 Commission recommendations must 
be implemented in their entirety, and I will limit my comments. 
As you saw from our reports, they were quite lengthy, and so 
much has been covered already this morning. But I do want to 
talk about preparedness, the importance of information sharing, 
unified incident command, funding based on risk and 
vulnerability, and another controversial issue, congressional 
reform.
    Voices of September 11th conducted a national survey of 
over 2,000 Americans in August 2006 that measured their 
perceptions of preparedness. The results illustrate that few 
Americans are adequately prepared in their home, their 
community, their workplace, or the Nation at large. Sixty-nine 
percent of those surveyed rated U.S. preparedness for terrorist 
attacks as fair or poor. Local and home preparedness fared 
slightly better. But only 15 percent of respondents had 
participated in preparedness training.
    The results in the workplace, and I reflect on this because 
I feel Brad and 618 others should be alive today if they were 
prepared as being one factor, were especially troubling because 
64 percent of the respondents either don't know what their 
company's plan for a natural disaster or terrorist attack is or 
they are not confident in it. And to validate the importance of 
preparedness in the workplace, I have included the summary of 
the World Trade Center evacuation study, which was conducted by 
Columbia University, and the study surveyed September 11 
survivors and highlights the factors that led to their 
understanding of preparedness on 2001, but also it made very 
important recommendations about the importance of emergency 
preparedness by everyone in the building and drills for high-
rise buildings.
    DHS, I think, has taken some great steps with their Ready 
Campaign, the Resolve to Prepare 2007 Campaign, and recently 
also the Ready Kids Campaign, and Voices of September 11th has 
supported those activities through our membership in promoting 
September as Preparedness Month. I think that DHS should expand 
their private sector partnership and also look for other ways 
to educate the younger generation. My suggestion would be 
integrating age-appropriate preparedness education and training 
in elementary, middle, and high schools, and Voices of 
September 11th has actually begun a pilot program to do just 
that, and I am happy to share our findings and the work that 
lies ahead.
    Unified Incident Command Centers for disasters is something 
we have all talked about earlier. Hurricane Katrina really 
demonstrated the need for better coordination of response 
efforts between Federal, State, and local agencies, and 
certainly I think it is just so critical and a core component 
to really both preventing and reacting to an emergency. I think 
that Congress really has to closely monitor and implement the 
mandates that have been suggested and allocate appropriate 
funding.
    Voices of September 11th and I, as President, have 
participated--in fact, I saw the two of you at the Connecticut 
TOPOFF program, and we also attended the one in New Jersey and 
Washington, DC. We also work on local roundtables for planning 
local response. My husband and I just recently went through 
CERT training, which is Citizen Emergency Response Training. My 
view is that, with this experience, our local and regional 
emergency response plans have progressed in the last 5 years, 
but we are operating, as they say, in a bubble.
    Our local communities--I can speak for New Canaan, which is 
great to pass this along to you, Senator Lieberman--are doing a 
wonderful job due to volunteers and collaborating with the Red 
Cross, the fire department, and police department. So they have 
made significant strides. I think they are only beginning to 
work on the regional plans, though, and so I think that we have 
a long way to go there.
    Funding is a real issue. As local communities are 
distracted or have other priorities in their community, it is 
really going to require Federal funding from the government to 
fund very necessary roundtables, exercises, and drills.
    One area where we haven't begun, and I actually talked to 
Mayor Bloomberg about it today, New Canaan is in the trampling 
zone, and should there be an emergency in New York City, we 
could have millions of people coming across the border. So any 
metropolitan area like Washington, DC, with Virginia and 
Maryland, like New York City, with Connecticut and New Jersey, 
it is just critical that we sit down at a roundtable--it 
doesn't have to be formal--and make sure that we are on the 
same page, that we understand our planning on the local level, 
and that we are prepared. I think you saw that in Hurricane 
Katrina, as well, where there was a mass exodus, and many 
communities that weren't prepared were taken with the 
responsibility of having to take on not just food and clothing, 
but education and relocation of individuals. So I would 
encourage that.
    The other thing is the business community must be 
integrated into the planning and training exercises with the 
emergency management teams, both to identify potential 
resources that they may have, like food, water, clothing, but 
also to have the open lines of communication. I think of Brad 
on September 11 when those people were told to remain in the 
buildings. The information sharing was just critical, and I 
think business has to play an active part in that.
    Interoperable communications, we have talked about this ad 
infinitum this morning. When I think about the 9/11 Commission 
and the value that they had in really stepping back and looking 
at the broader picture, I think my hope for them was that they 
wouldn't suffer the same fate of other GAO reports, other 
commissions that have been established, and that these reforms 
would be implemented. So with regard to interoperability, I 
know I was shocked to learn at a press conference that in 1995, 
this was identified as a problem in a GAO report. Had that been 
implemented, had it been addressed, even as late as 2000, my 
son's life and, as I said, 618 others would have been saved on 
September 11.
    The thought that we are not much further along the line is 
incomprehensible to me because I think that is the first 
defense in really saving lives. To put our first responders in 
the compromising position that they find themselves in, going 
into buildings when they can't communicate with their 
counterparts in the next room is, I think, negligence on the 
part of the government. So I do think it has to be a priority. 
There has to be a mechanism to put this in place, and it has to 
be addressed.
    I also think the spectrum--I disagree with the 2009 date. I 
think there is no reason why we can't be addressing this and 
setting a much more aggressive date on that.
    Connecticut, for your information, Senator Lieberman, 
Region 1 in Connecticut just developed a telecommunications 
interoperability plan. It took them over 3 years and 9 months 
of trying to coordinate this. I tried to give you a record for 
the review, but they had forwarded me the draft form, so I will 
get the final version for you. The equipment, I think, to make 
them all operable is very expensive, which again comes down to 
funding. Coincidentally, Westport had made that investment, so 
they were able to go through this exercise, and it was very 
effective. So I will share that with you.
    We have talked a lot about information sharing. I think my 
concern here is that we are without leadership right now with 
the recent resignation of the DNI, Mr. Negroponte, and then, of 
course, his deputy position has been vacant for quite some 
time. So I just question not that the State Department 
shouldn't be a priority, but I am hoping that when you have 
another candidate sitting before you, you talk about the long-
term commitment and vision that they have to have. This is at 
the core of trying to organize our intelligence data and really 
oversee the broader agencies.
    I think we have to be more thinking out of the box. I heard 
there is a real infighting going on a couple levels down from 
the DNI on whether they should be using html or xml systems. I 
think we do have to look for new technologies. I know another 
one that has come up recently is like Wikipedia and Telepedia, 
and that would be another way for people to share information. 
So I do hope that they are looking at new technology.
    Risk-based homeland security appropriations, I do think 
that it has to be based on risk. I think as Mayor Bloomberg 
reiterated today, the large municipalities with dense 
populations and a lot of targeted infrastructures should be a 
priority. So I would hope that you would reevaluate that 
decision.
    Congressional reform and oversight--Congress has to make a 
commitment to reform itself. I know there is a lot of talk 
about intelligence oversight reform, but I have this chart of 
homeland security, and most Congressmen and Senators have some 
jurisdiction over homeland security. I remember when I first 
received this, my 15-year-old at the time said, how do they 
know who is in charge and who makes the decision? I thought, 
out of the mouths of young babes. But I do think that your 
Committee has made such an incredible commitment to this cause, 
and I would hope that you would have much more jurisdiction 
over homeland security issues. It has to be streamlined. People 
have to make swift, educated decisions, and I think you bring a 
lot to the table, and so that would be my recommendation.
    And just in concluding, over 5 years ago, my husband and 
the other people sitting here at the table suffered a horrific 
loss. Ours happened to be the death of our wonderful son, Brad, 
who with 2,748 other innocent victims was senselessly murdered 
at the hands of terrorists living right here and traveling 
within the United States. Our lives were changed dramatically, 
and the innocence of our children and our country was really 
snatched away from us on September 11 as we became part of a 
global community that lives with the threat of terrorism every 
day.
    I think there is still a mentality that if we kill 
terrorists over there, it will address the problem, and I think 
we need somebody focused on looking here domestically at the 
people that are living in our country. We have to have a 
comprehensive watch list. We have to know who is living here, 
who is coming here, who is leaving here. It has to be 
documented.
    And while I recognize that this is a daunting task that 
lies ahead, I believe we must remain vigilant and steadfast in 
our commitment to ensure that our government is doing 
everything within its power to make our country safer.
    You know, there have been so many junctures. You talk about 
families being here. I thought when the Commission was 
established that my job was done. I thought when the 
legislation was legislated that my job was done. And I really 
debated about coming back to Washington. Is it really my 
responsibility? But I feel like I have a moral obligation to my 
family and the memory of my son, Brad, and I think with this 
110th Congress, we have another opportunity. And so I look to 
you, and we look forward to working with you. I feel so 
thankful that you are both still here working on these issues, 
and I just want to thank you again from the bottom of my heart.
    Chairman Lieberman. Thank you. Thank you, Ms. Fetchet. It 
doesn't get any easier 5 years later, does it?
    Ms. Fetchet. No.
    Chairman Lieberman. It is a reality. But you have accepted 
a moral obligation, and you have reminded us of our moral 
responsibility, as well, and we are going to all stick together 
until we get everything done we possibly can. I appreciate 
everything you have said and all that you have gone through. 
You and Ms. Ashley and Ms. Lemack have actually become not just 
advocates, but some of the Nation's most informed experts on 
what is happening and what could happen.
    Carol Ashley, thank you for your patience. We look forward 
to your testimony now.

  TESTIMONY OF CAROL ASHLEY,\1\ FAMILY ADVISORY BOARD MEMBER, 
     VOICES OF SEPTEMBER 11TH, AND MOTHER OF JANICE ASHLEY

    Ms. Ashley. Thank you. Thank you for giving me the 
opportunity to speak today about implementation of the 
September 11 recommendations. My name is Carol Ashley, and my 
daughter, Janice, was killed in the World Trade Center. She was 
25 years old.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Ashley appears in the appendix on 
page 132.
---------------------------------------------------------------------------
    I commend Senators Lieberman and Collins for once again 
drafting bipartisan legislation to address some of the security 
gaps, and I respectfully ask the Congress to endorse their 
effort. More than 5 years after September 11, there are still 
gaps in our security. We do not know when, where, or how the 
terrorists will strike again, and we have to cover ourselves.
    One method of attack might be to attack a chemical 
facility. In America, there are about 15,000 of them. Seven 
thousand of these facilities, if they are attacked, could 
affect 1,000 people. One-hundred-and-twenty-three of these 
facilities would affect 1 million people.
    Legislation concerning chemical plants was passed in 2006, 
but it is not strong enough. It closely followed the 
recommendations of the chemical industry. It allows the 
chemical companies to assess their own vulnerabilities and 
provide a plan for addressing them, and they are allowed to 
contest the government's disapproval of their security plans. 
So who has the final say on security?
    For early detection, the CDC and the American Association 
of Poison Control Centers use a program called TESS. It is a 
national real-time surveillance database of human exposure to 
chemical elements, and it compares these on a daily basis to 
see if there are aberrations.
    The information sharing concept applies to biological 
surveillance, as well. Mayor Bloomberg talked about monitoring 
daily health data. Local monitoring is an excellent idea, but 
recall that al Qaeda's method of attack is multiple attacks 
simultaneously, and so what we need is a database where 
information streams flow into a central location which can be 
monitored by all agencies. The DHS's National Biosurveillance 
Integration System is a step in the right direction. It is 
based on integrated information that records biological events 
in real time from all across the country. I encourage you to 
adequately fund this program and promote it.
    The terrorists might also attack by slamming a fast boat 
into a gas tanker that is near a metropolitan area. The Coast 
Guard has implemented security initiatives to thwart that kind 
of activity. However, the Coast Guard is in trouble. Its fleet 
is aging and some of the modernization efforts that have been 
made are not working as well as they should. Right now, it uses 
a 43-year-old unmanned icebreaking tugboat to patrol around the 
Indian Point nuclear power plant on the Hudson River, which is 
24 miles north of New York City. The boat's top speed is 10 
knots. The Coast Guard needs help. Its radar system is 
unreliable. There is no unified command of the coasts and the 
waterways, and the control is divided among at least 15 Federal 
agencies. So I hope that Congress will address this issue, as 
well. There are also turf issues over who should be sharing 
intelligence still reportedly.
    I would like to move on to intercepting the terrorists, 
which you mentioned in preventing, putting part of the money 
toward preventing the terrorists from even initiating an 
attack. A layered security approach increases the opportunity 
for interception of terrorists all along the way. On September 
11, all our layers of security failed. To ensure that they 
cannot gain access to or control any parts of our 
transportation system, the identity of all transportation 
workers and passengers must be verified.
    Now, the new Transportation Worker Identification Rule is a 
good start. It adds a layer of protection, which requires 
credentialing of maritime and seaport workers with biometrics 
data. However, the TSA rule did not require port operators to 
install the machines to read these credentials. This is 
incredible. How do you have protection if they can't read the 
credentials? It defeats the purpose. So immediately, I hope 
that you will urge the TSA to issue a supplementary rule 
requiring installation of machines to read these credentials, 
and if the credential program is working as well as it is said 
to be, then it should be accelerated so that it can go to 
workers in all vulnerable industries because 5 years, which is 
the plan, is too long to wait for credentialing in other 
vulnerable industries.
    There are other port security issues that are helping. We 
have the 24-hour rule in which manifests have to be submitted 
to Customs before cargo is laden on a U.S.-bound vessel in a 
foreign port. That is a good idea. The Secure Freight 
Initiative, which was just announced, is also a good idea, but 
it is only happening in three countries and limited ports and 
the screening is only going to take place on container ships, 
not on ships carrying tons of other kinds of cargo, like cars, 
fuel, or goods placed on pallets. The detection equipment is 
not always reliable. It is also prone to false positives and 
not all of the X-ray images will be checked. So there are 
things that need to be improved in that area, as well.
    Now, in monitoring of travelers, the 9/11 Commission noted 
that when people travel, they move through defined checkpoints 
and that is an opportunity to stop them. For optimal security, 
an integrated terrorist watch list should be made available to 
those who are monitoring activity at all these checkpoints. 
Now, it is not happening, as was pointed out this morning, 
particularly on domestic flights.
    On international flights, when people come through, first 
they are checked on a no-fly list, and right after the wheels 
leave the ground, then they are checked by Customs and Border 
Protection against their comprehensive selectee list. Now, on 
domestic flights, they are checked against the no-fly list by 
the airlines, not the government, and then there is no 
comparable checking against a government list that includes 
enough names to make it valuable. So it needs to be done as the 
government needs to do the checking on the airline passengers 
and check them against a comprehensive list. So this way, the 
privacy issues which are involved with the airlines checking 
the passengers will not be part of a problem. It is 
scandalously negligent, really, that an effective plan for 
sharing integrated watch list data has not been implemented 
more than 5 years after people were killed.
    I was looking through the legislation about the chemical 
plants, and I noticed something that said they were trying to 
address the problem of innocent names being put on the watch 
lists. I hope that whatever was put in that legislation does 
address that issue because it is extremely difficult, from what 
I understand, for those names to be removed. I comment on that.
    Undermining security initiatives that we have in America is 
our leniency regarding the kind of documentation that is 
acceptable for proof of identity and for crossing our borders. 
A visa is required for entry unless you come from one of 27 
visa waiver countries. Now, the President recently said he 
wanted to expand that, but I urge you to quash that idea. In a 
recent report, it said DHS could not keep up with the 27 visa 
waiver countries that have already been approved, and the most 
dangerous aspect of that is that travelers do not have 
background checks prior to arrival in the United States. That 
means there is only one opportunity during the immigration 
inspection at the port of entry to identify a terrorist or 
others who shouldn't be coming into our country. Visa waivers 
offer a loophole for terrorist entry. Even friendly nations, 
like England, Germany, and Spain, have terrorist cells, as 
evidenced by attacks and arrests there.
    Illegal immigration poses a threat, also, to our security. 
Mayor Bloomberg made a comment this morning which was very 
interesting about illegal immigration, but it is very important 
not to confuse or interchange legal immigration with illegal 
immigration. Some Middle Eastern people have tried to come 
across our borders and have been caught on our Southern 
borders. They have been intermixed with others coming across. 
We need to know who is entering our country. We need to verify 
their identity. We have to get our illegal immigration under 
control. We have to rein it in. The 9/11 Commission recommended 
setting national standards for State-issued documents, 
including birth, death, and driver's licenses, and you are 
urged to follow that recommendation.
    I would like to talk next to last about the Privacy and 
Civil Liberties Oversight Board. We do have one. It is not as 
effective as it should be, and you are urged to take the 
following steps. Give the Board subpoena power; prohibit any 
person or agency from interfering with its investigations 
because currently, the Attorney General and the DOT can halt an 
investigation; require Senate confirmation of its members; 
balance the representation of political parties on this Board; 
and provide adequate funding for staff and investigations.
    In the pursuit of security, it is imperative that the 
government stay within the parameters of the law. Security and 
privacy must be balanced. Surveillance of Americans suspected 
of terrorist ties is legitimate. However, warrantless spying in 
which government agencies listen in on conversations and read 
the e-mails of Americans in violation of the 1978 FISA Court 
law is dangerous to a free society. Requiring warrants for 
surveillance does not prohibit the government from surveillance 
of suspected terrorists. Unfettered clandestine surveillance 
increases the potential for abuse and with it the potential for 
insidious erosion of our rights. This is a significant reason 
why we need a strong, rigorous Privacy and Civil Liberties 
Oversight Board.
    And the last issue is that Congress reorganize itself for 
more effective oversight, taking steps to correct problems that 
they see in both intelligence and DHS. Unfortunately, it seems 
that the only way for Congress to enforce its will is by 
withholding appropriations, so for this reason, oversight 
should involve both the authorizing and appropriations 
committees working collaboratively from the same knowledge 
base. It would seem logical that this Senate Committee on 
Homeland Security and Governmental Affairs be the one which 
oversees all the various aspects of homeland security, one 
Committee that sees the big picture.
    Chairman Lieberman. I definitely agree with that. 
[Laughter.]
    Ms. Ashley. And the final comment, the American people 
depend on our government, which is our Congress, the Executive 
and the Judiciary Branches, to protect us from both external 
and internal threats to our safety and security and to protect 
our constitutional rights to privacy and freedom. So you are 
urged to approve the full implementation of the 9/11 Commission 
recommendations. Decisions that you make today will affect 
American families now and in the future. And in your oversight 
capacity, please remember the lessons of September 11 and hold 
all government agencies accountable for protecting the American 
people. Thank you.
    Chairman Lieberman. Thank you, Ms. Ashley. That is exactly 
what we intend to do. You gave excellent testimony and some 
very specific recommendations which we will take seriously.
    Ms. Lemack, you deserve a special medal. Go right ahead.

    TESTIMONY OF CARIE LEMACK,\1\ CO-FOUNDER AND PRESIDENT, 
   FAMILIES OF SEPTEMBER 11TH, AND DAUGHTER OF JUDY LAROCQUE

    Ms. Lemack. My name is Carie Lemack, and I am here because 
my mother, Judy Larocque--I brought her picture with me because 
I like to bring her when I come here----
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Lemack appears in the appendix on 
page 163.
---------------------------------------------------------------------------
    Chairman Lieberman. That is a beautiful picture.
    Ms. Lemack. Thank you. She would appreciate that. She was 
on American Airlines Flight 11 on September 11, 2001. It is an 
honor to be here today and to give a voice to the thousands of 
people who couldn't be here. So I thank you, Chairman Lieberman 
and Senator Collins, and I thank your impressive and dedicated 
staff who also sat through a very long morning, as it is.
    The 9/11 Commission published its book, which had 41 
recommendations, and nearly half of them have been implemented 
thanks in no small part to what you all have done since it came 
out 2\1/2\ years ago. But in the words of 9/11 Commission 
Chairman Thomas Kean, we are still not as safe as we need to 
be.
    My story, sadly, is one of thousands. On September 11, 
2001, my mom woke up at 5:30 in the morning to make her 8 a.m. 
flight to the West Coast. Actually, I was up earlier than her, 
which never happened, because I was a coxswain for a crew team, 
and that morning before I got in my shell, I thought I was 
going to give Mom a call just as a kick to be up that early, 
and then I thought, well, I will just call her after she lands 
because she is probably rushing to make her flight and I was 
already running late and my crew team didn't want to wait.
    Unfortunately, I never got to make that call. I did leave 
lots of messages for her on her cell phone, but I never got 
through.
    Even now, years later, when my cell phone rings, I still 
look at the Caller ID and I hope that it is going to say ``Mom 
cell,'' and it never does. I wonder, what would I say to her if 
I could talk to her now? I sometimes think, well, she was CEO 
and president and founder of a company and maybe I would tell 
her about founding the nonprofit Families of September 11, tell 
her about the 2,500 individuals who have joined us, who support 
our work to prevent terrorism and are happy for all that we 
have been doing in the 5\1/2\ years since September 11. But I 
think more importantly what I would tell my mom is that I love 
her and that I am going to do everything in my power to make 
sure that what happened to her never happens again.
    I fully support the statements of my colleagues, Ms. Ashley 
and Ms. Fetchet. I have been honored to get to know them in the 
last 5\1/2\ years. As one September 11 widow once said to me, 
these are the best people I never wanted to meet. But I don't 
want to repeat their words, so instead, I am going to focus on 
four different areas, on congressional oversight, nuclear 
terrorism, transportation security, and risk-based homeland 
security funding, which sounded like a new thing except for 
this morning we have talked about it quite a lot, so I will 
make it short.
    But first, congressional oversight. I can find no better 
words than that of the 9/11 Commission, so I am going to quote 
them. ``Congressional oversight for intelligence is 
dysfunctional. The creation of a National Intelligence 
Director,'' the so-called DNI ``will not work if congressional 
oversight does not change, too. So long as oversight is 
governed by the current congressional rules and resolutions, we 
believe the American people will not get the security they want 
and they need.'' Those are stunning words.
    In 2002, Congress and the President created the Department 
of Homeland Security (DHS), which is charged with securing the 
homeland. As such, it merits strong congressional oversight. 
Unfortunately, as it stands today, there is no consolidated 
congressional oversight for this department. Instead, as we 
have heard, it is literally split among dozens of committees 
and subcommittees.
    And what I can't understand is if legislators saw the need 
to create all of these agencies and put them into one 
department, why they weren't willing to also make the very 
difficult but very necessary change to have one committee 
overseeing them. I know that you share these views. I just 
wanted to reiterate them and let you know that we support that, 
as well.
    Chairman Lieberman. Thank you. Please go on, but I 
appreciate the support. Senator Collins and I are ready to do 
battle on this again. It is a tough one because it strikes at 
the status quo and turf here, but----
    Ms. Lemack. But we will be there by your side.
    Chairman Lieberman. OK.
    Ms. Lemack. We are committed to it.
    Chairman Lieberman. Thank you. That gives me hope.
    Ms. Lemack. What we don't want to see is that we have to 
wait for another catastrophic event to bring more victims' 
family members to this witness table. It has been enough. We 
need to make the changes, even though they are difficult, as 
you say.
    My next topic is the topic of nuclear terrorism. Osama bin 
Laden was the mastermind behind my mom's and your daughter's 
and your son's murders, and he has pledged now to kill 4 
million innocent Americans. He has pledged to do it with a 
nuclear bomb. I think we have to listen to his words, and we 
need to stop him.
    The 9/11 Commission agreed. They said that ``the greatest 
danger of another catastrophic attack in the United States will 
materialize if the world's most dangerous terrorists acquire 
the world's most dangerous weapons.'' President Bush and 
Senator Kerry both agreed during the 2004 debates that weapons 
of mass destruction in the hands of terrorists was the biggest 
threat facing the country. And I am pleased that leaders on 
both sides of the aisle have agreed and expressed their 
support. But the support has got to be combined with action.
    The good news is, at least in the case of nuclear 
terrorism, we can do a great deal to stop these terrorists. 
There is a limited amount of nuclear weapons material. No 
terrorist organization currently has the capabilities to create 
their own. And if we lock down the nuclear weapons materials 
before the terrorists get them, they will not have a nuclear 
bomb and there will not be nuclear terrorism.
    There is bad news. Unfortunately, the government was issued 
the grade of a ``D'' by the 9/11 Commission over a year ago on 
their efforts to prevent nuclear terrorism. As former Senator 
Sam Nunn says, ``We are in a race between catastrophe and 
cooperation, and the outcome is unclear.'' So I hope that we 
can make that outcome clear, and we need to take action to do 
that now.
    The most fundamental requirement of success is sustained 
high-level leadership. That is why I find it shocking that 
there is no high-level person in the Administration who wakes 
up every single day who is solely responsible and focused on 
preventing nuclear terrorism. We need, as a start, a high-level 
assistant to the President whose sole job it is to oversee and 
prevent nuclear terrorism. This person should be a Deputy 
National Security Advisor who works within the national 
security apparatus. This person should be able to coordinate 
work across departments, across State and Energy and Defense, 
to dramatically accelerate our work with other nations to lock 
down nuclear weapons materials at their source, someone with 
Presidential access to create opportunities to accelerate work 
to lock down nuclear weapons materials, and someone to break 
through the bureaucratic obstacles that stymie progress. The 
terrorists do not operate in functional silos, and we cannot 
afford to, either.
    I would like to make one final point on the issue of 
nuclear terrorism. We have devoted huge resources to the 
detection of nuclear weapons at our borders, in our ports, in 
our cities. But I want to make one thing clear. If we are 
talking about detecting a nuclear bomb, even if we are 100 
percent effective, we are talking about a nuclear device that 
has already been created, that is already capable of doing 
great harm. Rather than relying on scanning equipment at ports 
in the United States and abroad, our first line of defense 
should be securely managing the nuclear materials that are 
essential to bomb making.
    We know that there are nuclear weapons materials in more 
than 40 countries, many of which are secured by only a chain-
link fence. We need a global effort to lock down highly 
enriched uranium and plutonium, and the United States must be 
leading the charge. Detection is hard to do. Nuclear bombs give 
off very little radiation, and even a thin shield of lead can 
stop radiation from getting to the detection equipment. As 
such, the best way to make the country and the world safer 
against nuclear terrorism is to lock materials at their source, 
plain and simple.
    Incidentally, there is a short 45-minute docudrama called 
``Last Best Chance'' that stars one of your former colleagues, 
Senator Fred Dalton Thompson, and it puts you in the 
perspective of the President of the United States after 
terrorists have acquired nuclear weapons. His character 
laments, after learning al Qaeda has become a nuclear power, 
``Why didn't we do something about this sooner?'' Today is our 
last best chance. Today, we simply cannot afford to squander 
it.
    Next, I want to talk about transportation security, and I 
want to make clear that when I talk about transportation 
security, it is not just aviation security, it is rail, it is 
transit, it is where all these modes connect, as well. The 
difficult truth is, we can never make planes or ships or 
railways fully secure. Almost anything can be used as a weapon. 
Our focus on preventing dangerous weapons from getting on board 
is necessary. It is a necessary part of the solution. But it is 
not the only way to go. We also need to focus on preventing 
dangerous people from getting on board.
    Toward that end, there is a list of five things I think 
that we need to do. Very quickly, one, implement Secure Flight, 
giving the government responsibility for comparing passengers' 
names to the terror watch list instead of the current system in 
which the airlines do the passenger pre-screening. Congress 
should take action to ensure that all available technologies 
and resources are being employed to keep dangerous people off 
planes on both international and domestic flights.
    Two, expand the use of behavior pattern recognition, using 
specially trained screeners and law enforcement officers to 
scan crowds looking for odd, suspicious behavior. Behavior 
pattern recognition is not racial profiling, and George Naccara 
is the Federal Security Director at Logan International Airport 
who uses this, and he will tell you, anyone using race as a 
part of behavior pattern recognition is simply doing it wrong.
    Three, we need to provide funds to train law enforcement 
officers, screeners, and others who work in transportation in 
the Screening of Passengers by Observation Techniques. It is 
the SPOT program. It was started after September 11, 2001. It 
is being used at Boston's airport, and it has shown promising 
results, adding a much-needed additional layer to security.
    Four, we need to direct the Secretary of Homeland Security 
to create an unclassified version of the National Strategy for 
Transportation Security so that it can be used more widely as a 
tool to tie transportation priorities to budget priorities.
    And fifth, we need to talk about cargo and screening 100 
percent of air cargo. It is a loophole that anyone could 
exploit right now, and it is one we can't afford to.
    Last,  I  will  talk  quickly  about  homeland  security  
funding.  The 9/11 Commission Report says, ``Homeland security 
grants should be based strictly on an assessment of risks and 
vulnerabilities.'' I recommend that you require governmental 
jurisdictions and infrastructure facility operators to conduct 
risk assessments using a federally prescribed common 
methodology. This methodology should, to the maximum extent 
possible, enable cross-comparisons. It will allow 
decisionmakers to better understand where are the greatest 
relative threats, and then can allocate available funding 
accordingly.
    In every way, Congress has to convey the extraordinary 
importance of fighting terrorism and preparing to effectively 
respond. Treating the allocation of homeland security grants 
like any other run-of-the-mill Federal program undercuts that 
message, and certainly we all know that no taxpayer dollars 
that have been designated for homeland security can be spent on 
air conditioned garbage trucks, as they have in the past.
    And in conclusion, I began my testimony today talking about 
what I would tell my mom if I had a chance to talk to her. I 
would tell her about my little nephew called Jude. He is 2 
years old. This is him in the voting booth with me this past 
November. As you can tell, he is already an engaged citizen. 
And I would tell her that he loves dogs, fire trucks, and his 
little stuffed lion Simba, and he is a big fan of Warren 
Miller, extreme ski movies, even at age two. But I would also 
tell her that I am doing everything possible to make sure that 
this world is safer for him.
    Today, we stand here, and your actions in this session 
going forward will send a message to the American public, and I 
hope it is the same message I am going to send to Mom, which is 
we want to make sure that we are going to do everything we can 
to make this country safer and more secure. That means making 
the tough decisions and fighting the tough battles and heeding 
the wise advice of the 9/11 Commission and implementing in full 
their recommendations that have not been yet implemented and 
have been ignored for too long.
    With that, I conclude and thank you for your patience today 
and will take any questions.
    Chairman Lieberman. Thank you.
    I think I owe you first not only thanks, but that the next 
time we do a hearing and we invite you, we are going to put you 
on first. That is compensatory justice.
    Part of the power of your presence and testimony is the 
personal loss that you suffered because it awakens anyone who 
hears you, and many will hear you who are not in this room over 
C-SPAN. It awakens them from a denial that may actually exist. 
We have been 5 years-plus since September 11. We haven't had 
another terrorist attack. There is a sense that it is ``over 
there.'' But it really is here, and as you said, you just have 
to listen to the enemy and you know this is what they were 
saying in the 1990s before September 11, 2001. They did it. 
What they are saying now is they will try to do it again, and 
so we have to arouse the public, to awaken the public. But 
also, frankly, our role as leaders is to act when the danger 
doesn't seem painfully present because we know it is there.
    Your testimony does two things, really. You bring the 
personal tragedy, that loss, but also you bring the remarkable 
experience and expertise that you have developed in these 
areas. So your testimony has been very helpful.
    I am going to forego questions because of the hour. I 
apologize again. Maybe because it is early in the session, 
maybe because of the witnesses we had on the first panel, there 
was a much larger turnout than we expected. So I guess that is 
a good problem.
    Ms. Fetchet. Senator Lieberman, I wonder if I could just 
mention one more thing.
    Chairman Lieberman. Please.
    Ms. Fetchet. The Commission was so effective, as I said 
before, stepping back and looking at the broader picture, and I 
would hope that we are not going to have to rely on watchdog 
groups to monitor this process here in Washington. I would like 
you to consider the thoughts of putting a mechanism here in 
place right here in the House and Senate to, on a regular 
basis--and I would suggest this actually for DHS, too--in 
September, why not hold a hearing in all of these committees to 
see where do we sit, what has been implemented, do a full 
evaluation of what is working, what isn't working, and what do 
we need to tweak.
    And I think, is it the Gold-Nichols----
    Chairman Lieberman. Goldwater-Nichols?
    Ms. Fetchet [continuing]. Goldwater-Nichols. Maybe even 
look back to them because I can't imagine that was an easy task 
that lay ahead of them.
    Chairman Lieberman. It took years.
    Ms. Fetchet. And yet they were very effective. As I 
mentioned, DHS, I think, has to have roundtables around the 
country for local, regional, and interstate communities to sit 
down and do a full evaluation, what is working and what is not. 
What better way to celebrate September as Preparedness Month?
    But I do think there has to be a mechanism in place. The 
Commissioners have gone well beyond the call of duty, and there 
should be something here.
    Chairman Lieberman. I accept that challenge. I promise you 
two things. One is that we should find a way to 
institutionalize that kind of review in September as part of 
Preparedness Month and other activities. But at the beginning 
of this term, as Chairman of this Committee for this session, I 
promise you that exactly that kind of oversight is our No. 1 
priority. And we have done a lot of legislating in this 
Committee over the past 2, 3, or 4 years, a lot of it historic, 
and a lot of it directly in response to September 11.
    But we need to spend more time on oversight to see how this 
is working and to fill the gaps that still exist.
    Ms. Lemack. If I may, I completely agree with Ms. Fetchet's 
suggestion that we have to do a better job at oversight, but we 
also have to be forward-thinking. One recommendation that is 
not in the 9/11 Commission report that I think is a huge issue 
we need to tackle is there is no Office of Victims' Assistance 
within the Department of Homeland Security, meaning we have a 
Department whose job it is to protect the homeland, but there 
is no one solely focused on the people who will be affected if 
there is a catastrophic event, whether it be manmade or 
natural. We need Congress' support to create this Office of 
Victims' Assistance, and I am hoping that we can do that in the 
next session to plan because there are going to be events and 
there are going to be people who are affected. Imagine how in 
Hurricane Katrina, we could have done a better job if we had 
had some sort of system in place.
    Chairman Lieberman. Yes. I agree with you. There is a lot 
of work going on to look back and review what happened 
particularly to the victims in Hurricane Katrina, which will 
have real relevance to what you are talking about. Also, the 
lack of readiness to deal with special needs populations in 
Hurricane Katrina, which will be the same if there is another 
terrorist attack.
    So, look, here is our short-term goal, and this is what 
Senator Reid has asked us to do. We are going to take some 
things coming out of this hearing that we feel a special 
urgency about and that we feel we can do something meaningful 
about and put it into legislation. We are going to mark it up 
by the end of this month. That will be a beginning because 
there is a feeling that the threat is obviously there and we 
see gaps and needs that you have testified to and needs. So we 
are going to move on that front.
    Then we are going to come back and begin a more 
comprehensive process of ongoing monitoring of all that we have 
created to provide for homeland security, and we will continue 
to both report on that, investigate, hope to change things as a 
result of that. We are going to focus on the status of 
terrorism here within the country, or the threat of terrorism 
from within the country and people coming into the country for 
purposes of terrorism, and then we will continue to report out 
legislation as we go forward.
    I thank you very much. We have hit now, I don't know if 
this is going to be a precedent for my chairmanship---- 
[Laughter.]
    But we are about 4\1/2\ hours into the hearing. It has been 
actually a very productive, valuable hearing. It certainly 
confirms not only my intention, but it deepens my motivation to 
continue to produce legislation that protects because the 
threat is still there.
    We are going to leave the record of this hearing open for 
another 15 days, and with great thanks to you and a knowledge 
and also a confidence that we will continue to work together, I 
will adjourn the hearing.
    [Whereupon, at 2 p.m., the Committee was adjourned.]


                            A P P E N D I X

                              ----------                              

[GRAPHIC] [TIFF OMITTED] T3871.001

[GRAPHIC] [TIFF OMITTED] T3871.002

[GRAPHIC] [TIFF OMITTED] T3871.003

[GRAPHIC] [TIFF OMITTED] T3871.004

[GRAPHIC] [TIFF OMITTED] T3871.005

[GRAPHIC] [TIFF OMITTED] T3871.006

[GRAPHIC] [TIFF OMITTED] T3871.007

[GRAPHIC] [TIFF OMITTED] T3871.008

[GRAPHIC] [TIFF OMITTED] T3871.009

[GRAPHIC] [TIFF OMITTED] T3871.010

[GRAPHIC] [TIFF OMITTED] T3871.011

[GRAPHIC] [TIFF OMITTED] T3871.012

[GRAPHIC] [TIFF OMITTED] T3871.013

[GRAPHIC] [TIFF OMITTED] T3871.014

[GRAPHIC] [TIFF OMITTED] T3871.015

[GRAPHIC] [TIFF OMITTED] T3871.016

[GRAPHIC] [TIFF OMITTED] T3871.017

[GRAPHIC] [TIFF OMITTED] T3871.018

[GRAPHIC] [TIFF OMITTED] T3871.019

[GRAPHIC] [TIFF OMITTED] T3871.020

[GRAPHIC] [TIFF OMITTED] T3871.021

[GRAPHIC] [TIFF OMITTED] T3871.022

[GRAPHIC] [TIFF OMITTED] T3871.023

[GRAPHIC] [TIFF OMITTED] T3871.024

[GRAPHIC] [TIFF OMITTED] T3871.025

[GRAPHIC] [TIFF OMITTED] T3871.026

[GRAPHIC] [TIFF OMITTED] T3871.027

[GRAPHIC] [TIFF OMITTED] T3871.028

[GRAPHIC] [TIFF OMITTED] T3871.029

[GRAPHIC] [TIFF OMITTED] T3871.030

[GRAPHIC] [TIFF OMITTED] T3871.031

[GRAPHIC] [TIFF OMITTED] T3871.032

[GRAPHIC] [TIFF OMITTED] T3871.033

[GRAPHIC] [TIFF OMITTED] T3871.034

[GRAPHIC] [TIFF OMITTED] T3871.035

[GRAPHIC] [TIFF OMITTED] T3871.036

[GRAPHIC] [TIFF OMITTED] T3871.037

[GRAPHIC] [TIFF OMITTED] T3871.038

[GRAPHIC] [TIFF OMITTED] T3871.039

[GRAPHIC] [TIFF OMITTED] T3871.040

[GRAPHIC] [TIFF OMITTED] T3871.041

[GRAPHIC] [TIFF OMITTED] T3871.042

[GRAPHIC] [TIFF OMITTED] T3871.043

[GRAPHIC] [TIFF OMITTED] T3871.044

[GRAPHIC] [TIFF OMITTED] T3871.045

[GRAPHIC] [TIFF OMITTED] T3871.046

[GRAPHIC] [TIFF OMITTED] T3871.047

[GRAPHIC] [TIFF OMITTED] T3871.048

[GRAPHIC] [TIFF OMITTED] T3871.049

[GRAPHIC] [TIFF OMITTED] T3871.050

[GRAPHIC] [TIFF OMITTED] T3871.051

[GRAPHIC] [TIFF OMITTED] T3871.052

[GRAPHIC] [TIFF OMITTED] T3871.053

[GRAPHIC] [TIFF OMITTED] T3871.054

[GRAPHIC] [TIFF OMITTED] T3871.055

[GRAPHIC] [TIFF OMITTED] T3871.056

[GRAPHIC] [TIFF OMITTED] T3871.057

[GRAPHIC] [TIFF OMITTED] T3871.058

[GRAPHIC] [TIFF OMITTED] T3871.059

[GRAPHIC] [TIFF OMITTED] T3871.060

[GRAPHIC] [TIFF OMITTED] T3871.061

[GRAPHIC] [TIFF OMITTED] T3871.062

[GRAPHIC] [TIFF OMITTED] T3871.063

[GRAPHIC] [TIFF OMITTED] T3871.064

[GRAPHIC] [TIFF OMITTED] T3871.065

[GRAPHIC] [TIFF OMITTED] T3871.066

[GRAPHIC] [TIFF OMITTED] T3871.067

[GRAPHIC] [TIFF OMITTED] T3871.068

[GRAPHIC] [TIFF OMITTED] T3871.069

[GRAPHIC] [TIFF OMITTED] T3871.070

[GRAPHIC] [TIFF OMITTED] T3871.071

[GRAPHIC] [TIFF OMITTED] T3871.072

[GRAPHIC] [TIFF OMITTED] T3871.073

[GRAPHIC] [TIFF OMITTED] T3871.074

[GRAPHIC] [TIFF OMITTED] T3871.075

[GRAPHIC] [TIFF OMITTED] T3871.076

[GRAPHIC] [TIFF OMITTED] T3871.077

[GRAPHIC] [TIFF OMITTED] T3871.078

[GRAPHIC] [TIFF OMITTED] T3871.079

[GRAPHIC] [TIFF OMITTED] T3871.080

[GRAPHIC] [TIFF OMITTED] T3871.081

[GRAPHIC] [TIFF OMITTED] T3871.082

[GRAPHIC] [TIFF OMITTED] T3871.083

[GRAPHIC] [TIFF OMITTED] T3871.084

[GRAPHIC] [TIFF OMITTED] T3871.085

[GRAPHIC] [TIFF OMITTED] T3871.086

[GRAPHIC] [TIFF OMITTED] T3871.087

[GRAPHIC] [TIFF OMITTED] T3871.088

[GRAPHIC] [TIFF OMITTED] T3871.089

[GRAPHIC] [TIFF OMITTED] T3871.090

[GRAPHIC] [TIFF OMITTED] T3871.091

[GRAPHIC] [TIFF OMITTED] T3871.092

[GRAPHIC] [TIFF OMITTED] T3871.093

[GRAPHIC] [TIFF OMITTED] T3871.094

[GRAPHIC] [TIFF OMITTED] T3871.095

[GRAPHIC] [TIFF OMITTED] T3871.096

[GRAPHIC] [TIFF OMITTED] T3871.097

[GRAPHIC] [TIFF OMITTED] T3871.098

[GRAPHIC] [TIFF OMITTED] T3871.099

[GRAPHIC] [TIFF OMITTED] T3871.100

[GRAPHIC] [TIFF OMITTED] T3871.101

[GRAPHIC] [TIFF OMITTED] T3871.102

[GRAPHIC] [TIFF OMITTED] T3871.103

[GRAPHIC] [TIFF OMITTED] T3871.104

[GRAPHIC] [TIFF OMITTED] T3871.175

[GRAPHIC] [TIFF OMITTED] T3871.176

[GRAPHIC] [TIFF OMITTED] T3871.177

[GRAPHIC] [TIFF OMITTED] T3871.178

[GRAPHIC] [TIFF OMITTED] T3871.179

[GRAPHIC] [TIFF OMITTED] T3871.180

[GRAPHIC] [TIFF OMITTED] T3871.181

[GRAPHIC] [TIFF OMITTED] T3871.182

[GRAPHIC] [TIFF OMITTED] T3871.183

[GRAPHIC] [TIFF OMITTED] T3871.184

[GRAPHIC] [TIFF OMITTED] T3871.185

[GRAPHIC] [TIFF OMITTED] T3871.186

[GRAPHIC] [TIFF OMITTED] T3871.187

[GRAPHIC] [TIFF OMITTED] T3871.188

[GRAPHIC] [TIFF OMITTED] T3871.189

[GRAPHIC] [TIFF OMITTED] T3871.190

[GRAPHIC] [TIFF OMITTED] T3871.191

[GRAPHIC] [TIFF OMITTED] T3871.192

[GRAPHIC] [TIFF OMITTED] T3871.105

[GRAPHIC] [TIFF OMITTED] T3871.106

[GRAPHIC] [TIFF OMITTED] T3871.107

[GRAPHIC] [TIFF OMITTED] T3871.108

[GRAPHIC] [TIFF OMITTED] T3871.109

[GRAPHIC] [TIFF OMITTED] T3871.110

[GRAPHIC] [TIFF OMITTED] T3871.111

[GRAPHIC] [TIFF OMITTED] T3871.112

[GRAPHIC] [TIFF OMITTED] T3871.113

[GRAPHIC] [TIFF OMITTED] T3871.114

[GRAPHIC] [TIFF OMITTED] T3871.115

[GRAPHIC] [TIFF OMITTED] T3871.116

[GRAPHIC] [TIFF OMITTED] T3871.117

[GRAPHIC] [TIFF OMITTED] T3871.118

[GRAPHIC] [TIFF OMITTED] T3871.119

[GRAPHIC] [TIFF OMITTED] T3871.120

[GRAPHIC] [TIFF OMITTED] T3871.121

[GRAPHIC] [TIFF OMITTED] T3871.122

[GRAPHIC] [TIFF OMITTED] T3871.123

[GRAPHIC] [TIFF OMITTED] T3871.124

[GRAPHIC] [TIFF OMITTED] T3871.125

[GRAPHIC] [TIFF OMITTED] T3871.126

[GRAPHIC] [TIFF OMITTED] T3871.127

[GRAPHIC] [TIFF OMITTED] T3871.128

[GRAPHIC] [TIFF OMITTED] T3871.129

[GRAPHIC] [TIFF OMITTED] T3871.130

[GRAPHIC] [TIFF OMITTED] T3871.131

[GRAPHIC] [TIFF OMITTED] T3871.132

[GRAPHIC] [TIFF OMITTED] T3871.133

[GRAPHIC] [TIFF OMITTED] T3871.134

[GRAPHIC] [TIFF OMITTED] T3871.135

[GRAPHIC] [TIFF OMITTED] T3871.136

[GRAPHIC] [TIFF OMITTED] T3871.137

[GRAPHIC] [TIFF OMITTED] T3871.138

[GRAPHIC] [TIFF OMITTED] T3871.139

[GRAPHIC] [TIFF OMITTED] T3871.140

[GRAPHIC] [TIFF OMITTED] T3871.141

[GRAPHIC] [TIFF OMITTED] T3871.142

[GRAPHIC] [TIFF OMITTED] T3871.143

[GRAPHIC] [TIFF OMITTED] T3871.144

[GRAPHIC] [TIFF OMITTED] T3871.145

[GRAPHIC] [TIFF OMITTED] T3871.146

[GRAPHIC] [TIFF OMITTED] T3871.147

[GRAPHIC] [TIFF OMITTED] T3871.148

[GRAPHIC] [TIFF OMITTED] T3871.149

[GRAPHIC] [TIFF OMITTED] T3871.150

[GRAPHIC] [TIFF OMITTED] T3871.151

[GRAPHIC] [TIFF OMITTED] T3871.152

[GRAPHIC] [TIFF OMITTED] T3871.153

[GRAPHIC] [TIFF OMITTED] T3871.154

[GRAPHIC] [TIFF OMITTED] T3871.155

[GRAPHIC] [TIFF OMITTED] T3871.156

[GRAPHIC] [TIFF OMITTED] T3871.157

[GRAPHIC] [TIFF OMITTED] T3871.158

[GRAPHIC] [TIFF OMITTED] T3871.159

[GRAPHIC] [TIFF OMITTED] T3871.160

[GRAPHIC] [TIFF OMITTED] T3871.161

[GRAPHIC] [TIFF OMITTED] T3871.162

[GRAPHIC] [TIFF OMITTED] T3871.163

[GRAPHIC] [TIFF OMITTED] T3871.164

[GRAPHIC] [TIFF OMITTED] T3871.165

[GRAPHIC] [TIFF OMITTED] T3871.166

[GRAPHIC] [TIFF OMITTED] T3871.167

[GRAPHIC] [TIFF OMITTED] T3871.168

[GRAPHIC] [TIFF OMITTED] T3871.169

[GRAPHIC] [TIFF OMITTED] T3871.170

[GRAPHIC] [TIFF OMITTED] T3871.171

                                 <all>

</pre></body></html>
